<html>
<title> - ENERGY AND WATER, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
 ENERGY AND WATER, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 
                                  2006

                              ----------                              


                        TUESDAY, MARCH 15, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:21 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Craig, Allard and Dorgan.

                          DEPARTMENT OF ENERGY

            Office of Energy Efficiency and Renewable Energy

STATEMENT OF DAVID GARMAN, ASSISTANT SECRETARY

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. The hearing will please come to order.
    We have checked, and the minority has suggested that we 
proceed, even though they're not in attendance, because they 
won't be able to be here for awhile, and we have to get a few 
things on the record. So if there are questions, we will give 
them plenty of opportunity to present them, and if you would 
answer them in due course we would appreciate it.
    So, today we are going to hear from the Office of Science, 
the Office of Nuclear Energy, and the Office of Energy 
Efficiency and Renewable Energy.
    Since the Senate Appropriations Committee reorganized 2 
weeks ago, this is the first opportunity for this subcommittee 
to hold hearings on several DOE activities that had previously 
been under the jurisdiction of the Interior Subcommittee. 
Overall, this subcommittee will add to its jurisdiction roughly 
$1.6 billion in new programs, and various functions from the 
Interior Subcommittee.
    Today we have three witnesses; Dr. Ray Orbach, Director of 
the Office of Science; David Garman, Assistant Secretary for 
the Office of Energy Efficiency and Renewable Energy; Mr. 
William Magwood, Director of the Office of Nuclear Energy.
    Mr. Garman, the President has nominated you to serve as the 
Under Secretary. During the last Congress, you served in this 
same position and did a fine job. I hope that we're going to be 
able to work out things where we can proceed with your 
confirmation quickly.
    Mr. Garman. Thank you, Mr. Chairman.
    Senator Domenici. The President made deficit reductions a 
top priority in his budget; as a result, things are very tight. 
The budget for the Department of Energy proposes a $23.4 
billion, which overall is a 2 percent reduction from the 
current year. The Office of Science budget provides for $3.46 
billion, and it's down about 3.8 percent.
    Despite these tight budgets, Dr. Orbach and his team have 
put together a program that supports cutting-edge research and 
funds for world-class research facilities, at least as we see 
it. We'll be talking about that briefly today. Completes the 
construction of a Spallation Neutron Source at Oak Ridge, a 
marvelous new facility which I think will make that national 
laboratory a very significant laboratory for years to come.
    The DOE will also complete construction of four of the five 
nanotechnology centers, another very exciting activity. We read 
a lot about it, not very often do they mention the DOE is out 
front, on the cutting edge of that.
    In Biology and Environmental Research programs, funding for 
the Genomes to Life program, the human genome and the low dose 
radiation study are all continued at current levels.
    One area which we believe the budget comes up short is in 
the area of fusion energy research. The budget shifts funding 
from the United States research to the international 
thermonuclear experimental reactor, despite the fact that there 
is no agreement on the site of that facility as we speak here 
today. If we're to remain at the cutting edge of fusion 
research, it would seem to me, unless we can be convinced to 
the contrary, that we can't undermine our scientific excellence 
by under-funding our own capability. Now, maybe we can be 
convinced that we're not under-funding to that extent, but it 
would appear so, just looking at the numbers and activities.

                        OFFICE OF NUCLEAR ENERGY

    The Office of Nuclear Energy--which concerns all of us--
last year Congress increased the funding for the Office of 
Nuclear Energy and R&D by $100 million. In the fiscal year 
2006, this account is up an additional 12 percent. This budget 
provides $56 million to support the Nuclear Power (NP) 2010 
program, and that provides matching funds for early-site 
permitting, and shares the cost associated with the first of 
the kind engineering of a new plant. To date, three utilities 
have now applied for early-site permits--rather exciting news--
three more in the exploration phase. Two consortia have applied 
for DOE funding, to support construction and operating licenses 
for new plants before the Nuclear Regulatory Commission.
    While I am pleased with the utility interest, and will be 
having further meetings with others who will be financing 
nuclear power plants in the future--so we'll get a full picture 
of the enthusiasm, or lack of it, whichever the case may be--
since Congress last passed the budget in November, DOE 
designated two groups go forward. Four months later, the Office 
of Nuclear Energy has yet to send out a single dollar in that 
regard. So, I'm concerned with the administration's commitment 
to supporting long-term research in the next generation of 
reactors. We would expect some comment on that today.
    The budget fails to mention what has become of the $25 
million earmarked in the 2005 Energy Conference Report for the 
deployment of the next generation of nuclear plants at Idaho 
National Laboratory. I intend to work with the Secretary and 
certainly with Senator Craig to develop a path to ensure that 
the Idaho National Lab will develop the next generation nuclear 
plant. We designated that laboratory to do that, and we're 
really wondering what happened--I assume something has 
happened--but we want to make sure that the resources are there 
to continue with it.
    We all know that we're going to continue to support new 
reactors that are more efficient, produce less waste, and 
support the President's Hydrogen Initiative. On the Office of 
Energy Efficiency and Renewables, this budget provides $1.2 
billion for that function, and that's a 4 percent reduction. 
We'd like to know what you think that's going to do, I would 
assume that you're moving things around, and assume that the 
major activities won't be harmed significantly.
    The budget for the Hydrogen Initiative for the present is a 
big winner, and well it should be. While it's way out in the 
future--or out in the future--it clearly is one of the bright 
spots, it's where we might go with a new kind of 
transportation, an engine that will move our transportation. In 
addition, that budget provides a $359.9--almost $600 million--
for hydrogen research, that's a $34 million increase, and a 
$100 million from 2004, so that's pretty good.
    Biomass, it won't get as much money as before, we'll have 
somebody talk about that. There's a reduction of 37 percent. 
Solar energy research is down about 2 percent, funding for 
research is up on wind energy, significantly.
    Finally, the administration has proposed ending the 
hydropower R&D effort, and requested only nominal funding to 
close out this office. I'm sure some Senators will be 
interested in that, we'll see what they have to say. Perhaps 
Senator Craig will be one, I don't know.
    As I noted earlier, there's a significant number of 
functions and activities now under this jurisdiction of our 
subcommittee. We'll be learning of these new accounts, 
hopefully finding some savings through efficiencies that can be 
applied toward additional scientific research, which is what we 
want to try to stress.
    Now, Senator Reid is not here, but I note that--I assume 
he's not going to be here, Senator Reid, is that correct? Okay, 
so we'll put Senator Reid's statement in the record, whenever 
he wants to put it in, and with that, Senator Craig, if you 
have some comments, and Senator Dorgan, if you do, then we'll 
proceed to our witnesses. Senator Craig.

                    STATEMENT OF SENATOR LARRY CRAIG

    Senator Craig. Mr. Chairman, I'll be very brief. You've 
outlined the essence of the President's budget, and in many 
ways it points to energy's future, it's a budget that's gone 
wanting for more resource. I say that, gentlemen, because I 
know you spend a good deal of time out traveling and speaking--
as do many of us--and in every audience, the question is always 
asked, ``What are you going to do about our national energy 
policy? What are you going to do about the future of energy for 
our country?'' Because most Americans believe it has been a 
failure of Congress and administrations to produce a national 
energy policy. We're doing that. The chairman is working 
overtime at this moment to assure that by the close of this 
year, we're going to have a national energy policy in place, 
and this administration and this President have worked very 
hard to promote that.
    But, I must tell you, this budget is not reflective of as 
much of that as we would like to see, without question. Because 
the kind of money that the Federal Government spends as the R&D 
and future type of research that builds that long-term energy 
base, so we'll work closely with you as we deal with this 
budget, it is a tight budget year, and all of us can afford, 
and will do, some belt tightening. But I hope that in the 
budget we can establish the priorities that really are 
futuristic in their vision as it relates to need, and certainly 
as it relates to what's going on in this country. I just can't 
imagine that the Congress and this administration will sit idly 
by, and allow our energy future to continue to erode. Certainly 
that's not where we're all intending to go, and where we're all 
intending to be at the close of business on this issue, and I 
hope that we can work with you to make sure that the budgets 
also reflect that. Thank you, Mr. Chairman.
    Senator Domenici. Thank you very much. Senator Dorgan.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, thank you very much. I'm 
unable to stay for the entire hearing, but I did want to be 
able to comment, say just a word at the start. I share many of 
the comments made by my colleague from Idaho, and you, Mr. 
Chairman.
    We are just one terrorist event away from a catastrophe 
with respect to energy. Sixty percent of our oil comes from off 
our shores, and our economy is vulnerable as a result. I really 
think that we need to move towards a hydrogen fuel cell 
economy. I know that the chairman also has an interest in that 
and other members of the Energy Committee on which we serve. I 
think to do that you need to be bold and aggressive, and need 
almost a Manhattan or an Apollo-type project to get there. I 
really hope that we will be able to have some discussion about 
that once again this year. I think in the near term, we need to 
expand the role that renewables play with respect to our energy 
supply. Mr. Garman, I know that you've been to some events that 
I've held, and others have held on renewables, and you 
understand that.
    I might make just one other comment: probably one of the 
cheapest ways to acquire a barrel of oil is to save a barrel of 
oil through increased efficiency. The saving of energy is 
critically important. I'm involved--along with some of my 
colleagues here in Congress--in something called the Alliance 
to Save Energy. It has done a lot of important work, including 
the development of the Energy Star Awards with the Department 
of Energy.
    And so, I think those three areas are critically important: 
a bold hydrogen fuel cell initiative which moves us towards a 
different kind of energy construct; the use of more renewables, 
including renewable portfolio standards; and then focusing on 
efficiency. And I have great hope as we--in another committee--
put together an energy bill. I have great hope that we will be 
able to construct an energy bill this year that really moves 
aggressively down the road in all three of those areas, and I 
hope also that we're able to find ways--as my colleague Senator 
Craig just said--to fund, aggressively, these areas in the 
appropriations process. Mr. Chairman, thank you for your 
patience.

                       STATEMENT OF DAVID GARMAN

    Senator Domenici. Let's proceed. As I understand it, it is 
common that you will proceed first, Dr. Orbach, then Mr. 
Magwood. So, if you please be as brief as you can, your 
statement will be made a part of the record, so will yours, and 
Mr. Magwood, so will yours at this point. Please proceed.
    Mr. Garman. I will briefly summarize, Mr. Chairman.
    As you mentioned, the President's budget includes $1.2 
billion for the Office of Energy Efficiency and Renewable 
Energy, and I'll briefly outline our priorities for the use of 
those funds.

                    REDUCE DEPENDENCE ON FOREIGN OIL

    First, our top priority is to reduce America's dependence 
on foreign petroleum. And since the majority of the oil that we 
use is used to fuel transportation, we're seeking increases in 
both our vehicle technologies program, and our hydrogen and 
fuel cell program, proposing to spend nearly $349 million in 
these areas. Our work, conducted in partnership with auto 
makers and energy providers, among others, includes research 
and development on gasoline-electric hybrid propulsion, new 
generations of spark and compression ignition internal 
combustion engines, vehicle systems, lightweight materials, and 
of course, hydrogen fuel cells, and elements of the hydrogen 
re-fueling structure to support them.

                         WEATHERIZATION PROGRAM

    Our next priority--and this is a new area under this 
subcommittee--is to reduce the burden of energy prices on the 
disadvantaged. To this end, we're proposing $230 million for 
the low income Weatherization Program, an increase over last 
year's appropriated levels.

                            RENEWABLE ENERGY

    Another priority of our office is to increase the viability 
and deployment of renewable energy technologies. To this end, 
we're seeking approximately $260 million. This funding includes 
our work on solar, wind, biomass, geothermal, hydropower and 
the facilities and activities needed to support these programs.

                        BUILDINGS AND APPLIANCES

    Our next priority is to increase the energy efficiency of 
buildings and appliances. To this end, we're seeking more than 
$75 million for our Building Technologies Program, ENERGY 
STAR, Rebuild America, and building code training and 
assistance activities.

                                BIOMASS

    Our fifth priority is the creation of the domestic bio-
industry. In pursuit of this priority, we are seeking over $72 
million for our Biomass Technologies Program. Our work in this 
area includes lowering the cost of sugars derived from 
discarded or under-utilized cellulosic materials, from which 
ethanol and other chemicals and products can be made.

                      DISTRIBUTED POWER GENERATION

    Our sixth priority is to increase the efficiency and 
performance of distributed power generation, which can enhance 
the reliability of the entire electricity grid. We propose to 
spend $57 million on our distributed energy program, which 
includes work on reciprocating engines, microturbines, 
thermally activated technologies, and the packaging and 
integration of these technologies into compact, affordable 
systems.

                        INDUSTRIAL TECHNOLOGIES

    Our seventh priority is to increase the energy efficiency 
of industry, and to that end we're seeking $56.5 million for 
our industrial technologies program. Technologies we're working 
on in that area are as varied as continuous melt electric arch 
furnaces, coke-less iron making, and high pressure super 
boilers. We're also making efforts to communicate best energy 
efficiency practices among a wide spectrum of industrial 
partners.

                       FEDERAL ENERGY MANAGEMENT

    Our eighth priority is to assist the largest single user of 
energy in the United States' economy--the U.S. Federal 
Government--to lead by example in using energy more 
efficiently, and procuring more energy from renewable 
resources. In pursuit of this goal, we operate the Federal 
Energy Management Program, with over $19 million of funding for 
those activities.

                           PREPARED STATEMENT

    Mr. Chairman, this is an extremely diverse portfolio of 
different activities that's sometimes challenging to manage, 
and that's why our ninth priority has been to change and 
continuously improve the way that we do business. While we have 
made a great deal of progress, there's still much we can do to 
improve our performance. We appreciate the efforts of the 
subcommittee in working with us to ensure that we continue that 
improvement through stronger planning and program management 
efforts. With that, Mr. Chairman, I'd be pleased to take any 
questions you have, either today or in the future. Thank you.
    [The statement follows:]
                   Prepared Statement of David Garman
    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to testify on the President's Fiscal Year 2006 Budget 
Request for the Office of Energy Efficiency and Renewable Energy 
(EERE). My focus today will be on the energy conservation, renewable 
energy, and hydrogen activities under the purview of this subcommittee.
    The President's Fiscal Year 2006 Budget includes $1.2 billion for 
EERE. In his February 2 State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the Fiscal Year 2006 Budget. The budget savings and reforms 
in the budget are important components of achieving the President's 
goal of cutting the budget deficit in half by 2009 and we urge the 
Congress to support these reforms. The Fiscal Year 2006 Budget includes 
more than 150 reductions, reforms, and terminations in non-defense 
discretionary programs, of which one affects EERE's programs. The 
Department wants to work with the Congress to achieve these savings.
    The programs funded by this appropriation continue support for 
certain Presidential initiatives; build on research, development, and 
deployment successes already achieved; and focus on implementing 
results-oriented business practices to help achieve strategic energy 
goals and fulfill the Department's mission.
    EERE has made good on its strategic goal of ``changing the way it 
does business.'' Last fall, the National Academy of Public 
Administration (NAPA) completed an 18-month review of EERE's 
reorganized structure and noted in its final report, Reorganizing for 
Results, that ``the basic construct of the reorganization--eliminating 
the sector organizations and restructuring around the major programs, 
and consolidating the business administration functions--was sound,'' 
and that ``EERE has made great strides to reinvent how it does 
business.'' Our innovative business and management model is enabling 
EERE to fund the right mix of research and development (R&D) and to get 
more technical work done effectively with the R&D dollars appropriated. 
EERE is also guided by the research and development investment criteria 
(RDIC) called for in the President's Management Agenda, as well as the 
Office of Management and Budget's (OMB) Program Assessment Rating Tool 
(PART) to guide its decisions and focus its R&D on long-term, high-
payoff activities that require Federal involvement to be successful.
    A primary long-term goal for our Nation must be to significantly 
reduce our dependence on foreign oil, and to develop the technologies 
that enable Americans to make greater use of our abundant, clean, 
domestic renewable energy resources. EERE's fiscal year 2006 request 
continues support for the President's Hydrogen Fuel Initiative to 
ensure that hydrogen production, storage, and infrastructure 
technologies will be available and affordable when hydrogen-powered 
fuel cell vehicles are ready for commercialization. EERE also continues 
support for its FreedomCAR program (where CAR stands for Cooperative 
Automotive Research), working with industry to improve the efficiency 
and lower the cost of advanced combustion engines and hybrid vehicle 
technologies. In addition, EERE will pursue critical technical 
improvements to biorefineries and the processes that use biomass, the 
only renewable resource that can directly produce liquid transportation 
fuels such as ethanol.
    But long-term results are only part of the story for EERE's 
programs. The Fiscal Year 2006 Budget Request is designed to provide 
results to the American people today by advancing technologies that are 
making their way into energy-related products and services that are an 
integral part of America's energy economy. Since 2001, research 
sponsored by EERE has won 37 R&D 100 awards, ten in 2004 alone. One 
technology winner this year is the world's first portable, flexible 
photovoltaic (PV) power module made from thin-film copper indium 
gallium selenide (CIGS). The U.S. Army is already using these 
lightweight PV systems that can be folded as small as a 912 envelope, 
stowed in a small backpack, and easily carried over long distances to 
supply efficient and reliable power.
    Targeting all sectors of energy use, EERE's fiscal year 2006 
activities are designed to make a difference in the everyday lives of 
Americans today, and an even greater difference in years to come.
  energy conservation and renewable energy programs fiscal year 2006 
                                request
    EERE programs funded by the Energy and Water Development 
appropriation include Hydrogen and Fuel Cell Technologies, Vehicle 
Technologies, Solar Energy Technologies, Wind and Hydropower 
Technologies, Geothermal Technologies, Biomass and Biorefinery Systems, 
Weatherization and Intergovernmental, Distributed Energy Resources, 
Building Technologies, Industrial Technologies, Federal Energy 
Management, and Program Management and Direction.
                  hydrogen and fuel cell technologies
    The Fiscal Year 2006 Budget Request for Hydrogen and Fuel Cell 
Technologies totals $182.7 million: $99.1 million for hydrogen 
activities, a $5.1 million increase over the fiscal year 2005 
comparable appropriation, and $83.6 million for fuel cell activities, 
an $8.7 million increase. Hydrogen and fuel cell technologies are the 
foundation of the President's Hydrogen Fuel Initiative and help support 
the Department's FreedomCAR program. Under the FreedomCAR and Fuel 
Partnership, government and industry are working together on research 
activities to overcome key technical barriers to commercialization of 
advanced efficient vehicles, and to facilitate a fuel cell hybrid 
vehicle and hydrogen infrastructure commercialization decision by 
industry in the year 2015. Because hydrogen fuel cell vehicles emit no 
criteria pollutants or carbon dioxide, their development and commercial 
success would essentially remove light-duty transportation as an 
environmental issue. The hydrogen will be produced from diverse 
domestic resources, making our Nation self-reliant for our personal 
transportation energy needs.
    Much of the proposed increase in Hydrogen Technology is to 
accelerate and expand research and development of advanced technologies 
for producing hydrogen using renewable feedstocks such as biomass and 
renewable energy sources such as wind and solar. The program is also 
developing technologies for distributed hydrogen production from 
reforming of natural gas and from electrolysis. Other priorities 
include development of on-board vehicular hydrogen storage systems to 
achieve a driving range of greater than 300 miles and development of 
hydrogen delivery technologies. The ultimate goal is to reduce the cost 
of producing, storing, and delivering hydrogen to a cost competitive 
with that of gasoline.
    Validation of fuel cell vehicle and hydrogen infrastructure 
technologies under ``real-world'' operating conditions is essential to 
track progress and to help guide research priorities. This year's 
request contains $24 million for fuel cell technology validation which 
is a 35 percent increase over the fiscal year 2005 comparable 
appropriation. We are also requesting $14.9 million in funding for the 
validation of hydrogen infrastructure technology, a 58 percent increase 
over the fiscal year 2005 comparable appropriation. Automotive and 
energy partners are matching public dollars on a ``50-50'' cost-shared 
basis, and the Department is beginning to receive essential statistical 
data on the status of fuel cell vehicle and infrastructure technologies 
relative to targets in the areas of efficiency, durability, storage 
system range, and fuel cost. By measuring progress under real-world 
driving conditions, the Department can accurately monitor success in 
overcoming remaining fuel cell and infrastructure technology barriers 
and assess progress towards the 2015 commercialization decision by 
industry. These activities also provide technical information and 
analysis to support the development of codes and standards for the 
commercial use of hydrogen, and feedback on vehicle and infrastructure 
safety. Fiscal year 2006 activities include opening eight hydrogen 
fueling stations, assessing performance and cost of hydrogen production 
and delivery technologies, and validating 1,000 hours of fuel cell 
vehicle durability ``on the road.'' By 2009, the program is expected to 
validate fuel cell vehicle durability of 2,000 hours, a 250-mile 
vehicle range, and hydrogen production cost of less than $3.00/gge 
(gasoline gallon equivalent).
    As highlighted by Secretary Bodman in earlier Congressional 
testimony, I am pleased to report that our fuel cell activities 
achieved an important technology cost goal this past year when they 
reduced the high-volume cost of automotive fuel cells from $275 per 
kilowatt in 2002 to $200 per kilowatt in 2004. This accomplishment is a 
major step toward the program's goal of reducing the cost of 
transportation fuel cell power systems to $45 per kilowatt by 2010.\1\ 
Research successes like this will enable a positive commercialization 
decision in 2015 that could lead to the market introduction of hydrogen 
fuel cell vehicles by 2020.
---------------------------------------------------------------------------
    \1\ Cost of 50 kW vehicle fuel cell power systems estimated for 
production rate of 500,000 units per year.
---------------------------------------------------------------------------
    The President's Hydrogen Fuel Initiative was received by Congress 
with enthusiasm, and we appreciate this subcommittee's support. 
However, while the EERE fiscal year 2005 comparable appropriation for 
hydrogen technology was $94 million, 40 percent of those funds were 
earmarked for specific projects that are not wholly consistent with our 
research plan or the recommendations of the National Research Council. 
As a consequence, we must delay some very important work in areas such 
as hydrogen production and storage, and our ability to meet our 
established research targets in the specified timeframes may be in 
jeopardy. The Department looks forward to working with the subcommittee 
to help ensure that projects supported by the committee are consistent 
with our established goals in an effort to keep our progress on track.
                          vehicle technologies
    The FreedomCAR & Vehicle Technologies Program focuses on the 
development of more energy efficient and environmentally friendly 
technologies for cars and trucks that will use significantly less oil, 
and still preserve America's freedom of mobility. Many of these 
technologies also serve as the foundation of tomorrow's hydrogen fuel 
cell vehicles.
    The Fiscal Year 2006 Budget Request for Vehicle Technologies is 
$165.9 million, a $0.5 million increase over the fiscal year 2005 
comparable appropriation. Activities in this program contribute to two 
Departmental initiatives: the FreedomCAR initiative and the 21st 
Century Truck initiative.
    FreedomCAR activities in fiscal year 2006 focus on innovative, 
high-efficiency vehicle technologies including advanced combustion 
engines, advanced fuel formulations, hybrid vehicle systems, high-
powered batteries, lightweight materials, and power electronics. These 
critical technologies can lead to near-term oil savings when used with 
advanced combustion hybrid electric vehicles and support the future 
development of hydrogen fuel cell hybrid vehicles.
    FreedomCAR goals include increasing passenger and light-duty 
vehicle combustion engine efficiency from 30 percent to 45 percent by 
2010 (while meeting 2010 EPA emissions standards), and reducing the 
cost of high-power batteries for hybrid vehicles from $3,000 (1998 
baseline) to $500 for a 25kW battery by 2010. Combustion engine 
efficiency is making good progress, and in fiscal year 2006 we expect 
to reach 41 percent efficiency, a major step towards the 2010 goal of 
45 percent. Battery technologies have also made significant progress 
toward these goals: the program reached its $1,000 cost target for 
fiscal year 2004, and the fiscal year 2006 budget is expected to bring 
that down to $750.
    The 21st Century Truck initiative has similar objectives but is 
focused on commercial vehicles. The 2006 request will fund cooperative 
research efforts between the commercial heavy-duty vehicle (trucks and 
buses) industry and major Federal agencies to develop technologies that 
will make our Nation's commercial vehicles more efficient, cleaner, and 
safer. The effort centers on R&D to improve engine systems, heavy-duty 
hybrids, truck safety, and to reduce parasitic losses (e.g., 
aerodynamic drag as the vehicle moves down the road at 60 mph, and the 
power drain from belt driven accessories like power steering and air 
conditioning) and engine idling.
    In fiscal year 2004, the heavy-duty vehicle activity demonstrated a 
reduction of parasitic losses from 39 percent baseline to 27 percent in 
a laboratory setting, and activities included in the fiscal year 2006 
budget are expected to bring those losses down to 24 percent. The 
program also demonstrated an increase in heavy-duty diesel engine 
efficiency from the baseline of 40 percent to 45 percent in fiscal year 
2004 (while meeting EPA 2007 emission standards) and we expect the 
fiscal year 2006 budget to raise that to 50 percent (while meeting EPA 
2010 emission standards)--important steps toward meeting our long-term 
goal of 55 percent energy efficiency in 2013.
                       solar energy technologies
    The Solar Energy Technologies Program focuses research on advanced 
solar devices that can bring reliable and affordable solar energy 
technologies into the marketplace, helping our Nation meet electricity 
needs and reducing the stress on our critical electricity 
infrastructure. The Department's efforts are directed in the 
interrelated areas of photovoltaics, concentrating solar power (CSP), 
and solar heating and lighting. The Fiscal Year 2006 Budget Request for 
solar technology is $84.0 million, which is roughly equivalent to the 
fiscal year 2005 comparable appropriation of $85.1 million.
    The Department's photovoltaic research and development is focused 
on next-generation technologies such as thin-film photovoltaic cells 
and leap-frog technologies such as polymers and nanostructures. The 
fiscal year 2006 request of $75.0 million for photovoltaic energy 
systems includes $31.4 million for critical laboratory research, $28.6 
million for advanced materials and devices, and $15.0 million for 
technology development efforts to improve reliability of the entire 
system. The Department has included $4.5 million in the fiscal year 
2006 request to support the new Collaborative Crystalline Silicon 
Photovoltaic Initiative designed to strengthen through research and 
development the technological competitiveness of U.S. products in a 
rapidly growing world market.
    The $6.0 million request for concentrating solar power research 
includes funds to accelerate the development of next-generation 
parabolic trough concentrators and receivers. Development of advanced 
thermal energy storage technologies will continue and field validation 
will be conducted on new collector technology being deployed in trough 
projects in Arizona and Nevada. For distributed applications, research 
in fiscal year 2006 will focus on improving the reliability of dish 
systems through the operation and testing of multiple units at Sandia 
National Laboratory. Technical support will also be provided to the 
Western Governors' Association to assist their CSP deployment 
activities.
                    wind and hydropower technologies
    Wind Energy research and development promotes greater use of the 
Nation's fastest growing energy resource. Since 2000, installed wind 
turbine capacity in the United States has more than doubled, driven in 
large part by the tremendous reductions in cost that have resulted from 
wind energy research. Our research contributed to reducing the cost of 
electricity generation by a factor of 20 since 1982, to 4 cents or less 
per kilowatt-hour in areas with excellent wind resources.
    The Fiscal Year 2006 Budget Request for Wind Energy is $44.2 
million, $3.4 million more than the fiscal year 2005 comparable 
appropriation. Most of the fiscal year 2006 request is to fund R&D on 
multiple large wind system technology pathways in lower wind speed 
areas to achieve the goal of 3 cents per kilowatt-hour for onshore 
systems and 5 cents per kilowatt-hour for off-shore systems by 2012. 
Working in collaborative partnerships with industry, the Department 
plans to complete field testing of the first full-scale Low Wind Speed 
Technology prototype turbine in fiscal year 2006, and begin fabrication 
of a second prototype turbine (both 2.5 MW scale) which will enable 
electricity to be generated closer to where people live.
    Hydropower is the most widely used form of renewable energy in the 
world today, accounting for over 7 percent of total electricity 
generation in the United States and over 75 percent of domestic 
renewable electricity generation. The Department has supported the 
development of new turbine technology that reduces fish mortality 
associated with hydropower plant operation. With the completion of 
testing on new turbine technologies, and consistent with previous 
Congressional direction, the Department plans to close out the 
Hydropower Program and transfer remaining program activities and 
information to the private sector.
    The fiscal year 2006 hydropower request of $0.5 million will be 
used to complete the monitoring of plant operation and maintenance, and 
document previous program activities. Outstanding contracts will be 
closed out in fiscal year 2006.
                         geothermal technology
    The Geothermal Technologies Program works in partnership with 
industry to establish geothermal energy as an economically competitive 
contributor to the U.S. energy supply. Currently a $1.3 billion a year 
industry, geothermal energy production generates electricity or 
provides heat for applications such as aquaculture, crop drying, and 
district heating, or for use in heat pumps to heat and cool buildings 
without the emission of greenhouse gases. The Fiscal Year 2006 Budget 
Request for Geothermal Technologies is $23.3 million, a $2.0 million 
decrease from the fiscal year 2005 comparable appropriation. The fiscal 
year 2005 appropriation included $3.6 million in funds for 
congressionally-directed activities now completed.
    In fiscal year 2006, the program will conduct extensive field tests 
of exploration technologies such as remote sensing techniques to 
increase the U.S. geothermal resource base, and expand and accelerate 
the geothermal resource assessments conducted in collaboration with the 
U.S. Geological Survey. The program will continue its Enhanced 
Geothermal Systems (EGS) technology research to increase the 
productivity and lifetime of engineered reservoirs. The Department 
estimates that EGS technology could quadruple the amount of 
economically and technically viable geothermal resources in the West 
and open up new geothermal possibilities throughout the United States.
                  biomass and biorefinery systems r&d
    EERE's Biomass Program focuses on advanced technologies to 
transform the Nation's domestic biomass resources into high value 
fuels, chemicals, materials, and power. Working with the U.S. 
Department of Agriculture (USDA), the program leads a multi-agency 
initiative that coordinates and accelerates all Federal bioenergy R&D 
in accordance with the Biomass Research and Development Act of 2000.
    In fiscal year 2006, the Department is requesting $72.2 million for 
Biomass Program activities, $15.9 million less than the fiscal year 
2005 comparable appropriation. Last year's appropriation, however, 
included $35.3 million in funds for congressionally-directed activities 
for which the Department is not requesting additional funds.
    The Department requests $43.4 million to support platforms R&D. The 
$15 million request for Thermochemical Platform R&D will focus on 
developing technologies for the production, cleanup, and conditioning 
of biomass syngas and pyrolysis oils suitable for conversion to fuels 
and chemicals. This will be done in collaboration with industrial 
partners selected under a joint DOE/USDA solicitation issued in fiscal 
year 2004. The $28.4 million requested for Bioconversion Platform R&D 
is to work with industry to improve the performance and reduce the 
costs of enzymes and biomass pretreatment, resulting in a low cost 
sugar stream in support of the nearer-term biorefinery.
    The request also includes $21.8 million for cost-shared R&D with 
U.S. industry to advance technologies that will convert this low cost 
sugar stream into affordable products (chemicals and materials), 
furthering the development of efficient biorefineries. Work with 
industry, universities, and the National Laboratories will focus on 
improving the efficiency of individual process steps such as catalysis 
and separations, with a focus on producing key building-block chemicals 
that have the potential to result in a multitude of high-value, 
renewable chemicals and materials.
             weatherization and intergovernmental programs
    In fiscal year 2006, we are requesting $310.1 million for 
Weatherization and Intergovernmental Activities, a $15.7 million 
reduction from the fiscal year 2005 comparable appropriation. This 
includes $230 million for the Weatherization Assistance Program, which 
will support weatherization of approximately 92,300 low-income homes, 
saving the low-income homeowner an average of $274 annually on their 
energy bills at today's prices, according to estimates by the Oak Ridge 
National Laboratory.
    The Department's Intergovernmental activities promote rapid 
deployment of clean energy technologies and energy efficient products. 
The Fiscal Year 2006 Budget requests $41.0 million for State Energy 
Program grants. These grants, and the funds they leverage, allow State 
governments to target their own high priority energy needs and expand 
clean energy choices for their citizens and businesses.
    In fiscal year 2006, we request $4.0 million for the Tribal Energy 
Program which will enable the Department to continue to build 
partnerships with Tribal governments to assess Native American energy 
efficiency needs and renewable energy opportunities for residential, 
commercial, and industrial uses. These activities are helping to 
complete the foundational work that will encourage private sector 
investment in energy projects on Native American lands.
    The Department includes an increase of $1.7 million in its fiscal 
year 2006 request to expand and support Home Performance with ENERGY 
STAR, an innovative residential program designed to improve the energy 
efficiency of existing homes by up to 30 percent using certified local 
contractors to perform whole-house retrofits. State and local pilot 
projects will be supported at the national level by the dissemination 
of best practices, contractor training, program design assistance, and 
marketing support.
                      distributed energy resources
    By producing electricity where it is used, distributed energy 
technologies can strengthen our Nation's aging electricity power 
infrastructure, relieve congestion on transmission and distribution 
systems, and increase supplies during periods of peak demand. The 
Distributed Energy Program seeks to develop and deploy a diverse array 
of integrated distributed generation and thermal energy technologies 
that are competitively priced, reliable, and highly efficient. The 
Fiscal Year 2006 Budget Request for this program is $56.6 million, a 
$3.8 million reduction from the fiscal year 2005 comparable 
appropriation. This funding level reflects the reallocation of funds 
given the advances made in previous years and changes within the 
overall energy research and development portfolio. As in previous 
years, this year's request emphasizes integrated designs for end-use 
systems.
    Key performance target goals for fiscal year 2006 include the 
development of a combined heat and power (CHP) system which operates at 
over 70 percent efficiency and a prototype microturbine which can 
achieve 35 percent efficiency for small-scale power generation. To help 
potential users take better advantage of distributed energy 
opportunities, the program will complete a State regulatory database 
including information on regulations such as environmental permitting, 
utility tariffs, and interconnection standards, and continue funding 
the eight Regional Combined Heat and Power Application Centers across 
the United States.
                         building technologies
    With an annual price tag of over $250 billion, energy use by 
residential and commercial buildings accounts for nearly 40 percent of 
the Nation's total energy consumption, including two-thirds of the 
electricity sold in the United States. The $58 million included in this 
year's request for the Building Technologies Program is a decrease of 
$7.5 million from the fiscal year 2005 comparable appropriation, 
primarily due to reductions in space conditioning and building envelope 
R&D that is nearing commercialization. Fiscal year 2006 activities 
include solid state lighting, improved energy efficiency of other 
building components and equipment, and their effective integration 
using whole-building-system-design techniques, and the development of 
codes and standards for buildings, appliances, and equipment.
    The $18.3 million request for Residential Buildings Integration 
aims to develop design packages that enable residential buildings to 
use 40 to 50 percent less energy than current practice, and integrate 
renewable energy systems into highly efficient building designs and 
operations in working toward the ultimate goal in 2020 of net Zero 
Energy Buildings: houses that produce as much energy as they use on an 
annual basis.
    As part of the Department's focus on longer-term, high-risk 
activities with great potential for public benefit, in fiscal year 2006 
we are requesting $11 million for solid state lighting research. Solid 
state lighting holds the potential to more than double the efficiency 
of general lighting systems, revolutionizing the energy efficiency, 
appearance, visual comfort, and quality of lighting products.
    The fiscal year 2006 request also reflects the Department's 
continued commitment to advancing buildings codes and appliance 
standards. Because key analyses and peer reviews for several priority 
appliance rulemakings will be completed in fiscal year 2005, funding 
requirements for fiscal year 2006 will be reduced in this area.
                   federal energy management program
    The Federal Energy Management Program (FEMP) and the Departmental 
Energy Management Program (DEMP) assist Federal agencies and the 
Department in increasing their use of energy efficiency and renewable 
energy technologies through alternative financing contract support, 
technical assistance, and funding for retrofit projects. By using 
existing energy efficiency and renewable energy technologies and 
techniques, the Federal Government can set an example and lead the 
Nation toward becoming a cleaner, more efficient energy consumer.
    FEMP's fiscal year 2006 request is $19.2 million, a $0.7 million 
reduction from the fiscal year 2005 comparable appropriation. We are 
requesting $6.8 million for FEMP technical support that promotes agency 
use of alternative financing tools, which allow Federal agencies to 
access private sector financing to fund energy improvements through 
Energy Savings Performance Contracts (ESPC) and Utility Energy Service 
Contracts (UESC) at no net cost to taxpayers. In addition, we are 
requesting $7.7 million for Technical Guidance and Assistance 
activities to help Federal energy managers identify, design, and 
implement new construction and facility improvement projects that 
incorporate energy efficiency and renewable energy.
                        industrial technologies
    The Industrial Technologies Program seeks to reduce the energy 
intensity of the U.S. industrial sector through a coordinated program 
of R&D, validation, and dissemination of energy-efficiency technologies 
and operating practices. The Department is working to achieve the 
program's goals by partnering with domestic industry, its equipment 
manufacturers, and its many stakeholders.
    The Fiscal Year 2006 Budget Request is $56.5 million, an $18.3 
reduction from the fiscal year 2005 comparable appropriation. We 
strongly believe that this level of funding is sufficient because the 
Industrial Technologies Program is becoming more focused and more 
strategic in its investments in next-generation industrial 
technologies. The Program's strategic approach is based on developing a 
focused, multi-year plan that is designed to identify a limited number 
of high-priority, energy-saving research and development opportunities, 
characterize the technical barriers associated with each of those 
opportunities, and implement a multi-year development pathway to 
achieve success in each identified focus area. Many of these R&D 
efforts will be in exploratory phases in fiscal year 2006 as the 
program identifies the most promising technology areas and adopts a 
balanced portfolio of high-risk, high-return R&D.
                    program management and direction
    The Program Management (Energy Conservation) and Program Direction 
(Energy Supply) budgets provide resources for executive and technical 
direction and oversight required for the implementation of EERE 
programs. The Budget Request covers Federal staff as well as the 
equipment, supplies, materials, information systems, technology 
equipment, and travel required to support management and oversight of 
programs. Also funded by this request are properties; public 
information activities; support service contractors; and crosscutting 
performance evaluation, analysis and planning.
    The Fiscal Year 2006 Budget requests for Program Management and 
Program Direction total $108.1 million, representing a $4.0 million 
(3.6 percent) decrease from the fiscal year 2005 comparable 
appropriations. The decrease primarily reflects completion of the 
National Academy of Science review, the absence of support for prior 
congressionally-directed activities, and the movement of support 
service funding for the Climate Change Technology Program out of this 
request. With these activities excluded, our request actually 
represents an increase of $4.9 million to support our efforts to 
improve project management and to more accurately report our true cost 
of doing business. We also request $2.9 million within Renewable 
Program Support for crosscutting analysis and planning, which was 
formerly funded within individual renewable program budgets.
                               conclusion
    Mr. Chairman, we believe the administration's Fiscal Year 2006 
Budget for energy efficiency and renewable energy research, 
development, demonstration, and deployment programs will contribute to 
improved energy security by promoting a diverse supply of reliable, 
affordable, and environmentally sound energy, and by promoting the 
efficient use of energy.
    This completes my prepared statement, and I am happy to answer any 
questions the subcommittee may have.

    Senator Domenici. Thank you very much. Dr. Orbach, will you 
please abbreviate your statement, and we'll ask you some 
questions shortly.

                           Office of Science

STATEMENT OF RAYMOND L. ORBACH, DIRECTOR
    Dr. Orbach. Mr. Chairman, Senator Allard, thank you for 
giving me this opportunity to testify on the President's fiscal 
year 2006 budget request for the Office of Science.
    Mr. Chairman, you have laid out the major new initiatives 
that the 2006 budget contains. The budget is premised upon the 
maintenance of U.S. scientific leadership, of increased present 
and future research opportunities. In order to achieve this 
goal, difficult decisions had to be made within this budget 
climate, prioritizing core research funding, and facility 
construction and operation. The result augers well for U.S. 
science and scientists.
    This budget enables a breathtaking array of scientific 
initiatives and opportunities. There are costs working within 
the current budget climate, but they are balanced against the 
opportunities essential for continued U.S. scientific primacy.
    The Office of Science is committed to providing basic 
research support for the missions of the Department of Energy, 
leading to energy security for our country. Our programs 
contribute substantially to our Nation's economic development, 
to enhancing scientific literacy, and to our society's 
intellectual growth and excitement through scientific 
discovery. I believe this budget will accomplish these goals.
    Mr. Chairman, I'd like to thank you again for this 
opportunity to discuss the work of the Office of Science, and I 
would be pleased to answer your questions.
    [The statement follows:]
                Prepared Statement of Raymond L. Orbach
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify today about the Office of Science's fiscal year 
2006 budget request. I am deeply appreciative of your support for basic 
research, Mr. Chairman, and the support we have received from the other 
members of this subcommittee. I am confident that our fiscal year 2006 
request represents a sound investment in our Nation's future. Through 
this budget we will position the Office of Science to be ready for the 
opportunities of the next decade.
    This budget, Mr. Chairman, will enable thousands of researchers 
located across our Nation to work on some of the most pressing 
scientific challenges of our age. These researchers will demonstrate 
the scientific and technological feasibility of creating and 
controlling a sustained burning plasma to generate energy through 
participation in ITER (Latin for the way, ITER is an international 
fusion collaboration); use advanced computation and modeling tools to 
resolve complex scientific problems; restore U.S. leadership in neutron 
science with the start of operations at the Spallation Neutron Source 
(SNS); expand the frontier of nanotechnology through operation of 
Nanoscale Science Research Centers (NSRC's); pursue an understanding of 
how the universe began; contribute to our understanding of climate 
change including the potential of carbon sequestration; develop the 
knowledge that may enable us to harness microbes and microbial 
communities to improve energy production and environmental remediation; 
and contribute basic research that underpins the President's Hydrogen 
Fuel Initiative.
    The Office of Science requests $3,462,718,000 for the fiscal year 
2006 science appropriation, a decrease of $136,828,000 from the fiscal 
year 2005 appropriation, for investments in basic research that are 
critical to the success of Department of Energy (DOE) missions in 
national security and energy security; advancement of the frontiers of 
knowledge in the physical sciences and areas of biological, 
environmental, and computational sciences; and provision of world-class 
research facilities for the Nation's science enterprise (see Figure 1).
    The Office of Science, within a period of budget stringency, has 
chosen its priorities so that the United States will continue its world 
primacy in science. We have made the hard decisions that will enable 
our scientists to work on the finest machines whose scale and magnitude 
will give them opportunities not found elsewhere. As a consequence, we 
have made difficult choices. But these have been taken with one end in 
mind: the Office of Science will support a world-class program in 
science and energy security research with this budget.
    This budget request supports the following programs: Basic Energy 
Sciences, Advanced Scientific Computing Research, Biological and 
Environmental Research, High Energy Physics, Nuclear Physics, Fusion 
Energy Sciences, Science Laboratories Infrastructure, Science Program 
Direction, Workforce Development for Teachers and Scientists, and 
Safeguards and Security.
    The Office of Science supports research across the scientific 
spectrum from high energy physics to biology and environmental 
research; from fusion energy sciences to nuclear physics, from basic 
energy sciences to advanced scientific computation research. We provide 
42 percent of the Federal funding for the physical sciences in the 
United States, and are the stewards of support for fields such as high 
energy physics, plasma physics, catalysis, and nuclear physics. We 
build and operate the large scientific facilities used by over 19,000 
faculty, students, and postdocs each year. They include synchrotron 
light sources, neutron sources, high energy and nuclear physics 
accelerators, fusion energy experiments, dedicated scientific computing 
resources, specialized environmental research capabilities, the 
Production Genome Facility, and will soon include the SNS, five NSRCs, 
and an X-ray free electron laser light source. Roughly half of our 
budget goes to the construction and operation of these facilities; the 
other half is split, roughly equally, between research at the DOE 
laboratories and research at universities. This supports the research 
of approximately 23,500 students, postdocs, and faculty throughout our 
Nation.

                        FIGURE 1.--OFFICE OF SCIENCE FISCAL YEAR 2006 PRESIDENT'S REQUEST
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                   Fiscal Year
                                                                 Fiscal Year      Fiscal Year          2006
                                                               2004 Comparable  2005 Comparable    President's
                                                                   Approp.          Approp.          Request
----------------------------------------------------------------------------------------------------------------
Basic Energy Sciences........................................         991,262        1,104,632        1,146,017
Advanced Scientific Computing Research.......................         196,795          232,468          207,055
Biological and Environmental Research........................         624,048          581,912          455,688
    (Congressionally-directed projects)......................        (136,798)         (79,608)  ...............
    (Core Biological and Environmental Research).............        (487,250)        (502,304)        (455,688)
High Energy Physics..........................................         716,170          736,444          713,933
Nuclear Physics..............................................         379,792          404,778          370,741
Fusion Energy Sciences.......................................         255,859          273,903          290,550
Science Laboratories Infrastructure..........................          55,266           41,998           40,105
Science Program Direction....................................         150,277          153,706          162,725
Workforce Development for Teachers and Scientists............           6,432            7,599            7,192
Safeguards and Security......................................          56,730           67,168           68,712
Small Business Innovation Research/Technology Transfer.......         114,915   ...............  ...............
                                                              --------------------------------------------------
      Subtotal, Science......................................       3,547,546        3,604,608        3,462,718
Use of prior year balances...................................         -11,173           -5,062   ...............
                                                              --------------------------------------------------
      Total Science..........................................       3,536,373        3,599,546        3,462,718
                                                              --------------------------------------------------
      (Total, excluding Congressionally-directed projects)...      (3,399,575)      (3,519,938)      (3,462,718)
----------------------------------------------------------------------------------------------------------------

                  fiscal year 2006 science priorities
    In his testimony before the House Science Committee, the 
President's Science Adviser, Dr. Jack Marburger indicated, ``Making 
choices is difficult even when budgets are generous. But tight budgets 
have the virtue of focusing on priorities and strengthening program 
management. This year's R&D budget proposal maintains levels of funding 
that allow America to maintain its leadership position in science and 
move ahead in selected priority areas.''
    The priorities the Office of Science has set within the overall 
Federal R&D effort and in support of DOE's mission are clear: Through 
the fiscal year 2006 budget, we will fully support Presidential 
initiatives in fusion and hydrogen; we will continue strong support for 
other administration priorities such as nanotechnology and information 
technology; we will complete--on time and within budget--unique 
scientific facilities that will maintain and enhance research in areas 
we believe offer the greatest potential for broad advances in future 
energy technologies. These scientific facilities were prioritized in 
our 20-year facilities outlook, announced in November 2003.
    We will continue moving ahead with our contributions to the 
President's Hydrogen Fuel Initiative. We are supporting U.S. 
participation in the ITER project to pursue the potential of energy 
from fusion.
    One of the biggest science stories of the year 2006 will be the 
start-up of the Spallation Neutron Source at our Oak Ridge National 
Lab, which will provide the most intense--by an order of magnitude--
neutron beam in the world for cutting-edge research.
    The fiscal year 2006 budget will also bring four of our five 
nanoscale science research centers on line, providing tools found 
nowhere else in the world for exploration at the atomic level, offering 
huge potential for the discovery of entirely new ways to build 
materials.
    We are fully funding construction of the Linac Coherent Light 
Source at the Stanford Linear Accelerator Center, a machine that will 
produce X-rays 10 billion times brighter than any existing X-ray source 
on Earth. When it comes on line in 2009, it essentially will allow 
stop-action photography of atomic motion. Just ask the pharmaceutical 
industry what they could do with a machine that shows them how the 
chemical bond forms during a chemical reaction.
    The Office of Science also will fully fund the National Energy 
Research Scientific Computing Center, a key center for capacity 
supercomputing used by roughly 2,000 researchers every year, and a 
separate open-access leadership class computing facility at Oak Ridge, 
focused on providing the capability to carry out a limited number of 
massive simulations not possible on any other civilian supercomputer in 
the United States.
    The Department will also expand research underpinning biotechnology 
solutions to the world's energy challenges and research supporting the 
President's climate change science program.
    Our research programs in high energy physics continue to receive 
strong support. We have increased funding for future accelerators such 
as the Large Hadron Collider, scheduled to begin operation in 2007, and 
the proposed International Linear Collider, which is now in an early 
R&D phase. Our nuclear physics program will continue to offer world-
class facilities for use by thousands of researchers from around the 
world.
                        science accomplishments
    The Office of Science has proven its ability to deliver results 
over the past 50 years. That legacy includes 70 Office of Science 
sponsored Nobel Laureates since 1954. Our science has spawned entire 
new industries, including nuclear medicine technologies that save 
thousands of lives each year, and the nuclear power industry that now 
contributes 20 percent of the power to our Nation's electricity grid. 
It has also changed the way we see the universe and ourselves; for 
example--by identifying the ubiquitous and mysterious ``dark energy'' 
that is accelerating the expansion of the universe and by sequencing 
the human genome. The Office of Science has taken the lead on new 
research challenges, such as bringing the power of terascale computing 
to scientific discovery and industrial competitiveness. The Nation's 
investment in SC's basic research programs continues to pay dividends 
to the American taxpayer. Some of the past year's highlights include:
  --Promoting Science Literacy and Fostering the Next Generation of DOE 
        Scientists.--In fiscal year 2004, DOE launched a seven-part 
        program named STARS: Scientists Teaching and Reaching Students. 
        This program is designed to enhance the training of America's 
        mathematics and science teachers; boost student achievement in 
        science and math, especially in the critical middle school 
        years; and draw attention to the women and men who have done 
        DOE science so very well--and thereby encourage young people 
        and prospective teachers to pursue careers in math and science. 
        STARS is a critical step in leveraging the resources of DOE--
        and of all our national laboratories--to help create a new 
        generation of scientists who will achieve the scientific 
        breakthroughs and technological advances so essential to our 
        future security and prosperity.
  --Nobel Prize in Physics.--The 2004 Nobel Prize in physics was 
        awarded to David J. Gross (Kavli Institute, UC Santa Barbara), 
        H. David Politzer (Caltech), and Frank Wilczek (MIT) for their 
        discovery of ``asymptotic freedom'' in the strong force. What 
        they discovered was a surprising fact: as fundamental particles 
        get closer to each other, the strong force between them grows 
        weaker, and the further apart they are, the stronger it is, 
        like stretching a rubber band. This discovery is a key 
        component of the very successful Standard Model of particle 
        physics, which describes three of the four fundamental forces 
        of nature: electromagnetic, weak, and strong. Physicists dream 
        of extending the theory to include the fourth fundamental 
        force, gravity. The Office of Science has supported the 
        research of Wilczek since the 1980's at Princeton and the 
        Massachusetts Institute of Technology (MIT) and has supported 
        Politzer at Caltech from the 1970's.
  --Nobel Prize in Physics.--The 2003 Nobel Prize for Physics was 
        shared by Argonne National Laboratory (ANL) researcher Alexei 
        A. Abrikosov for his pioneering contributions to the theory of 
        superconductors. The Office of Science has long supported 
        Abrikosov's work on the mechanisms of high temperature 
        superconductivity. Amongst the myriad applications of 
        superconducting materials are the magnets used for magnetic 
        resonance imaging, or MRI, and potential applications in high 
        efficiency electricity transmission and high-speed trains.
  --New Physics Emerges From Quark-Gluon Plasma.--In 2004, the 
        Relativistic Heavy Ion Collider (RHIC) at the Brookhaven 
        National Laboratory (BNL) delivered gold beams at twice the 
        accelerator design limits and greatly exceeded the expectations 
        of the 1,000+ international physicists working on the four 
        experiments at RHIC. The goal of RHIC is to recreate the 
        predicted quark-gluon plasma, an extremely dense state of 
        matter thought to have last existed microseconds after the Big 
        Bang. RHIC data have revealed evidence of a quark-gluon state 
        of matter at high density and temperature, exhibiting the 
        properties of a highly correlated liquid--something new and 
        unexpected--as well as indications of a dense, weakly 
        interacting gluonic matter that has been called a ``Color Glass 
        Condensate''--again something new.
  --Wide Acceptance of Open-Source, High-End Cluster Software by 
        Industry and Users.--The Oak Ridge National Laboratory (ORNL) 
        Open Source Cluster Application Resources (OSCAR) computing 
        software for high-end computing continues to expand its 
        capability and to increase its user base. The software has been 
        downloaded by more than 130,000 groups around the world and is 
        promoted by vendors such as Dell and Intel. The adoption of 
        this system has expanded the number of software packages 
        available to the cluster community, and continues to reduce 
        cluster total cost of ownership. It has simplified the job of 
        software authors, system administrators, and ultimately the 
        application user by providing a timely and much simpler method 
        of supplying and applying software updates. The Scientific 
        Discovery through Advanced Computing (SciDAC) Scalable Systems 
        Software Integrated Software Infrastructure Center leverages 
        OSCAR technology to simplify deployment for the end-user as 
        well as application developers.
  --Advances in Fusion Energy Sciences Contribute to ITER.--Efficient 
        burning of the fusion's plasma fuel, a mixture of hydrogen 
        isotopes, requires stably confining the plasma at temperatures 
        of 50-100 million degrees, comparable to those found on the 
        Sun, with magnetic fields designed to hold the plasma in place. 
        Recent application of diagnostics that can measure the magnetic 
        fields deep inside this highly energetic plasma with great 
        precision and advanced computer codes that can model the 
        detailed behavior of the plasma has given scientists 
        unprecedented control over the behavior of the plasma. 
        Experiments on the DIII-D tokamak have led the way in 
        prototyping future experiments on ITER. Scientists are now able 
        to use feedback control systems to confidently operate the 
        plasma at pressures which optimize the fusion power output 
        within a given magnetic field. In addition, experiments and the 
        use of massively parallel computing to benchmark models that 
        validate a whole new theoretical understanding of how plasmas 
        can be insulated from loss of particles and energy give 
        confidence that ITER can achieve the needed gain of 10 (50 
        Megawatts of heating, 500 Megawatts of fusion power production) 
        required to enter the burning plasma regime.
  --Using DOE Technology and Know-how to Bring Sight to the Blind.--
        DOE's artificial retina project is a model for success in an 
        era when the boundaries of scientific disciplines, public and 
        private sector roles in science, and Federal agency 
        responsibilities are increasingly blurred. Success has come 
        through the strength of partnerships between scientists in the 
        public and private sectors, spanning scientific disciplines 
        from materials to medicine to engineering to surgery, and with 
        funds from both DOE and the National Institutes of Health 
        (NIH). In June 2004, the project reached a major milestone as a 
        sixth blind patient was successfully implanted with an 
        artificial retina device. One patient has had the device since 
        February 2002. All six patients can now read large letters (2-
        foot large letters 1 foot away) as well as tell the difference 
        between a paper cup, a plate, and a plastic knife. The patients 
        can also see colors although learning and understanding this 
        process is still a challenge for both patients and scientists. 
        Patients will soon begin using their retinal implants outside 
        the laboratory and will even be able to use them alone at home. 
        These initial patient studies are a key part of a Food and Drug 
        Administration Investigational Device Exemption trial.
  --Record Operations Advance Physics at the Frontier.--Both the Fermi 
        National Accelerator Laboratory (Fermilab) and the Stanford 
        Linear Accelerator Center (SLAC) set significant new records in 
        data delivery (``luminosity'') in 2004, with the accelerators 
        at each of these centers more than doubling their outstanding 
        performance levels from 2003. On Friday, July 16, the Tevatron 
        proton-antiproton collider at Fermilab set a new luminosity 
        record of 110\32\ cm<SUP>-</SUP>\2\ sec<SUP>-</SUP>\1\. The 
        use of the Recycler and Accumulator together to maximize the 
        number of antiprotons available for collisions helped to set 
        the new record. Since January 2004, the peak luminosity of the 
        Tevatron has increased 100 percent. The fiscal year 2004 PEP-
        II/Babar run at SLAC ended as scheduled on July 31, setting new 
        performance records. Since the SLAC facility for B meson 
        research began operations in 1999, its accumulated total number 
        of electron-positron collisions (integrated luminosity) has 
        steadily increased to a level about five times higher than the 
        design performance.
                   program objectives and performance
    Underpinning all of SC's programs is a fundamental quest for 
knowledge. Our program history provides a compelling story of how this 
knowledge has already shaped the world around us, and the future 
appears even more promising.
    DOE's Strategic Plan identifies four strategic goals (one each for 
defense, energy, science, and the environment) and seven subordinate 
general goals. The Office of Science supports the Science Goals. 
Detailing Office of Science contributions to DOE's Science goals are 27 
annual performance goals. Progress toward the annual goals is tracked 
quarterly through the Department's Joule system and reported to the 
public annually through the Department's Performance and Accountability 
Report (PAR).
    The one Office of Science annual performance goal that was not met 
in fiscal year 2004 was: ``Focus usage of the primary supercomputer at 
the NERSC on capability computing. 50 percent of the computing time 
used will be accounted for by computations that require at least one-
eighth of the total resource.'' The allocation process for NERSC 
resources is based on the potential scientific impact of the work, 
rather than on how well the work scales to large numbers of processors. 
When we proposed this measure we did not understand the extent to which 
users who run large jobs also run small jobs. It is critical for users 
to be able to run their software at both scales on the same computer 
because it significantly simplifies their software management. 
Therefore we are reducing the percentage of time dedicated to large 
jobs at NERSC to 40 percent. In addition, we have tasked the NERSC 
Users Group to develop science-based measures to better assess NERSC 
performance.
    As a basic research program, the meaning and impact of our 
performance goals may not always be clear to those outside the research 
community. The Office of Science has created a website (www.sc.doe.gov/
measures) to better communicate what we are measuring and why it is 
important. We are committed to improving our performance information 
and will soon be expanding the information included on the website and 
simplifying the interface so that the program objectives and results 
will be accessible to a wide audience.
                              organization
    The OneSC Project was initiated to streamline the Office of Science 
structure and improve operations across the Office of Science complex 
in keeping with the principles of the President's Management Agenda. 
The first phase of this multiphase effort is now complete and we have 
realigned the Office of Science organization structure to establish a 
clear set of integrated roles and responsibilities for all Headquarters 
(HQ) and Field elements (Figure 2). Policy direction, scientific 
program development and management functions were defined as HQ 
responsibilities. Program execution, implementation, and support 
functions were defined as Field responsibilities. The major structural 
change implemented is the removal of a layer of management from the 
Office of Science Field structure, in effect removing the layer that 
existed between the Office of Science Director and the Site Office 
Managers located at Office of Science laboratories. In addition, the 
Chicago Office will now serve as the personnel office for Office of 
Science employees in HQ. The second phase of the OneSC initiative will 
entail a reengineering of our business processes and is in the 
preliminary stages of development.
                                figure 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            science programs
                         basic energy sciences
Fiscal Year 2005 Comparable Appropriation--$1,104.6 Million; Fiscal 
        Year 2006 Request--$1,146.0 Million
    The Basic Energy Sciences (BES) program advances nanoscale science 
through atomic- and molecular-level studies in materials sciences and 
engineering, chemistry, geosciences, and energy biosciences. BES also 
provides the Nation's researchers with world-class research facilities, 
including reactor- and accelerator-based neutron sources, light sources 
soon to include the X-ray free electron laser, nanoscale science 
research centers, and micro-characterization centers. These facilities 
provide outstanding capabilities for imaging and characterizing 
materials of all kinds from metals, alloys, and ceramics to fragile 
biological samples. The next steps in the characterization and the 
ultimate control of materials properties and chemical reactivity are to 
improve spatial resolution of imaging techniques; to enable a wide 
variety of samples, sample sizes, and sample environments to be used in 
imaging experiments; and to make measurements on very short time 
scales, comparable to the time of a chemical reaction or the formation 
of a chemical bond. With these tools, we will be able to understand how 
the composition of materials affects their properties, to watch 
proteins fold, to see chemical reactions, and to understand and observe 
the nature of the chemical bond. Theory, modeling, and computer 
simulations will also play a major role in achieving these outcomes and 
will be a companion to experimental work. Also supported is basic 
research aimed at advancing hydrogen production, storage, and use for 
the coming hydrogen economy.
    Fiscal year 2006 will mark the completion of construction and the 
initial operation of the Spallation Neutron Source (SNS). The SNS will 
be significantly more powerful (by about a factor of 10) than the best 
spallation neutron source now in existence--ISIS at the Rutherford 
Laboratory in England. We estimate the facility will be used by 1,000-
2,000 scientists and engineers annually from academia, national and 
Federal labs, and industry for basic and applied research and for 
technology development. The high neutron flux (i.e., high neutron 
intensity) from the SNS will enable broad classes of experiments that 
cannot be done with today's low flux sources. For example, high flux 
enables studies of small samples, complex molecules and structures, 
time-dependent phenomena, and very weak interactions. The fiscal year 
2006 budget authority request completes funding for the SNS Project. 
This will involve procurement and installation of equipment for 
instrument systems, completion of an accelerator readiness review, 
commissioning of ring and target systems, and meeting all requirements 
to begin operations; and all SNS facilities will be turned over to 
operations. The estimated Total Project Cost remains constant at 
$1,411,700,000.
    Operations will begin in fiscal year 2006 at four of the five 
NSRCs: the Center for Nanophase Materials at ORNL, the Molecular 
Foundry at Lawrence Berkeley National Laboratory (LBNL), the Center for 
Integrated Nanotechnologies at Sandia National Laboratories/Los Alamos 
National Laboratory (SNL/LANL), and the Center for Nanoscale Materials 
at ANL. The exception is the Center for Functional Nanomaterials at 
BNL, which is scheduled to begin operations in fiscal year 2008. The 
NSRC's are user facilities for the synthesis, processing, fabrication, 
and analysis of materials at the nanoscale. They are designed to 
promote rapid advances in the various areas of nanoscale science and 
technology and are part of the DOE contribution to the National 
Nanotechnology Initiative. The NSRC's are sited adjacent to or near 
existing BES synchrotron or neutron scattering facilities to enable 
rapid characterization of newly fabricated materials. Fiscal year 2006 
funds are requested for construction of NSRC's located at LBNL, at SNL/
LANL, and at BNL. Funds are also requested to complete the Major Item 
of Equipment (MIE) for the NSRC at ANL.
    The Linac Coherent Light Source (LCLS) will continue Project 
Engineering Design (PED) and fiscal year 2006 budget authority is 
requested to initiate physical construction of the LCLS conventional 
facilities. Funding will be provided separately for preconceptual 
design of instruments for the facility. BES funding will also be 
provided to partially support, in conjunction with the High Energy 
Physics program, operation of the SLAC linac. This will mark the 
beginning of the transition to LCLS operations at SLAC. The LCLS 
project will provide the world's first demonstration of an X-ray free-
electron-laser (FEL) in the 1.5-15A (angstrom) range, 10 billion times 
greater in peak power and peak brightness than any existing coherent X-
ray light source, and that has pulse lengths measured in femtoseconds, 
the timescale of electronic and atomic motions. The advance in 
brightness is similar to that of a synchrotron over a 1960's laboratory 
X-ray tube. Synchrotrons have revolutionized science across disciplines 
ranging from atomic physics to structural biology. Advances from the 
LCLS are expected to be even more dramatic. The LCLS project leverages 
capital investments in the existing SLAC linac as well as technologies 
developed for linear colliders and for the production of intense 
electron beams with radio-frequency photocathode guns. The availability 
of the SLAC linac for the LCLS project creates a unique opportunity for 
demonstration and use of X-ray FEL radiation. The estimated Total 
Project Cost is $379,000,000.
    The fiscal year 2006 budget supports a Major Item of Equipment 
(MIE) for the Transmission Electron Aberration-corrected Microscope 
(TEAM). The Total Project Cost is in the range of $25,000,000 to 
$30,000,000. The TEAM project will construct and operate a new 
aberration-corrected electron microscope for materials and nanoscience 
research. The projected improvement in spatial resolution, contrast, 
sensitivity, and flexibility of design of electron optical instruments 
will provide unprecedented opportunities to observe directly the 
atomic-scale order, electronic structure, and dynamics of individual 
nanoscale structures.
    Research to realize the potential of a hydrogen economy will be 
increased from $29,183,000 to $32,500,000. This research program is 
based on the BES workshop report Basic Research Needs for the Hydrogen 
Economy. The 2003 report highlights the enormous gap between our 
present capabilities for hydrogen production, storage, and use and 
those required for a competitive hydrogen economy. To be economically 
competitive with the present fossil fuel economy, the cost of fuel 
cells must be lowered by a factor of five and the cost of producing 
hydrogen must be lowered by a factor of four. Moreover, the performance 
and reliability of hydrogen technology for transportation and other 
uses must be improved dramatically. Simple incremental advances in the 
present state-of-the-art cannot bridge this gap. Narrowing the gap 
significantly is the goal of a comprehensive, long-range program of 
innovative high-risk/high-payoff basic research that is intimately 
coupled to and coordinated with the DOE's applied programs.
    In order to accomplish these very high-priority, forefront 
activities, some difficult choices had to be made. In particular, the 
BES support for the Radiochemical Engineering and Development Center at 
ORNL will be terminated. The operations budgets of the remaining 
facilities will be at about the same level as in fiscal year 2005, 
decreasing available beam time and service for users. Core funding for 
university and national laboratory researchers decreases 7.8 percent 
compared to the fiscal year 2005 appropriation. While no research 
activities will be terminated, there will be reductions throughout.
                 advanced scientific computing research
Fiscal Year 2005 Comparable Appropriation--$232.5 Million; Fiscal Year 
        2006 Request--$207.1 Million
    The Advanced Scientific Computing Research (ASCR) program 
significantly advances scientific simulation and computation, applying 
new approaches, algorithms, and software and hardware combinations to 
address the critical science challenges of the future. ASCR also 
provides access to world-class scientific computation and networking 
facilities to the Nation's scientific community to support advancements 
in practically every field of science. ASCR will continue to advance 
the transformation of scientific simulation and computation into the 
third pillar of scientific discovery, enabling scientists to look 
inside an atom or across a galaxy; and inside a chemical reaction that 
takes a millionth of a billionth of a second or across a climate change 
process that lasts for a thousand years. In addition, ASCR will shrink 
the distance between scientists and the resources--experiments, data, 
and other scientists--they need, and accelerate scientific discovery by 
making interactions that used to take months happen on a much shorter 
timescale.
    The Mathematical, Information, and Computational Sciences (MICS) 
effort is responsible for carrying out the primary mission of the ASCR 
program. In addition, MICS research underpins the success of SciDAC. 
MICS supports both basic research and the development of the results 
from this basic research into software usable by scientists in other 
disciplines. MICS also supports partnerships with scientific discipline 
users to test the usefulness of the research--facilitating the transfer 
of research and helping to define promising areas for future research. 
This integrated approach is critical for MICS to succeed in providing 
the extraordinary computational and communications tools that DOE's 
civilian programs need to carry out their missions.
    Major elements of the ASCR portfolio related to the SciDAC will be 
re-competed in fiscal year 2006, with attention paid to support for the 
long term maintenance and support of software tools such as 
mathematical libraries, adaptive mesh refinement software, and 
scientific data management tools developed in the first 5 years of the 
effort. In addition, in fiscal year 2006 ASCR is changing the way in 
which it manages its Genomics: GTL partnership with the Biological and 
Environmental Research program. The management of these efforts will be 
integrated into the portfolio of successful SciDAC partnerships. The 
fiscal year 2006 budget request includes $7,500,000 for continued 
support of the Genomics: GTL research program. The fiscal year 2006 
budget request also includes $2,600,000 for the Nanoscale Science, 
Engineering and Technology initiative led by BES, and $1,350,000 for 
support of the Fusion Simulation Project, led by the Fusion Energy 
Sciences program. ASCR's contributions to these partnerships will 
consist of advancing the mathematics and developing new mathematical 
algorithms to simulate biological systems and physical systems at the 
nanoscale. The fiscal year 2006 budget request also provides $8,000,000 
to initiate a small number of competitively selected SciDAC institutes 
at universities which can become centers of excellence in high end 
computational science in areas that are critical to DOE missions.
    The fiscal year 2006 budget also includes $8,500,000 to continue 
the ``Atomic to Macroscopic Mathematics'' (AMM) research support in 
applied mathematics needed to break through the current barriers in our 
understanding of complex physics processes that occur on a wide range 
of interacting length- and timescales. Achieving this basic 
mathematical understanding will provide enabling technology to 
virtually every challenging computational problem faced by SC.
    The National Leadership Computing Facility acquired under the Next 
Generation Architecture (NGA) Leadership Class Computing Competition in 
fiscal year 2004 will be operated to provide high performance 
production capability to selected Office of Science researchers. The 
NGA effort will play a critical role in enabling Leadership Class 
Machines that could lead to solutions for scientific problems beyond 
what would be attainable through a continued simple extrapolation of 
current computational capabilities. NGA will continue its focus on 
research in operating systems and systems software and will initiate a 
new competition for Research and Evaluation Prototype Computer 
testbeds. ASCR research efforts in Collaboratory Tools and Pilots and 
Networking will be restructured into an integrated Distributed Network 
Environment activity focused on basic research in computer networks and 
the middleware needed to make these networks tools for science. This 
change will enable the reduced NGA effort to operate computers acquired 
in fiscal year 2004 and fiscal year 2005 at the ORNL Center for 
Computational Sciences (CCS) as tools for science and especially to 
satisfy the demand for resources that has resulted from the successful 
SciDAC efforts.
                 biological and environmental research
Fiscal Year 2005 Comparable Appropriation--$581.9 Million; Fiscal Year 
        2006 Request--$455.7 Million
    The Biological and Environmental Research (BER) program advances 
energy-related biological and environmental research in genomics and 
our understanding of complete biological systems, such as microbes that 
produce hydrogen; develops models to predict climate over decades to 
centuries; develops science-based methods for cleaning up environmental 
contaminants; provides regulators with a stronger scientific basis for 
developing future radiation protection standards; and develops new 
diagnostic and therapeutic tools, technology for disease diagnosis and 
treatment, non-invasive medical imaging, and biomedical engineering 
such as an artificial retina that is restoring sight to the blind.
    The fiscal year 2006 budget includes funds for the continued 
expansion of the Genomics: GTL program--a program at the forefront of 
the biological revolution. This program employs a systems approach to 
biology at the interface of the biological, physical, and computational 
sciences to address DOE's energy, environment, and national security 
mission needs. This research will continue to more fully characterize 
the inventory of multi-protein molecular machines found in selected 
DOE-relevant microbes and higher organisms. It will determine the 
diverse biochemical capabilities of microbes and microbial communities, 
especially as they relate to potential biological solutions to DOE 
needs, found in populations of microbes isolated from DOE-relevant 
sites. Support for Microbial Genomics research as a separate research 
activity is terminated to consolidate all microbial research within 
Genomics: GTL. Support of structural biology, human genome, and health 
effects research is also reduced to support GTL research. GTL research 
will provide the scientific community with knowledge, resources, and 
tools that benefit large numbers of research projects with positive 
impacts on more scientists and students than are negatively impacted by 
the initial reduction.
    In 2003, the administration launched the Climate Change Research 
Initiative (CCRI) to focus research on areas where substantial progress 
in understanding and predicting climate change, including its causes 
and consequences, is possible over the next 5 years. In fiscal year 
2006, BER will contribute to the CCRI from four programs: Terrestrial 
Carbon Processes, Climate Change Prediction, Atmospheric Radiation 
Measurement (ARM), and Integrated Assessment. Activities will be 
focused on (1) helping to resolve the magnitude and location of the 
North American carbon sink; (2) deploying and operating of a mobile ARM 
Cloud and Radiation Testbed facility to provide data on the effects of 
clouds and aerosols on the atmospheric radiation budget in regions and 
locations of opportunity where data are lacking or sparse; (3) using 
advanced climate models to simulate potential effects of natural and 
human-induced climate forcing on global and regional climate and the 
potential effects on climate of alternative options for mitigating 
increases in human forcing of climate; and (4) developing and 
evaluating assessment tools needed to study costs and benefits of 
potential strategies for reducing net carbon dioxide emissions.
    The completion of the International Human Genome Project and the 
transition of BER's Human Genome research program from a human DNA 
sequencing program to a DNA sequencing user resource for the scientific 
community which focuses on the sequencing of scientifically important 
microbes, plants, and animals will bring BER's Human Genome Ethical, 
Legal, and Societal Issues (ELSI) program to an end. In fiscal year 
2006, ELSI research will include activities applicable to Office of 
Science issues in biotechnology and nanotechnology such as 
environmental or human health concerns associated with Genomics: GTL or 
nanotechnology research. Research with these funds will be coordinated 
across the Office of Science.
    BER will focus fiscal year 2006 research activities on higher 
priorities, including GTL and Climate Change Research, in support of 
DOE goals and objectives. Funding reductions are initiated in the 
Environmental Remediation Research subprogram and the Medical 
Applications and Measurement Science Research subprogram. Accordingly, 
some current research activities will be phased out in fiscal year 
2005. Based on findings of the BER Committee of Visitors for the 
Environmental Remediation Research subprogram, research activities are 
integrated into a single program to increase the efficiency of the 
activities and to better address the BER long term goals in 
environmental remediation research.
                          high energy physics
Fiscal Year 2005 Comparable Appropriation--$736.4 Million; Fiscal Year 
        2006 Request--$713.9 Million
    The High Energy Physics (HEP) program provides over 90 percent of 
the Federal support for the Nation's high energy physics research. This 
research advances our understanding of dark energy and dark matter, the 
lack of symmetry in the current universe, the basic constituents of 
matter, and the possible existence of other dimensions, collectively 
revealing key secrets of the universe. HEP expands the energy frontier 
with particle accelerators to study fundamental interactions at the 
highest possible energies, which may reveal new particles, new forces, 
or undiscovered dimensions of space and time; explain the origin of 
mass; and illuminate the pathway to the underlying simplicity of the 
universe. At the same time, the HEP program sheds new light on other 
mysteries of the cosmos, uncovering what holds galaxies together and 
what is pushing the universe apart; understanding why there is any 
matter in the universe at all; and exposing how the tiniest 
constituents of the universe may have the largest role in shaping its 
birth, growth, and ultimate fate.
    The HEP program in fiscal year 2006 will continue to lead the world 
with forefront user facilities producing data that help answer key 
scientific questions, but these facilities will complete their 
scientific missions by the end of the decade. Thus, we have structured 
the fiscal year 2006 HEP program not only to maximize the scientific 
returns on our investment in these facilities, but also to invest in 
R&D now for the most promising new facilities that will come online in 
the next decade. This has required a prioritization of our current R&D 
efforts to select those which will provide the most compelling science 
within the available resources. In making these decisions we have 
seriously considered the recommendations of the High Energy Physics 
Advisory Panel (HEPAP) and planning studies produced by the U.S. HEP 
community. This prioritization process will continue as the R&D 
programs evolve.
    Because of its broad relevance in addressing many of the long-term 
goals of HEP, and its unique potential for new discoveries, the highest 
priority is given to the planned operations, upgrades and 
infrastructure for the Tevatron program at Fermilab. This includes the 
completion of the upgrade to the Tevatron accelerator complex in 2007 
to provide increased luminosity and additional computational resources 
to support analysis of the anticipated larger volume of data. Over the 
last few years, the laboratory has developed and implemented a 
detailed, resource-loaded plan for Tevatron operations and 
improvements, which has resulted in more reliable luminosity 
projections. The Office of Science has reviewed the plan and is 
actively engaged in tracking its progress.
    The fiscal year 2006 request supports initial operations of the 
Neutrinos at the Main Injector (NuMI) project at Fermilab, which has 
just completed construction and will study the puzzling but fundamental 
physics of neutrino masses and mixings. The NuMI beam operates in 
parallel with the Tevatron, also at Fermilab, currently the highest 
energy accelerator in the world.
    In order to fully exploit the unique opportunity to expand our 
understanding of the asymmetry of matter and antimatter in the 
universe, a high priority is given to the operations, upgrades and 
infrastructure for the B-factory at SLAC. Support for B-factory will 
include an allowance for increased power costs and fully funded 
upgrades for the accelerator and detector which are currently scheduled 
for completion in 2006. This includes the completion of the upgrade to 
the accelerator complex and BaBar detector to provide more data; 
additional computational resources to support analysis of the larger 
volume of data; and, increased infrastructure spending to improve 
reliability. Funding for SLAC operations includes support from the BES 
program for the LCLS project, marking the beginning of the transition 
of Linac operations from HEP to BES as B-factory operations are 
terminated by fiscal year 2008 at the latest.
    As the Large Hadron Collider (LHC) accelerator in Europe nears its 
turn-on date of 2007, U.S. activities related to fabrication of 
detector components will be completed and new activities related to 
commissioning and pre-operations of these detectors, along with 
software and computing activities needed to analyze the data, will 
ramp-up significantly. Support of a leadership role for U.S. research 
groups in the LHC physics program will continue to be a high priority 
for the HEP program.
    In order to explore the nature of dark energy, pre-conceptual R&D 
for potential interagency sponsored experiments with NASA will continue 
in fiscal year 2006. These experiments will provide important new 
information about the nature of dark energy and dark matter that will 
in turn lead to a better understanding of the birth, evolution and 
ultimate fate of the universe. At this time, no funding for a space-
based DOE/NASA Joint Dark Energy Mission past the pre-conceptual stage 
has been identified.
    The engineering design of the BTeV (``B Physics at the Tevatron'') 
experiment, which was scheduled to begin in fiscal year 2005 as a new 
Major Item of Equipment, is cancelled. This is consistent with the 
guidance of HEPAP which rated BTeV as of lesser scientific potential 
than other projects, although still important scientifically and of the 
Particle Physics Project Prioritization Panel (P5) which supported BTeV 
but only if it could be completed by 2010, which is not feasible given 
schedule and funding constraints.
    The Linear Collider has been judged to be of the highest scientific 
importance by HEPAP as well as by scientific advisory bodies of the 
Asian and European HEP communities. In order to address the opportunity 
for significant new future research options, R&D in support of an 
international electron-positron linear collider is increased relative 
to fiscal year 2005 to support the continued international 
participation and leadership in linear collider R&D and planning by 
U.S. scientists.
    Recent discoveries and studies have pointed to neutrinos as being 
an extremely important area of research for deepening our understanding 
of the nature of matter and the structure of the universe, and HEP is 
working with the Nuclear Physics program and the National Science 
Foundation to plan a coordinated program in neutrino physics. To 
provide a nearer-term future program, and to preserve future research 
options, R&D for other new accelerator and detector technologies, 
particularly in the emerging area of neutrino physics, will increase.
                            nuclear physics
Fiscal Year 2005 Comparable Appropriation--$404.8 Million; Fiscal Year 
        2006 Request--$370.7 Million
    The Nuclear Physics (NP) program is the major sponsor of 
fundamental nuclear physics research in the Nation, providing about 90 
percent of Federal support. NP builds and operates world-leading 
scientific facilities and state-of-the-art instrumentation to study the 
evolution and structure of nuclear matter, from the smallest building 
blocks, quarks and gluons, to the stable elements in the Universe 
created by stars and to understand how the quarks and gluons combine to 
form the nucleons (proton and neutron), what are the properties and 
behavior of nuclear matter under extreme conditions of temperature and 
pressure, and what are the properties and reaction rates for atomic 
nuclei up to their limits of stability. Results and insight from these 
studies are relevant to understanding how the universe evolved in its 
earliest moments, how the chemical elements were formed, and how the 
properties of one of nature's basic constituents, the neutrino, 
influences astrophysics phenomena such as supernovae. Scientific 
discoveries at the frontiers of nuclear physics further the Nation's 
energy related research capacity, in turn contributing to the Nation's 
security, economic growth and opportunities, and improved quality of 
life.
    In fiscal year 2006 the NP program will operate world-leading user 
facilities and make investments that will produce data and develop the 
research capabilities to achieve the scientific goals discussed above. 
The budget request reflects a balance in on-going facility operations 
and research support, and investments in capabilities. The fiscal year 
2006 budget request provides the resources to operate the program's 
user facilities at 65 percent of optimum utilization with investments 
allocated so as to optimize their scientific programs. Fiscal year 2006 
investments in capital equipment address opportunities identified in 
the 2002 Long Range Plan of the Nuclear Sciences Advisory Committee 
(NSAC) and in subsequent recommendations.
    In fiscal year 2006 the Relativistic Heavy Ion Collider's (RHIC) 
beams of relativistic heavy ions will be used by approximately 1,000 
scientists to continue the exploration of the nature of hot, dense 
matter and to recreate conditions under which nuclear matter dissolves 
into the predicted quark-gluon plasma. RHIC started operations in 
fiscal year 2000 and its first 3 runs have produced over 70 refereed 
journal papers, creating great interest in the scientific community 
with the observation of a new state of nuclear matter. In fiscal year 
2006 funds are provided for accelerator improvements that will increase 
accelerator reliability and reduce costs, for detector upgrades needed 
to characterize the new state of matter observed and for Research and 
Development to increase the luminosity of the collider. These 
investments are important for optimizing the scientific research and 
productivity of the facility. These investments are made at the expense 
of operating time. Fiscal year 2006 funding will support 1,400 hours of 
operations, a 31 percent utilization of the collider. Effective 
operation will be achieved by combining fiscal year 2006-fiscal year 
2007 running into a single back-to-back run bridging the 2 fiscal 
years.
    Operations of the Thomas Jefferson National Accelerator Facility 
(TJNAF) in fiscal year 2006 will continue to advance our knowledge of 
the internal structure of protons and neutrons, the basic constituents 
of all nuclear matter. By providing precision experimental information 
concerning the quarks and gluons that form the protons and neutrons, 
the approximately 1,000 experimental researchers, together with 
researchers in nuclear theory, seek to provide a quantitative 
description of nuclear matter in terms of the fundamental theory of the 
strong interaction, Quantum ChromoDynamics. In fiscal year 2006 funds 
are provided to continue R&D activities for a potential 12 GeV Upgrade 
of the Continuous Electron Beam Accelerator Facility (CEBAF). These 
investments will poise the facility for a cost-effective upgrade that 
would allow insight on the mechanism of ``quark confinement''--one of 
the compelling unanswered puzzles of physics.
    In the fiscal year 2006 request funds are provided for the 
operation of the Argonne Tandem Linac Accelerator System (ATLAS) at ANL 
and the Holifield Radioactive Ion Beam Facility (HRIBF) at ORNL, for 
studies of nuclear reactions, structure and fundamental interactions. 
Included in this funding are capital equipment and accelerator 
improvement project funds provided to each facility for the enhancement 
of the accelerator systems and experimental equipment. These low energy 
facilities will carry out about 80 experiments in fiscal year 2006 
involving about 300 U.S. and foreign researchers.
    In fiscal year 2006, funds are provided to continue the fabrication 
of a next generation gamma-ray detector array (GRETINA) and of the 
Fundamental Neutron Physics Beamline (FNPB) at the Spallation Neutron 
Source (SNS) that will provide the United States with world-leader 
capabilities in nuclear structure and fundamental neutron studies, 
respectively. Support continues for completion of the important 
neutrino experiments at the Sudbury Neutrino Observatory (SNO) and 
KamLAND.
    The research programs at the major user facilities are integrated 
partnerships between DOE scientific laboratories and the university 
community, and the planned experimental research activities are 
considered essential for scientific productivity of the facilities. 
Funding for university and national laboratory researchers and graduate 
students decreases 6.8 percent compared to the fiscal year 2005 
appropriation.
    While we have a relatively good understanding of the origin of the 
chemical elements in the cosmos lighter than iron, the production of 
the elements from iron to uranium remains a puzzle. The proposed Rare 
Isotope Accelerator (RIA) would enable study of exotic nuclei at the 
very limits of stability, advancing our knowledge of how the elements 
formed. In fiscal year 2006, R&D activities for the proposed RIA are 
maintained at the fiscal year 2005 Congressional budget request level.
                         fusion energy sciences
Fiscal Year 2005 Comparable Appropriation--$273.9 Million; Fiscal Year 
        2006 Request--$290.6 Million
    The Fusion Energy Sciences (FES) program advances the theoretical 
and experimental understanding of plasma and fusion science, including 
a close collaboration with international partners in identifying and 
exploring plasma and fusion physics issues through specialized 
facilities. This includes: (1) exploring basic issues in plasma 
science; (2) developing the scientific basis and computational tools to 
predict the behavior of magnetically confined plasmas; (3) using the 
advances in tokamak research to enable the initiation of the burning 
plasma physics phase of the FES program; (4) exploring innovative 
confinement options that offer the potential of more attractive fusion 
energy sources in the long term; (5) focusing on the scientific issues 
of nonneutral plasma physics and High Energy Density Physics (HEDP); 
and (6) developing the cutting edge technologies that enable fusion 
facilities to achieve their scientific goals. FES also leads U.S. 
participation in ITER, an experiment to study and demonstrate the 
sustained burning of fusion fuel. This international collaboration will 
provide an unparalleled scientific research opportunity with a goal of 
demonstrating the scientific and technical feasibility of fusion power.
    The fiscal year 2006 request is $290,550,000, an increase of 
$16,647,000, 6.1 percent over the fiscal year 2005 appropriation. The 
fiscal year 2006 budget continues the redirection of the fusion program 
to prepare for and participate in the ITER project. The ITER 
International Agreement is currently being negotiated and is expected 
to be completed by the end of fiscal year 2005. Fiscal year 2006 FES 
funding of $49,500,000 is for the startup of the U.S. Contributions to 
ITER MIE. The total U.S. Contributions to the ITER MIE, $1,122,000,000, 
supports the fabrication of the equipment, provision of personnel, 
limited cash for the U.S. share of common project expenses at the ITER 
site, and ITER procurements. This MIE is augmented by the technical 
output from a significant portion of the U.S. Fusion Energy Sciences 
community research program. Virtually the entire FES program provides 
related contributions to such ITER relevant research and prepares the 
United States for effective participation in ITER when it starts 
operations.
    Within the overall priorities of the fiscal year 2006 FES budget, 
$15,900,000 is requested for the National Compact Stellarator 
Experiment (NCSX), a joint ORNL/Princeton Plasma Physics Laboratory 
(PPPL) advanced stellarator experiment being built at PPPL. This fusion 
confinement concept has the potential to be operated without plasma 
disruptions, leading to power plant designs that are simpler and more 
reliable than those based on the current lead concept, the tokamak. 
Fiscal year 2006 operation of the three major fusion research 
facilities will be reduced from a total of 48 weeks to 17 weeks.
    Fiscal year 2006 funding for the Inertial Fusion Energy/High Energy 
Density Physics program is $8,086,000, a reduction of $7,255,000 from 
the fiscal year 2005 level. This will be accomplished by reducing the 
level of research on heavy ion beams. In addition, the Materials 
Research program will be eliminated in favor of utilizing the general 
BES materials effort for scientific advances in areas of fusion 
interest.
                  science laboratories infrastructure
Fiscal Year 2005 Comparable Appropriation--$42.0 Million; Fiscal Year 
        2006 Request--$40.1 Million
    The mission of the Science Laboratories Infrastructure (SLI) 
program is to enable the conduct of DOE research missions at the Office 
of Science laboratories by funding line item construction projects to 
maintain the general purpose infrastructure and the clean up for reuse 
or removal of excess facilities. The program also supports Office of 
Science landlord responsibilities for the 24,000 acre Oak Ridge 
Reservation and provides Payments in Lieu of Taxes (PILT) to local 
communities around ANL-East, BNL, and ORNL.
    In fiscal year 2006, General Plant Projects (GPP) funding is 
requested to refurbish and rehabilitate the general purpose 
infrastructure necessary to perform cutting edge research throughout 
the Office of Science laboratory complex. Fiscal year 2006 funding of 
$3,000,000 is requested to support continued design of the Pacific 
Northwest National Laboratory (PNNL) Capabilities Replacement 
Laboratory project. Funding of $11,046,000 is requested to accelerate 
decontamination and decommissioning (D&D) of the Bevatron Complex at 
the LBNL.
    No funding is requested under the Health and Safety Improvements 
subprogram to continue health and safety improvements at the Office of 
Science laboratories identified in the Occupational Safety & Health 
Administration (OSHA) and Nuclear Regulatory Commission (NRC) reviews. 
If the administration determines that health and safety issues remain, 
resources will be requested in future years as necessary.
                       science program direction
Fiscal Year 2005 Comparable Appropriation--$153.7 Million; Fiscal Year 
        2006 Request--$162.7 Million
    Science Program Direction (SCPD) enables a skilled, highly 
motivated Federal workforce to manage the Office of Science's basic and 
applied research portfolio, programs, projects, and facilities in 
support of new and improved energy, environmental, and health 
technologies. SCPD consists of two subprograms: Program Direction and 
Field Operations.
    The Program Direction subprogram is the single funding source for 
the Office of Science Federal staff in headquarters responsible for 
managing, directing, administering, and supporting the broad spectrum 
of Office of Science disciplines. This subprogram includes planning and 
analysis activities, providing the capabilities needed to plan, 
evaluate, and communicate the scientific excellence, relevance, and 
performance of the Office of Science basic research programs. 
Additionally, Program Direction includes funding for the Office of 
Scientific and Technical Information (OSTI) which collects, preserves, 
and disseminates research and development (R&D) information of the 
Department of Energy (DOE) for use by DOE, the scientific community, 
academia, U.S. industry, and the public to expand the knowledge base of 
science and technology. The Field Operations subprogram is the funding 
source for the Federal workforce in the Field responsible for 
management and administrative functions performed within the Chicago 
and Oak Ridge Operations Offices, and site offices supporting the 
Office of Science laboratories and facilities.
           workforce development for teachers and scientists
Fiscal Year 2005 Comparable Appropriation--$7.6 Million; Fiscal Year 
        2006 Request--$7.2 Million
    The mission of the Workforce Development for Teachers and 
Scientists (WDTS) program is to provide a continuum of educational 
opportunities to the Nation's students and teachers of science, 
technology, engineering, and mathematics (STEM).
    The Scientists Teaching and Reaching Students (STARS) education 
initiative was launched in fiscal year 2004 to promote science literacy 
and help develop the next generation of scientists and engineers. In 
support of this effort, additional fiscal year 2006 funding is 
requested for both the Laboratory Science Teacher Professional 
Development (LSTPD) activity and the Middle School Science Bowl. The 
LSTPD activity is a 3-year commitment experience for K-14 teachers and 
faculty. The LSTPD will run at five or more DOE national laboratories 
with about 105 participating STEM teachers, in response to the national 
need for science teachers who have strong content knowledge in the 
classes they teach.
    The Faculty Sabbatical activity, which is being initiated in fiscal 
year 2005 for 12 faculty members from Minority Serving Institutions 
(MSI), will have five positions available in fiscal year 2006. The 
Faculty Sabbatical is aimed at providing sabbatical opportunities to 
faculty members from MSIs to facilitate the entry of their faculty into 
the research funding mainstream. This activity is an extension of the 
successful Faculty and Student Teams (FaST) program where teams 
consisting of a faculty member and two or three undergraduate students 
from colleges and universities with limited prior research capabilities 
work with mentor scientists at a national laboratory on a research 
project that is formally documented in a paper or presentation.
    In the fiscal year 2006 request, the Pre-Service Teachers (PST) 
activity will be run at one national laboratory, as opposed to twelve 
national laboratories in fiscal year 2005, and students will be 
recruited from participating National Science Foundation (NSF) 
programs.
                        safeguards and security
Fiscal Year 2005 Comparable Appropriation--$67.2 Million; Fiscal Year 
        2006 Request--$68.7 Million
    The Safeguards and Security (S&S) program ensures appropriate 
levels of protection against unauthorized access, theft, diversion, 
loss of custody, or destruction of DOE assets and hostile acts that may 
cause adverse impacts on fundamental science, national security or the 
health and safety of DOE and contractor employees, the public or the 
environment. The SC's Integrated Safeguards and Security Management 
strategy encompasses a tailored approach to safeguards and security. As 
such, each site has a specific protection program that is analyzed and 
defined in its individual Security Plan. This approach allows each site 
to design varying degrees of protection commensurate with the risks and 
consequences described in their site-specific threat scenarios.
    The fiscal year 2006 request meets minimum, essential security 
requirements. Protection of employees and visitors is of primary 
concern, as well as protection of special nuclear material and research 
facilities, equipment and data. Priority attention is given to 
protective forces, physical security systems, and cyber security.
                               conclusion
    The Office of Science occupies a unique and critical role within 
the U.S. scientific enterprise. We fund research projects in key areas 
of science that our Nation depends upon. We construct and operate major 
scientific user facilities that scientists from virtually every 
discipline are using on a daily basis, and we manage civilian national 
laboratories that are home to some of the best scientific minds in the 
world.
    Mr. Chairman, we have made some difficult decisions this year 
within the President's budget request for the Office of Science--
consistent with our research priorities--which will allow us to build 
on the solid foundation created over the last 4 years, propel us into 
new areas of great scientific promise, and maintain America's world-
class stature in science.
    I want to thank you, Mr. Chairman, for providing this opportunity 
to discuss the Office of Science research programs and our 
contributions to the Nation's scientific enterprise. On behalf of DOE, 
I am pleased to present this fiscal year 2006 budget request for the 
Office of Science.
    This concludes my testimony. I would be pleased to answer any 
questions you might have.

    Senator Domenici. Thank you very much. Director of the 
Office of Nuclear Energy, Science and Technology, it's good to 
have you with us again, would you please give us your 
testimony?

            Office of Nuclear Energy, Science and Technology

STATEMENT OF WILLIAM D. MAGWOOD, IV, DIRECTOR
    Mr. Magwood. It's a pleasure. It's a pleasure, Mr. 
Chairman, I was trying to count the number of times I've 
appeared before you. I think this is the seventh. Mr. Garman, I 
believe, holds the record in the Department for the number of 
hearings overall, but I think I may beat him in terms of 
Appropriations Hearings.
    It's a great pleasure to be here to talk about our fiscal 
year 2006 budget request. The Office of Nuclear Energy's 
request for 2006 totals $511 million, and it's a budget we 
believe will enable us to proceed to accomplish our mission of 
developing and deploying advanced energy technologies in the 
United States.

                    NUCLEAR ENERGY RESEARCH PROGRAM

    In fiscal year 1998--as I'm sure you recall, Mr. Chairman--
the Nation's Nuclear Energy Research Program came to a virtual 
standstill. In that year, our energy R&D budget in the Office 
of Nuclear Energy hit zero, and it was a year where the 
students who were taking nuclear engineering fell to a number 
that was below 500 for the first time. It was also a year that 
the international community began to turn away from the United 
States as a leader in nuclear technology.
    Since that time, with the great help of this subcommittee 
and your colleagues in the House, we've been able to turn that 
situation around considerably. We've invested a lot of effort 
into turning the program around, and I think the results speak 
for themselves.
    An important indicator is to look at the University 
community. Since 1998, when there were 480 students taking 
nuclear engineering in the United States, we're now seeing the 
number recovering to almost 1,600.
    Senator Domenici. From which?
    Mr. Magwood. It went from 480 in 1998, to almost 1,600 now. 
So, we feel quite good about that. And that's due to the strong 
programs in the schools, such as Ohio State, Purdue, Texas A&M 
and many others across the country, but also new programs at 
small schools, such as South Carolina State University, and 
Wilberforce University. We're very pleased with our progress to 
date, and we think there's more to be done.
    One thing, Mr. Chairman, that we'd like to alert you to is 
that we are, in fact, expanding our efforts to the high school 
level. Starting in 2 weeks, juniors and seniors from seven 
Pittsburgh high schools will begin a new nuclear science and 
technology curriculum that was developed by DOE and high school 
science teachers. These students will tour research reactors, 
participate in experiments, and receive lectures from national 
laboratory scientists. Once this pilot is complete, we plan to 
make this course available to high schools across the country, 
and we're very excited by that.
    Senator Domenici. Would you please hold for a minute? I 
think the Senator from Colorado has to leave, but he wanted to 
ask a question.

               PREPARED STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. I do, thank you, Mr. Chairman. I just want 
to submit my statement for the record, if I may. I just want to 
congratulate you on your commitment to new science and 
technology in the energy field. I know you're a strong 
proponent of nuclear energy, and I stand shoulder to shoulder 
with that. I'm a strong proponent of renewables, and working 
hard on many a legislation there, and I just thank you for your 
effort, and thank the panel for their testimony.
    [The statement follows:]
               Prepared Statement of Senator Wayne Allard
    Mr. Chairman, thank you for holding this hearing today. As you 
know, I am co-chairman of the Senate Renewable Energy & Energy 
Efficiency Caucus and represent the State which the National Renewable 
Energy Laboratory calls home. And, as a scientist myself, I have always 
been a strong supporter of research funding in all areas. For these 
reasons, I have a special interest in today's hearing.
    Today more attention is being focused on clean energy and energy 
efficient technologies. This is a time when the development of 
alternative energy sources and increased energy efficiency technology 
are becoming more important than ever.
    We must also continue to provide incentives for the implementation 
of renewable technologies, and for the infrastructure necessary to 
support these renewable sources. These technologies are a necessary 
step in balancing our domestic energy portfolio, increasing our 
Nation's energy security and advancing our country's technological 
excellence.
    The National Renewable Energy Laboratory in Colorado can, and does, 
make an incredible contribution to the development of these resources. 
Technologies being developed at NREL--whether providing alternative 
fuels and power, or making our homes and vehicles more energy 
efficient--are vital to our Nation's energy progress.
    This is a step in the right direction. Renewable energy is a very 
important way that we can begin to reduce the demand for oil and, 
thereby, help to make our country more secure. There are great 
opportunities for solar, wind, geothermal, biomass, fuel cells and 
hydro to make significant contributions. Research and the input of both 
government and industry entities is very important to allowing these 
opportunities to live up to their potential.
    I look forward to working with the committee to ensure that R&D in 
all fields of energy technology are funded in a manner that is 
responsible, but sufficient to ensure that the development and 
implementation of new technologies continues.

    Senator Domenici. Thank you very much. Mr. Magwood.
    Mr. Magwood. Thank you.
    We have also reasserted U.S. leadership in the 
international community. One of the examples I note is that, as 
a representative of the United States, I've been elected by my 
colleagues internationally to serve as the chair of two 
international bodies. The Organization for Economic Cooperation 
and Development (OACD) Steering Committee for Nuclear Energy, 
and The Generation IV International Forum. And I wanted to 
recognize Helen Leiser who is with me here today, back there 
somewhere, who is an official with the United Kingdom's 
Department of Trade and Industry who has spent the last 2 years 
detailed to the Department of Energy, to serve as a Generation 
IV International Forum policy director. She's leaving us at the 
end of this month with a record of success, and we appreciate 
her accomplishments.

              NEXT GENERATION NUCLEAR ENERGY TECHNOLOGIES

    Last month Secretary Bodman joined ambassadors and senior 
officials from France, the United Kingdom, Japan and Canada to 
sign the world's first multi-lateral agreement for the 
development of next generation nuclear energy technologies. As 
this Gen IV agreement, and other actions, demonstrate, the 
United States is once again setting the pace for international 
cooperation and partnership.

                     NUCLEAR POWER 2010 INITIATIVE

    At the same time, we're working with U.S. utilities toward 
exploring the construction of new U.S. nuclear power plants for 
the first time in many decades. The discussions we've been 
having with these utilities are the most detailed and serious 
I've ever seen, and I believe they will eventually lead to the 
first new nuclear power plants we've seen since the 1970's.
    Mr. Chairman, I have no doubt that our work on the Nuclear 
Power 2010 program contributed to these positive developments. 
For this effort, we've helped the industry organize itself to 
take the vital steps towards building the next plants. The 
subcommittee's support has been essential to this progress, and 
the administration's request of $56 million for fiscal year 
2006 will enable this effort to proceed on schedule.

                       IDAHO NATIONAL LABORATORY

    Finally, Mr. Chairman, I'd like to note that in February we 
also successfully launched the new Idaho National Laboratory. 
The development of this new laboratory is an essential step in 
furthering our nuclear energy research agenda. We now--like 
each of the programs represented here today--have a core 
laboratory that can serve as the command center for our 
program's key research efforts. We are committed to the success 
of this laboratory, and working with Beth Sellers--the manager 
of the Idaho Operations Office, who's joined me here today--we 
are working towards making sure the Department is a good 
partner to work with the lab to make sure its goal of becoming 
the world's premier nuclear energy resource center in 10 years 
can be achieved.

                           PREPARED STATEMENT

    I conclude my remarks, Mr. Chairman, by recognizing and 
thanking you for your long leadership in this endeavor, and as 
I say, I think we've been an effective team in reviving the 
Federal Government's nuclear energy technology efforts. While 
much remains to be done, we should remember that we've 
accomplished quite a bit over the last several years. Thank you 
very much.
    [The statement follows:]
              Prepared Statement of William D. Magwood, IV
    Mr. Chairman, Senator Reid, and members of the subcommittee, it is 
a pleasure to be here to discuss the Fiscal Year 2006 Budget submission 
for DOE's Office of Nuclear Energy, Science and Technology.
    In his February 2 State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the Fiscal Year 2006 Budget. The budget savings and reforms 
in the budget are important components of achieving the President's 
goal of cutting the budget deficit in half by 2009 and we urge the 
Congress to support these reforms. The Fiscal Year 2006 Budget includes 
more than 150 reductions, reforms, and terminations in non-defense 
discretionary programs, of which six affect Department of Energy 
programs. The Department wants to work with the Congress to achieve 
these savings.
    Of these six programs, two programs are from the Office of Nuclear 
Energy, Science and Technology: the Nuclear Energy Plant Optimization 
(NEPO) and the Nuclear Energy Research Initiative (NERI) programs. 
Research conducted under the NEPO program is designed to assure the 
ability of currently operating nuclear power plants to remain in 
service up to and beyond their licensed operating period. No funding is 
requested for the NEPO program in fiscal year 2006 because industry is 
committed to continuing the research begun under NEPO without DOE 
support, allowing DOE to focus on higher priority activities. No stand-
alone funding is requested for the NERI program as the Department's 
principal nuclear energy research and development (R&D) programs 
(Generation IV Nuclear Energy Systems Initiative, Advanced Fuel Cycle 
Initiative, and Nuclear Hydrogen Initiative) will be sponsoring NERI 
research projects within the Nation's university research community to 
enhance the research cooperation between academia and our national 
laboratories and to strengthen our mainline R&D programs.
    For most of our Nation's history, America's vibrant economy and 
society have benefited from the abundant energy options we have had 
available. Even though we experienced oil price shocks in the 1970's 
and 1980's, the vast majority of the energy used in the United States 
is, even today, produced in the United States. Our coal, oil, natural 
gas, nuclear, and renewable resources all contribute to a diversified 
and reliable energy picture.
    However, we are entering a new era in energy supply. As highlighted 
in the President's National Energy Policy, forecasts indicate that our 
need for energy--even with ambitious implementation of energy 
efficiency measures across all sectors of the economy--will continue to 
grow as our economy grows. The Energy Information Administration 
forecasts that by 2025, the United States will import 38 percent of all 
of its energy and 68 percent of its energy for transportation uses. 
Buried in these estimates is an ominous fact that has escaped casual 
notice--the United States will, over this period, begin a steadily 
increasing dependence on imports for fuels needed for electricity 
generation that may, over the coming decades, follow the patterns of 
our accelerating dependence on imports required for the transportation 
sector.
    To meet these challenges while still assuring America's access to 
reliable baseload electricity--while setting a path toward reduced 
emissions--we must apply advanced technologies. New technology can help 
us to exploit renewable energy sources when they are practical, and 
enable coal to continue as a viable, long-term element of our energy 
supply. And as the President conveyed in his State of the Union 
address, we must consider new nuclear energy as part of our long-term 
energy picture.
    The Department of Energy's nuclear energy program has made 
significant progress over the past several years. From the time, not so 
many years ago, when it appeared that the United States might abandon 
advanced nuclear research and development, we have been successful in 
reasserting U.S. leadership in this area around the world. Representing 
the United States, I have been elected by my international colleagues 
to serve as the chair of two important international bodies--the 
Organization of Economic Cooperation and Development Steering Committee 
on Nuclear Energy and the Generation IV International Forum.
    We continue to build on our leadership. Just a few weeks ago, we 
celebrated the launch of the Nation's central laboratory for nuclear 
research and development--the Idaho National Laboratory (INL). This new 
national laboratory combines the resources of the former Idaho National 
Engineering and Environmental Laboratory (INEEL) and the former Argonne 
National Laboratory-West (ANL-W). The INL will lead much of the 
Department's exploration into advanced nuclear reactor and fuel cycle 
technology. We have set an aggressive goal for the new INL to become 
the world's premier center for nuclear energy research and education 
within a decade.
    Developing a central research laboratory is a major step forward 
for the nuclear energy program. We, like other key energy programs at 
the Department, have created a central, dedicated research site at 
which we can consolidate our infrastructure investments and build the 
expertise needed to accomplish our long-term program goals. A central 
lab also helps us minimize the shipment of nuclear materials across the 
country and allows us to bring our nuclear materials together in a 
single, secure location. In addition, we expect that our new central, 
dedicated research laboratory will become a major player in the 
education of the next generation of nuclear energy technologists that 
this Nation will need to assure our energy security in the future.
    The Department's fiscal year 2006 request for the nuclear energy 
program proposes a $511 million (an increase of $25 million compared to 
fiscal year 2005) investment in nuclear research, development, 
education and infrastructure for the Nation's future that is designed 
to continue this progress. This budget request demonstrates our 
commitment to support the President's priorities of enhancing the 
Nation's energy independence and security while limiting air pollution. 
Our request supports the development of new nuclear generation 
technologies and advanced energy products that will provide significant 
improvements in the economics, sustainability, safety and reliability 
of nuclear-based energy, as well as its resistance to proliferation and 
terrorism.
    We are committed to efficiently managing the funds we are provided. 
We have abandoned outdated field office and laboratory management 
paradigms and have integrated the Idaho Operations Office with our 
headquarters organization, enabling us to closely manage our 
responsibilities in the field to achieve greater quality and 
efficiency. We are enhancing our expertise in critical areas such as 
project management through training and certification of existing staff 
and the acquisition of experienced, proven managers. We are also 
applying international and public-private partnerships in the 
implementation of our research and development programs as a way of 
leveraging our investments and assuring the utility of our programs. We 
believe these steps must be taken to assure our program's ability to 
make the best use of the taxpayer dollars.
    While we have made great progress in all these areas, much remains 
to be done. Our fiscal year 2006 request moves us in the right 
direction.
                           nuclear power 2010
    Today, American utilities operate 103 nuclear power plants. These 
facilities operate reliably and efficiently and provide a fifth of the 
Nation's electricity. These plants are emissions-free and can operate 
year-round in all weather conditions.
    Over the last 15 years, nuclear utilities in the United States have 
been increasingly better managed, improving both efficiency and safety. 
In the early 1990's, U.S. plants were available to produce energy only 
70 percent of the time on average. These plants are now producing power 
over 90 percent of the time. More efficient operation has allowed 
nuclear plant operators to produce more energy than ever before, adding 
the equivalent of 25 new nuclear plants to the U.S. grid since 1990 
without building any new nuclear power plants.
    Consolidation of nuclear plant ownership to a fewer number of 
excellent operators has made the operation of U.S. plants safer than 
ever, more cost-effective, and more reliable. Companies acquiring 
nuclear plants are the leaders in the nuclear industry with high marks 
in operating performance. These utilities bring newly acquired plants 
the benefit of economies of scale, experienced staff, well-honed 
management processes. As a result of this success, essentially all U.S. 
nuclear plants are expected to apply for renewed licenses that will 
keep most plants in operation into the middle of the century. There 
will also be some new generation, with The Tennessee Valley Authority 
rebuilding a plant that ceased operating in 1985. TVA expects to invest 
$1.8 billion to bring a 1,065-megawatt plant on-line by 2007.
    With renewed interest from industry, the Department is investing in 
the Nuclear Power 2010 Program. This program's basic missions are to 
cost-share with industry demonstration of new, untested Nuclear 
Regulatory Commission licensing processes, finding sites on which to 
build new plants, and certifying state-of-the-art (or ``Generation 
III+'') designs for new nuclear power plants. The program also conducts 
economic studies and analysis that help point to the barriers facing 
the construction of new plants.
    While it is too early to determine success, this program appears to 
be on the right track. Three utilities are cooperating with the 
Department to obtain ``Early Site Permits'' for three sites across the 
country--the first time this important regulatory tool has ever been 
used. The Nuclear Regulatory Commission is currently reviewing the 
utilities' applications and is expected to issue these permits during 
fiscal year 2006. Once done, these utilities will have sites that are 
pre-approved by regulators to host new plants. This process will avoid 
the problems in siting that vastly escalated the cost of some plants in 
the 1980's and led to the abandonment of others (most notably the 
Shoreham plant in New York).
    In November 2004, the Nuclear Power 2010 program took its next 
major step by awarding two major projects to utility-led consortia to 
implement plans that could lead to the construction and operation of 
new U.S. nuclear plants. Central to this effort, these projects will 
demonstrate--again, for the first time--the Nuclear Regulatory 
Commission's combined Construction/Operating License (or ``one-step'' 
license) process. These projects could result in a new nuclear power 
plant order by 2009 and a new nuclear power plant constructed by the 
private sector and in operation by 2014.
    In addition to regulatory barriers, it is also important to deal 
with the financial barriers facing new nuclear power plant projects. 
Under the Nuclear Power 2010 program, DOE sponsored an independent 
study by the University of Chicago's Department of Economics. This 
study found that the first few nuclear power plants built in the United 
States would be too costly for utilities to build because of early 
plant costs. These high initial costs arise because the United States 
has not built nuclear plants in a very long time--the resulting new 
design, construction, licensing, and financial uncertainties are 
reflected as higher costs. However, the study found that once these 
early plant costs are absorbed, new nuclear power plants may be less 
expensive to build and operate than either coal-based power plants or 
natural gas-fired plants.
    The need to deal with these early plant costs is expected to become 
a central issue for the industry as the Nuclear Power 2010 program 
addresses the institutional barriers. Without the construction of new 
plants, the contribution of nuclear power as a percentage of the 
Nation's total energy mix will steadily decline. Supporting nuclear 
power helps to maintain a more diversified energy supply and, because 
it is emissions-free, will not contribute to air pollution--nuclear 
power today comprises almost 75 percent of all the non-emitting power 
generation in the country. The President's Budget supports continuation 
of the Nuclear Power 2010 initiative in fiscal year 2006 with a request 
of $56 million (an increase of $6.4 million compared to fiscal year 
2005).
            generation iv nuclear energy systems initiative
    Our Generation IV effort continues to make significant progress. 
Since the Generation IV International Forum (GIF) and the Nuclear 
Energy Research Advisory Committee (NERAC) issued their joint report, A 
Technology Roadmap for Generation IV Nuclear Energy Systems, the 
members of the Forum have expanded to include Switzerland and the 
European Union. The now eleven members (Argentina, Brazil, Canada, the 
European Union, France, Japan, the Republic of Korea, the Republic of 
South Africa, Switzerland, the United Kingdom and the United States) 
have organized into interest groups associated with each of the six 
selected Generation IV.
    A landmark international framework agreement for collaborative 
research and development among the GIF member countries was signed in 
Washington, DC, by the United States and its GIF partners on February 
28, 2005. The Framework Agreement for International Collaboration on 
Research and Development of Generation IV Nuclear Energy Systems, which 
has been under negotiation for the past year, will allow the United 
States and its partner countries to embark on joint, cost-shared 
research and development of Generation IV nuclear energy systems. These 
next-generation nuclear technologies offer the potential for 
significant improvements in sustainability, proliferation resistance, 
physical protection, safety and economics. The agreement will further 
the development of advanced technologies that are widely acceptable; 
enable the Department to access the best expertise in the world to 
develop complex new technologies; and allow us to leverage our scarce 
nuclear R&D resources.
    With this agreement in place, we are moving forward with these 
countries to develop advanced reactor technologies that could be made 
available in the 2020 to 2030 timeframe. Generation IV concepts offer 
significant improvements in the sustainability, proliferation 
resistance, physical protection, safety and economics of nuclear 
energy. These advanced systems will not only be safe, economic and 
secure, but will also include energy conversion systems that produce 
non-electricity products such as hydrogen, desalinated water and 
process heat. These features make Generation IV reactors ideal for 
meeting the President's energy and environmental objectives.
    We will explore a range of Generation IV concepts, including the 
Supercritical Water-Cooled Reactor, the Gas-Cooled Fast Reactor and the 
Lead-Cooled Fast Reactor. Our efforts will focus on establishing 
technical and economic viability, and developing core and fuel designs, 
and advanced materials for these concepts. We request $45 million (an 
increase of $5.3 million compared to fiscal year 2005) support our 
investigation of technical and economic challenges and risks, including 
waste products, to inform a decision on whether to proceed with a 
demonstration of the Next Generation Nuclear Plant (NGNP), which would 
use very high temperature reactor technologies to economically produce 
both electricity and hydrogen gas. The President's Budget supports 
advanced research into the systems, materials, and fuels that are 
needed to bring Generation IV concepts to fruition. Key to the strategy 
for conducting all Generation IV research and development is the 
multiplication effect derived from international collaboration. By 
coordinating U.S. efforts with those of the GIF partner nations, our 
funding is leveraged by a factor of 2 to 10, depending on the reactor 
concept involved.
    We are also working in close cooperation with the Department's 
Office of Science through the ``Materials for Advanced Energy Systems 
Initiative'' to coordinate the research advanced materials for use in 
Generation IV nuclear energy systems, fusion energy systems, and 
advanced energy technologies such as hydrogen production systems. 
Through a joint working group, the offices are coordinating on energy 
materials related issues with the purpose of investigating materials 
behavior in high temperature, radiation, and hostile corrosive 
environments, as well as the fabrication and non-destructive evaluation 
or monitoring of such materials. As common projects are identified, the 
offices will work to establish research objectives and cooperative work 
plans to leverage research funding.
                      nuclear hydrogen initiative
    Hydrogen offers significant promise as a future domestic energy 
source, particularly for the transportation sector. The use of hydrogen 
in transportation will reduce U.S. dependence on foreign sources of 
petroleum, enhancing national security. Hydrogen can be combusted in a 
traditional internal combustion engine, or can produce electricity in a 
fuel cell. Significant progress in hydrogen combustion engines and fuel 
cells is bringing transportation using hydrogen closer to reality. 
Before hydrogen can become a significant part of the Nation's energy 
infrastructure, the cost associated with the production, storage, and 
delivery of hydrogen must be reduced considerably.
    Today, through electrolysis, we can convert water to hydrogen using 
electricity. Without using a non-emitting technology, such as nuclear 
or renewable energy, to produce the electricity, the environmental 
benefits of electrolysis are negated. We believe that for the future, 
Generation IV systems coupled with advanced hydrogen production 
technology offer a more efficient technology for production of large 
quantities of hydrogen without release of greenhouse gases. This 
technology could pave the way for the commercial production of clean-
burning hydrogen for transportation purposes--reducing our reliance on 
imported fossil fuels and supporting the President's vision for a 
future hydrogen economy.
    The DOE Hydrogen Posture Plan and the Nuclear Hydrogen R&D Plan 
outline our plan for integrating and implementing technology research, 
development and demonstration activities needed to cost-effectively 
produce, store, and distribute hydrogen for use in fuel cell vehicles 
and electricity generation. These documents are revised periodically 
and used to inform our annual budget requests. Technology development 
work to date, which has been conducted in accordance with these plans, 
has proven successful. For example, last year, experiments were 
successfully completed on individual high-temperature electrolysis 
cells for hydrogen production. Since the results show that the hydrogen 
output of the cells closely matched the theoretical calculations, this 
year we are evaluating the performance of stacks of cells to achieve 
higher hydrogen production rates. In fiscal year 2006, the program will 
proceed with the plan to test cell stacks for long-duration and 
transient operation. As a result of these achievements, the fiscal year 
2006 budget request includes an increase of $11 million to conduct 
research and development on processes that operate across a range of 
temperatures for various advanced reactors being considered under the 
Generation IV Nuclear Energy Systems Initiative.
                     advanced fuel cycle initiative
    In addition to leading the development of a new generation of 
nuclear power plants, the Department is developing and demonstrating 
technologies that will enable the United States and other advanced 
countries to implement an improved, long-term nuclear fuel cycle that 
provides substantial environmental, nonproliferation, and economic 
advantages over the current once-through nuclear fuel cycle. The 
Advanced Fuel Cycle Initiative is a research program to develop new 
technologies for reducing the volume, toxicity, and longevity of the 
high-level nuclear wastes that result from the production of energy 
from nuclear power plants. The initiative is designed so that these 
technologies can be made available to support the operation of current 
nuclear power plants, Generation III+ light-water reactors, and 
Generation IV advanced reactors in order to achieve a significant 
reduction in the amount of high-level radioactive waste requiring 
geologic disposal; to significantly reduce the amount of plutonium 
accumulated in civilian spent nuclear fuel; and to extract more useful 
energy from nuclear fuel.
    Under all scenarios, the Nation will need to establish a permanent 
geological repository to deal with the radioactive wastes resulting 
from the operation of nuclear power plants. Substantial growth in the 
use of nuclear energy in the United States will require the 
construction of additional geologic repositories to address the nuclear 
waste generated over time. The advanced research conducted under the 
Advanced Fuel Cycle Initiative, if successful, could provide an 
alternative to building multiple ``Yucca Mountains'' while still 
supporting an expanding role for nuclear power in the United States. In 
the longer term, the Advance Fuel Cycle Initiative could enable us to 
extend the useful life of the Yucca Mountain repository and reduce the 
radiotoxicity of the wastes it contains such that it would decay to the 
toxicity of natural uranium ore in less than 1,000 years--instead of 
over 100,000 years as is the case with untreated spent fuel. This 
technology could also allow nuclear plants to exploit a far higher 
fraction of the energy contained in uranium ore, potentially expanding 
the lifetime of the world's nuclear fuel resources from around 100 
years up to 1,000 years.
    The Advanced Fuel Cycle Initiative, with an investment of $70 
million for fiscal year 2006 (an increase of $2.5 million compared to 
fiscal year 2005), will continue the progress made in the development 
of proliferation-resistant treatment and transmutation technologies 
that can reduce both the volume and toxicity of spent nuclear fuel. 
These technologies would support both national security and energy 
independence by reducing inventories of commercially-generated 
plutonium while recovering residual energy value from spent nuclear 
fuel. If successful, these same technologies offer benefits of 
enhancing national security by reducing inventories of commercially-
generated plutonium and enhancing energy independence by recovering the 
energy value contained in spent nuclear fuel.
    The program has already enjoyed considerable success. We have 
proven the ability of our URanium EXtraction (UREX) technology to 
separate uranium from spent fuel at a very high level of purity. We 
have demonstrated the ability of a derivative technology, UREX+, to 
separate a combined mixture of plutonium and neptunium that can serve 
as the basis for a proliferation-resistant fuel for light water 
reactors. While the UREX+ process has great potential to address the 
spent fuel challenges associated with today's light water reactors, we 
have also been investigating an alternative separation technology 
called pyroprocessing. This technology is a highly efficient, 
proliferation-resistant non-aqueous approach to separate the actinides 
in spent fuel from fission products. Among other potential 
applications, pyroprocessing could support the reduction of the 
radiotoxicity of nuclear waste through the transmutation of minor 
actinides in future Generation IV fast spectrum reactors providing the 
means for closure of the fuel cycle for Generation IV fast reactors.
    For the Advanced Fuel Cycle Initiative to be successful, advanced 
fuel treatment and transmutation research and development must be 
integrated with the development of Generation IV nuclear energy 
systems, particularly with those reactor technologies that can produce 
the high energy neutrons needed to transmute a wide variety of toxic 
radioactive species. We have organized our national labs, universities, 
and international collaborations in a manner that will enable the 
success of the Advanced Fuel Cycle Initiative.
       university reactor infrastructure and education assistance
    In addition, the Department has paid close attention to 
developments impacting university research reactors. The research 
conducted using these facilities is critical to many national 
priorities. Currently, there are 27 operating university research 
reactors at 26 campuses in 20 States. These reactors are providing 
support for research in such diverse areas as medical isotopes, human 
health, life sciences, environmental protection, advanced materials, 
lasers, energy conversion and food irradiation.
    The most exciting development in University Reactor Infrastructure 
and Education Assistance is the Innovations in Nuclear Infrastructure 
and Education (INIE) Program established in fiscal year 2002. The 
consortia have demonstrated remarkable collaborative efforts and strong 
formation of strategic partnerships between universities, national 
laboratories, and industry. These partnerships have resulted in 
increased use of the university nuclear reactor research and training 
facilities, upgrading of facilities, increased support for students, 
and additional research opportunities for students, faculty and other 
interested researchers. Today, the Department funds six INIE consortia, 
providing support to 32 universities in 23 States across the Nation.
    To complement INIE and the other university assistance programs, 
the University Reactor Infrastructure and Education Assistance program 
provides assistance to universities to improve the operational and 
experimental capabilities of their research reactors and provides for 
the fabrication and shipment of fresh fuel to their research reactors.
    Grants are provided to universities to purchase equipment and 
services necessary to upgrade the reactor facilities, such as reactor 
instrumentation and control equipment, data recording devices, 
radiation, security and air monitoring equipment, and gamma 
spectroscopy hardware and software. Each year, as many as 25 
universities request and receive this assistance. The Reactor Sharing 
program enables universities with reactors to ``share'' access to their 
facilities with students and faculty at their own institutions, with 
universities that lack such a facility, and with visiting students from 
other local institutions including high schools and middle schools. The 
reactors are made available for use in research, experiments, material 
irradiations, neutron activation analysis and training, and for 
facility tours and other educational activities.
    The growth of nuclear energy in the United States is dependent on 
the preservation of the education and training infrastructure at 
universities. The Department has played a substantial role in reversing 
the decline in undergraduate enrollments in this area of study. In 
1998, the United States saw only around 450 students enroll as nuclear 
engineers--down from almost 1,500 in 1992. After several years of 
focused effort, the United States now has nearly 1,600 students 
studying nuclear engineering. That number is set to increase further, 
as strong programs--such as at Purdue and Texas A&M--continue to grow 
and we see new programs start at schools such as South Carolina State 
University, the University of South Carolina, and the University of 
Nevada-Las Vegas. Given the very large number of retirements expected 
in the nuclear field over the next 5 to 10 years, industry, government, 
and academia find that this upswing in student interest comes at a 
critical time.
    The Department provides tuition, stipends, and a practicum to 
outstanding graduate students studying nuclear engineering and health 
physics and scholarships and a practicum to undergraduate students 
pursuing a nuclear engineering course of study. This highly competitive 
program has produced outstanding graduates who have become leaders in 
nuclear research and university education. Also, within the fellowships 
and scholarships program is the University Partnership program, which 
encourages students enrolled at minority-serving institutions to pursue 
a nuclear engineering degree at universities with nuclear engineering 
programs. There are currently six university partnerships consisting of 
13 institutions working cooperatively in this innovative program. South 
Carolina State University (SCSU) and the University of Wisconsin were 
involved in the pilot program and now SCSU administers the program for 
all university partnership members. SCSU has also added two nuclear 
engineering faculty members and has become the only historically black 
college or university in the United States with an accredited nuclear 
engineering program.
    We continue our small but important effort to provide scholarships 
and graduate fellowships to students studying the vital and too-often 
overlooked discipline of health physics. The Department is concerned 
that the Nation may soon not have the trained health physicists who are 
needed to assure the safety of vital nuclear and radiological 
activities. This program will help heighten the visibility of health 
physics as a viable career opportunity and strengthen the health 
physics pipeline to replace retiring professionals.
    The Nuclear Engineering Education Support program prepares students 
for nuclear engineering and science careers and assists universities 
with special needs to improve their educational infrastructure. This 
program is helping to address the knowledge gap of incoming college 
freshmen in the area of nuclear science and engineering. In fiscal year 
2005 a nuclear science and technology education pilot was established 
between the Department and the Pittsburgh Public School System to 
provide advanced placement high school science students an intensive 
educational experience in the field of nuclear science and technology. 
This effort provides course materials, tours to nuclear facilities, and 
lectures from internationally-recognized experts. In fiscal year 2006, 
the program will expand its efforts to enlist local organizations in 
sponsoring the model used in the Pittsburgh pilot program to other 
school systems across the country, thereby strengthening the 
understanding of nuclear science in our public schools.
    The President's Budget supports continuation of the University 
Reactor Infrastructure and Education Assistance Program in fiscal year 
2006 with a request of $24 million (an increase $190,000 compared to 
fiscal year 2005).
                   radiological facilities management
    In addition to nuclear research and development programs, we have 
the responsibility to maintain and enhance the Nation's nuclear science 
and technology infrastructure. This budget request also includes $64.8 
million (a decrease of $3.7 million compared to fiscal year 2005) to 
fund the management of the Department's vital resources and 
capabilities at Oak Ridge National Laboratory, Los Alamos National 
Laboratory, Sandia National Laboratory, and Brookhaven National 
Laboratory in a safe, secure, and cost effective manner to support 
national priorities. The mission of the Radiological Facilities 
Management program is to maintain these critical user facilities in a 
safe, environmentally-compliant and cost-effective manner to support 
national priorities. These funds assure that NE facilities meet 
essential safety and environmental requirements and are maintained at 
user-ready levels. Actual operations, production, research, or other 
additional activities are funded either by other DOE programs, by the 
private sector, or by other Federal agency users.
    The Department is responsible for maintaining the necessary nuclear 
material and infrastructure that is required to deliver plutonium-238 
fueled radioisotope power systems (using plutonium-238) to various 
Federal users. These systems are an irreplaceable enabling technology 
for deep space exploration missions and national security missions. As 
part of the Department's emphasis on consolidating nuclear material, 
increasing nuclear security, reducing nuclear risks, and addressing 
secure transportation issues, we are currently performing an 
environmental review to assess the consolidation of all of our 
plutonium-238 operations. DOE has identified consolidation at the Idaho 
National Laboratory as the preferred alternative for this proposed 
action.
    In addition, the Radiological Facilities Management program assures 
appropriate oversight of the operations and maintenance of the 
Department's Paducah Gaseous Diffusion Plant uranium enrichment 
facilities to assure that USEC Inc. meets its commitments under the 
2002 DOE-USEC Agreement and that the government's rights and options 
are being preserved.
    The fiscal year 2006 $64.8 million budget request includes $18.7 
million to prepare the final design, procure equipment, and begin 
facility modifications for the Uranium-233 Disposition Project at Oak 
Ridge National Laboratory. This project is aimed at stabilizing 
materials left over from the Cold War to address a Defense Nuclear 
Facilities Safety Board recommendation, while extracting isotopes from 
the uranium that are needed for very promising medical research.
 idaho facilities management and idaho sitewide safegurds and security
    The Idaho Facilities Management program maintains the Department's 
facilities at Idaho in a safe, secure and environmentally compliant 
condition for a range of vital Federal missions. The Idaho Site-wide 
Safeguards and Security program supports activities that are required 
to protect the Department's Idaho complex assets from theft, diversion, 
sabotage, espionage, unauthorized access, compromise, and other hostile 
acts which may cause unacceptable adverse impacts on national security, 
program continuity, the health and safety of employees, the public, or 
the environment.
    We have now established the Idaho National Laboratory (INL), which 
combines the resources of the former Idaho National Engineering and 
Environmental Laboratory (INEEL) and the former Argonne National 
Laboratory-West (ANL-W). This new lab began operations on February 1, 
2005, and will lead much of the Department's exploration into advanced 
nuclear reactor and fuel cycle technology. We have set an aggressive 
goal for the new INL to become the world's premier center for nuclear 
energy research and education within a decade.
    Developing a central research laboratory is a major step forward 
for the nuclear energy program. We have now joined the other key energy 
programs at the Department by having a central, dedicated research site 
at which we can centralize our infrastructure investments and build the 
expertise needed to accomplish our program goals. A central lab also 
helps us minimize the shipment of nuclear materials across the country 
and allows us to bring our nuclear materials together in a single, 
secure location. In addition, we expect that our new central, dedicated 
research laboratory will become a major player in the education of the 
next generation of nuclear energy technologists that this Nation will 
need to assure our energy security in the future.
    Our funding request of $80.1 million from Energy Supply and $17.8 
million from Other Defense Activities for the Idaho Facilities 
Management program maintains and operates the Department's facilities 
at Idaho in a safe, reliable, and environmentally compliant condition 
for a range of vital Federal missions. The overall funding for the 
Idaho Facilities Management program decreases from fiscal year 2005 to 
fiscal year 2006 because of a $43.4 million one-time cost associated 
with restructuring the INL complex and supporting site infrastructure 
services. This decrease is offset by an increase of $19.7 million for 
maintenance and recapitalization projects to support the goal of 
achieving and maintaining an expenditure rate of 2 to 4 percent of 
Replacement Plant Value, a level recommended by the National Academy of 
Sciences and incorporated in Departmental guidance, for the facilities 
at INL. One of the essential facilities for ongoing and planned 
national security and energy research programs at the INL is the 
Advanced Test Reactor (ATR). Replacing the ATR with a new test reactor 
with similar capabilities would exceed $2 billion dollars and likely 
take at least 10 years to build. An independent review group of reactor 
experts studied the ATR and provided their perspectives on the life 
extension of the reactor. This review prompted several projects, most 
notably an exhaustive safety basis reconstitution to assure that all 
safety related systems meet modern standards. This project is in 
progress and results to date are favorable.
    The recommendations of this review and other analyses will be 
incorporated into the INL Ten-Year Site Plan (TYSP), which is the 
foundation for INL facilities and infrastructure strategic planning and 
the cornerstone of the Program's initiative to restore the INL and the 
other essential facilities on the site. The TYSP provides 
recommendations for short- and long-term recapitalization of existing 
mission essential facilities and infrastructure. The TYSP identifies 
and prioritizes the project, activities, and mission resource 
requirements for real property assets that cover a 10-year planning 
horizon as well as includes a prioritized list of maintenance, repair, 
and recapitalization projects necessary to correct the maintenance 
backlog.
    Our budget request of $75 million (an increase of $17.3 million 
compared to fiscal year 2005) from the Other Defense Activities 
appropriations account for the Idaho Sitewide Safeguards and Security 
program supports activities that are required to protect the 
Department's Idaho complex assets from theft, diversion, sabotage, 
espionage, unauthorized access, compromise, and other hostile acts 
which may cause unacceptable adverse impacts on national security, 
program continuity, the health and safety of employees, the public, or 
the environment. As a result of merging the former INEEL and ANL-W 
sites into the INL, the two existing safeguards and security programs 
at the Idaho site will be merged into a single program. This 
integration will continue in fiscal year 2005 with additional changes 
anticipated to increase efficiency and contain costs for safeguards and 
security for the site.
    The Department issued a revised Design Basis Threat in October 
2004. These requirements will be implemented using a risk-informed 
approach to physical upgrades and by seeking efficiencies associated 
with combining the two contracts. The Department believes that early 
investment in improved positions for defending forces, more capable 
detection systems, and technological deterrent devices at target 
locations will result in cost avoidance over the lifetime of enduring 
facilities by reducing the number of additional protective force 
members needed to counter the revised threat. The fiscal year 2006 
request reflects increased funding of $17.3 million to permit these 
investments.
                               conclusion
    Our Nation cannot rely on any single energy technology to secure 
its future. A broadly diverse energy supply has served us well in the 
past and must be available for the future. Nuclear energy should be a 
part of that diverse portfolio as look to support our growing economy 
while limiting air emissions and enhancing America's energy 
independence.
    The Department of Energy's goal is to work with the private sector, 
our overseas partners, and other agencies to assure that the benefits 
of nuclear technology continue to increase the security and quality of 
life for Americans--and other citizens of the world--now and into the 
future.
    This concludes my prepared statement. Your leadership and guidance 
has been essential to the progress the program has achieved thus far 
and your support is needed as we engage the tasks ahead.
    I would be pleased to answer any questions you may have.

    Senator Domenici. Thank you. Dr. Orbach, we appreciate 
having you here, and even before you testify, I want to thank 
you and congratulate you on your excellent work on behalf of 
our country.
    Dr. Orbach. Thank you.
    Senator Domenici. Please proceed. You've already, did you 
have anything further to add, Doctor?
    Dr. Orbach. No, thank you.

                       LINEAR NO THRESHOLD MODEL

    Senator Domenici. Well, I wanted to start with you, Doctor, 
and just ask you--or congratulate you--and ask you to comment a 
little bit. As you know, this subcommittee started a research 
program to determine whether the low dose radiation standard 
that we had--which is commonly known as the Linear No Threshold 
model, LNT--whether it was the appropriate model to determine 
risk, and thus to use to set standards for clean up and 
exposure. You're familiar with the research that's been done in 
the Department, and are you the supervisor of that, or what is 
your role?
    Dr. Orbach. Yes, as Director of the Office of Science, I'm 
responsible for that program. It works through our Office of 
Biological and Environmental Research directed by Dr. Ari 
Patrinos. They have made major strides in that area, thanks to 
your support. They have now, I think, more or less laid to rest 
the LNT model. It is not an adequate method of determination of 
low dose effects, it works entirely on isolated cells--which we 
know not to be typical of tissue. We believe that the results 
of our own research that you have helped initiate and support, 
point to collective interactions in tissue, and as Dr. Patrinos 
informed you last week, we believe that within 5 years, we can 
determine the genetic susceptibility and also the difference of 
response between isolated cells and tissues, leading to--what 
we believe would be--robust models which could serve as 
vehicles for a credible prevention of radiation injury standard 
for this country.
    Senator Domenici. Now, all of this, from somebody who has 
been really looking at it, thinking about it, sounds like it's 
really something significant. In terms of what's going on in 
the country, what might it mean if there is a new standard? 
Take some things happening in the country that we might be 
overdoing, or that we might be doing that we don't need to do, 
and could you give us some examples?
    Dr. Orbach. I can think of two immediate examples, first of 
all, nuclear energy, where the low dose radiation is simply 
estimated incorrectly by the LNT model. Others would be in 
clean up areas----
    Senator Domenici. Let's just stop at the first one.
    Dr. Orbach. Yes.
    Senator Domenici. So, it's currently incorrect, which means 
that we are setting standards which are not necessary in terms 
of protecting public health from the low dose?
    Dr. Orbach. Yes, Senator.
    Senator Domenici. So, from a practical standpoint, what 
does that mean with reference to nuclear power, or nuclear 
activities?
    Dr. Orbach. It means that we could be spending a great deal 
more money than is necessary to protect human health. We still 
have to determine the effects of low dose, but we believe that 
there are differences between individuals, and that remarkably, 
tissues seem to be able to repair themselves by cell death when 
a cell does suffer radiation, something which is actually a 
measure of protection, built into the way tissues behave. But 
the consequence of that is that we do not have the appropriate 
standards, and we may be spending billions that we don't need 
to, to protect human health.
    Senator Domenici. You had a second one.
    Dr. Orbach. The second one is involved in clean up, where 
we have background radiation, and also radiation from the sites 
themselves. The same situation applies, we need to understand 
the real effects of low dose--this is low dose radiation--it is 
simply incorrect to use this isolated cell results to set that.
    I should say, with regard to the latter, again with your 
encouragement and support, we are developing microbes which can 
be very effective in terms of clean up, so we have a microbe 
called geobactor, which can change uranium from soluble to 
insoluble, so as to remove the problem of contamination in the 
soil over large distances. We believe through our Genomes to 
Life program, we can be very effective in both of these 
efforts.
    Senator Domenici. So, about 8 years ago, the Department of 
Energy brought us a flow sheet as to what it might cost to 
clean up Hanford, the great leftovers in the Savannah River, 
Rocky Flats, and the predictions were maybe over 20 years, $180 
billion--I'm just guessing--but huge. Now what we're talking 
about--maybe, most probably--those estimates, if they were 
using the Linear No Threshold dosage as the guide against which 
you would measure the cleanup, that may be a very inaccurate 
number in terms of cost. Is that, in a sense, what we're 
saying?
    Dr. Orbach. Yes, yes, Mr. Chairman, that is exactly what 
I'm saying.
    Senator Domenici. So that means without harming the public, 
we could do things completely different, or somewhat different, 
and it would cost a lot less money?
    Dr. Orbach. Yes.
    Senator Domenici. Well, I know this is kind of a threshold 
issue for a lot of people, especially those who are frightened 
to death of radiation, period, and thus oppose nuclear power, 
oppose anything like that. This is going to have to be 
scientifically sound, or it will be a useless endeavor. Are you 
taking care that this program is being properly peer reviewed, 
and only the best of scientists, and they are not--in any way--
prejudiced toward nuclear--or any other source--of radiation?
    Dr. Orbach. Mr. Chairman, all of the research that's done 
in this area is peer reviewed by the community, and only the 
highest ratings are funded. My statements on the failure of the 
LNT is a strong statement, but it is backed by the best 
research in science, and I will stand behind that research as 
fully supportive of scientific rigor.
    Senator Domenici. Your strong statement can be summarized 
one more time, with reference to the Linear No Threshold is 
what?
    Dr. Orbach. The results of our research, which show the 
Linear No Threshold radiation limits, or radiation dosage, and 
effect, are incorrect for low dose radiation, and--though 
supported by isolated cells--do not, in fact, describe what 
happens in tissue, or in groups of cells.
    Senator Domenici. Now, why do you need 5 more years?
    Dr. Orbach. Because of that very rigor which I mentioned to 
you. We need to establish models which will be based on the 
scientific results. I'm hopeful it could be more rapid, but I'm 
trying to be as careful as I can. These models, then, would be 
used to assess radiation levels which will protect human 
health.
    Senator Domenici. We have some other detailed questions; 
we'll submit them to you, Doctor.
    Mr. Magwood, let me ask you, I've been saying--not here for 
the first time--but, I've been saying that within 5 years, we 
should have a license application for a nuclear power plant in 
the United States, we should have one of those completed, and 
the site location plan improved and completed in 5 years. Is 
that a--in your opinion, as one who is working in that area--if 
that's not a correct statement, would you tell us what you 
think?
    Mr. Magwood. I think it's a very correct statement, I think 
it's entirely possible that we could see that happen before 5 
years. The utilities we're working with through the Nuclear 
Power 2010 program have established plans, that if they are 
brought to fruition, would see the one-step licenses for new 
nuclear power plants completed, around 2008, 2009, certainly 
within the 5 years you mentioned.
    Senator Domenici. Now, I guess there's always a risk when--
you're ready to move from a stalemated application of 
technology, which is where we've been, and you want to start up 
again--there's always a risk that in the meantime, you're 
trying to do something so new, and so different, that instead 
of expediting, you waste time, because you're trying to get the 
next, and then the next, and you don't decide on what you're 
going to use. I read a little bit that there might be a risk of 
us trying to prove up too much in terms of a new reactor, 
instead of being ready with something in this 
2-, 3-, 4-, 5-year range. What about that?
    Mr. Magwood. I don't think that's a danger, Mr. Chairman. 
The utilities, as a group have--in this country--concluded that 
they will build, most likely, one of three designs, and the 
very high probability of one of two designs, or maybe two of 
those designs, and I think that the field has narrowed 
considerably. There's always going to be discussion on other 
possible technologies, but the serious utilities are focused on 
a very, very small number of technologies that are out that are 
very much available to the market today.
    Senator Domenici. Mr. Garman, with reference to hydrogen 
and transportation, I notice you've told us how much the budget 
is, and it's a pretty robust program, at least it sounds like 
it. I would assume in terms of dollars the automobile 
manufacturers are spending in this area, there's a lot more 
money being spent than just our money.
    Mr. Garman. That's correct.
    Senator Domenici. Do you have any way of describing for us, 
for the record, what's going on overall?
    Mr. Garman. It's very difficult--with any precision -- to 
estimate what the private sector is spending, because it's 
proprietary, and a lot of automobile companies don't really 
want others, or their competitors to know, with precision, but 
I believe General Motors has made the public statement, for 
example, that they have committed over a half a billion dollars 
to fuel cell technology in vehicles. I have been to Japan, I 
have seen what Toyota, Nissan and other Japanese companies are 
doing; I've been to Europe and have seen what those companies 
are doing. I think it's fair to say that billions and billions 
of dollars have been committed for this effort.
    Senator Domenici. Okay, with all that going on, so that we 
have some idea what is probable, and what isn't, what do you 
think we're looking at in terms of the timeframe when we might 
have a variety, something to choose from, or the public might 
be involved in using?
    Mr. Garman. I think the original 2020 timeframe that we've 
expressed continues to hold true today. Some auto makers have 
said they might, General Motors in particular, maybe they can 
go a little quicker than that, but I still see substantial 
technical obstacles. We have some technical challenges, which 
include things such as storage on board the vehicles that have 
to be overcome. I think the 2020 estimate is a good one; I 
don't think auto makers will be in a position before 2015 to 
really be able to make a business case decision on whether or 
not to proceed with the investment that will be needed in both 
the infrastructure and the vehicles, so 2020 is still what 
we're looking at.
    Senator Domenici. We have CAFE standards which apply to 
fleets, but what's happening aside from that in terms of 
automobiles being produced that are either hybrids or get 
better mileage performance? Is there some headway being made by 
either American manufacturers, or by those who sell cars in 
America?
    Mr. Garman. There's a great deal of headway, it's just that 
the efficiency improvements have generally been turned into 
performance. The four cylinder vehicle that you buy today has 
the performance of the eight cylinder vehicle that I bought 
when I was a teenager. And there are a number of different 
technologies that are available, and in use today, such as 
hybridization, continuously variable transmission, variable 
valve timing, even people are beginning to think about camless 
engines, and a new trend on the horizon is what I call the 
``dieselization'' of the gasoline engine--a compression 
ignition engine. There are still a lot of efficiency 
improvements that can be made to internal combustion engines, 
and those types of technologies are--let me put it this way--
I've driven some things on automotive proving grounds that I 
can't talk about, because I signed a non-disclosure agreement, 
but technologies are being developed, they are available, and 
they can be geared toward greater efficiency, or greater 
performance, or both.
    Senator Domenici. We're going to have five stacked votes, 
so if we were to leave you here waiting, you'd be stacked here 
all afternoon, so I'm just going to ask Dr. Orbach a question.
    In your capacity as the head of the Office of Science, are 
you--in any way--charged with looking at what the state of 
dependence on crude oil by America, in terms of the future, 
might be? Or do you not involve yourself in that?
    Dr. Orbach. We are committed to support the Department of 
Energy's energy security responsibility. Two years ago we held 
a major conference on energy security, and basic research needs 
of this country in order to approach energy security. Last year 
we had a major conference on hydrogen. Mr. Garman has talked 
about the hydrogen initiative; we are working together with 
EERE on the issue of hydrogen generation, storage, and fuel 
cells, from a basic research perspective, and this spring we 
are having a solar energy conference to look at alternate ways, 
improved ways of taking solar energy and producing electricity, 
or hydrogen.
    We are attempting to support the full panoply of 
Departmental responsibilities through basic research, and 
through opportunities. In that sense, we are providing our own 
contribution to energy security for this country.
    Senator Domenici. Well, I would just like to share with 
you, and then we'll close the meeting down with some questions 
to all of you, and you can turn them in within a week, 10 days, 
something like that. In preparing for this ANWAR debate, I have 
had to gather up as much information as I can with reference to 
the United States--how much we use, how much we're projected to 
use by way of petroleum products, products from crude oil, and 
natural gas--and I've come to the conclusion that we are a 
country at great risk, right now. People don't have to--we 
don't have to ask you to tell us when--it's already here. Our 
production is going to go no where but down as a Nation, unless 
something dramatic happens in Alaska, and that's--every time 
you turn around, that's terribly difficult. We are the 12th 
largest, we have the 12th largest reserves of all the 
countries, in America, and our reserves are--from what we 
know--they're not going anywhere but down, because we've done 
everything we can, and the prices are about as high as they can 
be, and that's all we've got. It looks like we don't know how 
to cut down on the use very much. You can say conserve, 
therefore you won't need ANWAR, but seems to me you need both--
things are in such horrendous shape. I would think somebody has 
to be looking at, just in basic security, from a basic security 
standpoint, what should we do to produce some kind of oil from 
some source that we don't know get it, whether it be tar sands, 
or oil shale, something. Because we could be in a terribly 
dangerous condition if the supply of oil curtailed--worldwide, 
if it were curtailed just a few million barrels a day--the 
United States would be in terrible shape--and our balance of 
trade is just getting slaughtered by us having to buy oil--
nobody knows that--but soon we'll have 30 percent of our 
balance of trade will be, we keep worrying about, I think it's 
Chinese sales--it's crude oil as much as Chinese sales, it's 
almost 30 percent of the balance of trade is oil, and look at 
what's happening with the price.

                     ADDITIONAL COMMITTEE QUESTIONS

    So, I think that more than one person has to be concerned 
in the government, and you had the wherewithal to at least look 
at the numbers and do the science, because it is a very serious 
problem. I know of your great capacity to be far sighted, and 
yet be practical and that's why we've laid this one before you. 
The work you've done on the Linear No Threshold is dramatic, 
and we thank you for it, we think it will change a lot of 
things in the country, including spending a lot less money, but 
it also will get rid of some fears--I would think--once doctors 
and others begin to accept it.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to the Department of Energy
            Questions Submitted by Senator Pete V. Domenici
                        nuclear energy programs
                      nuclear power 2010 (np 2010)
    Question. Mr. Magwood, as I noted in my statement, I am 
disappointed in the delays in executing the NP 2010 program. It has 
been 4 months since the budget was passed, providing $50 million to 
execute the agreements. Two weeks ago in the Energy Committee, I asked 
Secretary Bodman to look into the delays in finalizing the agreements 
between your office and the two utility consortia. When will your 
office execute the agreements and begin funding the cooperative these 
agreements? What are the terms of the agreements?
    Answer. The Department has moved with diligence to issue the 
Nuclear Power 2010 cooperative agreements and associated fiscal year 
2005 funding to the industry. The cooperative agreement with Dominion 
Energy was issued on March 31, 2005, and a project kickoff meeting was 
held with Dominion Energy and their partners General Electric and 
Bechtel with Department staff on April 26, 2005. The cooperative 
agreement with NuStart was issued on April 26, 2005, and a project 
kickoff meeting is scheduled for May 3, 2005.
    The Dominion Energy decision to change its selected reactor 
technology to the General Electric Economic Simplified Boiling Water 
Reactor (ESBWR) design caused the Department and industry to re-
evaluate project cost, cost share, and annual funding for both the 
Dominion Energy and NuStart projects. This is due in part to the fact 
that the GE ESBWR reactor design is part of both projects. In addition, 
NuStart has increased their request for fiscal year 2005 funds to 
accelerate the Westinghouse AP-1000 work scope. Both of these 
conditions required re-submittal of detailed vendor and subcontractor 
cost information by both reactor vendors to the Department. In 
addition, intellectual property rights and royalty terms and conditions 
required complex and lengthy negotiation with the reactor vendors.
    The terms of the Dominion and NuStart agreements include a project 
period that begins in fiscal year 2005 and continues through December 
2011, with each project requiring a 50 percent industry cost-share. The 
current total estimated costs for the Dominion project is $426 million, 
and $519.8 million for the NuStart project. In light of the changes to 
the program over the past several months, as noted earlier, these 
figures may change. Detailed baseline project budgets and schedules 
will be developed to determine funding requirements for each project. 
As part of each agreement, a DOE interface and project oversight 
procedure will be established in fiscal year 2005 to implement an 
agreed upon and prudent project management control mechanism.
                     next generation nuclear plant
    Question. Mr. Magwood, last year the Energy and Water bill 
contained a provision providing $25 million for the Next Generation 
Nuclear Plant to be located at Idaho National Lab. The language also 
required that the administration provide a plan as to how DOE will 
implement the NGNP strategy consistent with the President's hydrogen 
initiative. In reviewing the budget for fiscal year 2006, I find no 
mention of either the $25 million or the implementation plan. Is this 
administration committed to building a Next Generation Nuclear Plant at 
Idaho National Lab?
    Answer. The Department's fiscal year 2006 budget request provides 
$45 million for the Generation IV Nuclear Energy Systems Initiative. 
This represents a $5 million increase over the 2005 enacted level of 
funding and allows the Gen IV program to continue long-term, high 
reward research and development. This research and development work 
will investigate technical and economic challenges and risks and will 
help inform a decision on whether to proceed with a demonstration.
    Question. What has the administration done with the $25 million 
provided for the NGNP project? Does the administration intend to send 
up the required report?
    Answer. Our primary focus at this time is to assure that the 
Generation IV research program is able to answer the basic viability 
questions regarding this advanced technology. We will continue research 
and development on various Generation IV reactor designs to determine 
their compatibility with the desired goals of sustainability, 
economics, and proliferation resistance. This includes work on 
materials performance as well as evaluating the waste products 
associated with various reactor designs. As these questions are 
answered, we can consider additional steps in the future. The 
Department has provided the report titled ``U.S. Generation IV 
Implementation Strategy'', in response to Congressional direction 
contained in Senate Report 107-220.
                          advanced fuel cycle
    Question. Mr. Magwood, the Advanced Fuel Cycle Initiative coupled 
to fast reactors is needed to support a long-term diversified and 
sustainable energy policy. What is the Department's plan for the 
development of advanced fast spectrum systems, and will the Los Alamos 
National Lab's Material Test Station be an integral part of that 
program?
    Answer. The Department is investigating, through its Generation IV 
Initiative, the development of advanced fast-neutron spectrum reactors. 
We currently have an active R&D program for the development of a gas-
cooled fast reactor concept and a lead/lead alloy-cooled fast reactor 
concept. A third fast reactor concept under evaluation by the 
Department in consultation with the Generation IV International Forum 
is a sodium-cooled fast reactor concept. The U.S. interest in this 
concept is limited to the development of transmutation fuels--a mission 
of the Advanced Fuel Cycle Initiative (AFCI) program.
    The Material Test Station (MTS) has the potential to be an integral 
part of the Generation IV and AFCI programs due to its capability to 
provide fast reactor type irradiation conditions needed for advanced 
fuels and materials development. We have requested that Los Alamos 
National Laboratory and Idaho National Laboratory coordinate to develop 
analysis and plans that will inform the Department's future decisions 
regarding fast-neutron irradiating capabilities.
              advanced fuel cycle--ebr-ii fuel/em cleanup
    Question. Mr. Magwood, I understand that your office is responsible 
for managing the EBR-II spent fuel treatment activities under the 
Advanced Fuel Cycle initiative. Does this fuel contribute to the 
underlying research program, or is this a way for the Office of 
Environmental Management to keep yet another waste stream out of their 
portfolio and off their books?
    Answer. Experience gained in processing spent metallic fuel from 
the EBR-II sodium-cooled fast reactor has contributed to the 
development of pyrochemical processing technology. We are working with 
Idaho National Laboratory to establish the most efficient approach to 
meeting our R&D goals while adhering to all the Department's 
commitments to the State of Idaho.
    Question. How much did the Office of Nuclear Energy pay to safely 
store this material last year? How could this funding could be better 
applied if it were not obligated to maintaining this cleanup 
responsibility?
    Answer. Twenty-five metric tons of EBR-II spent fuel are stored at 
the Idaho National Laboratory (INL). Two of these tons are located at 
the Idaho Nuclear Technology and Engineering Center (INTEC), which is 
the responsibility of the Office of Environmental Management; the 
Office of Nuclear Energy, Science and Technology (NE) does not fund the 
storage of that material. An additional 23 metric tons of EBR-II spent 
fuel is stored at the INL Materials and Fuels Complex and is the 
responsibility of NE. The annual storage cost to the Office of Nuclear 
Energy is $40,000. The charge is part of NE's general infrastructure 
maintenance function and is not the responsibility of its research 
programs.
    Question. Mr. Magwood, the Nuclear Energy Engineering Research 
(NEER) Program restarted in fiscal year 1998 has the goal of 
strengthening the academic community's nuclear engineering 
infrastructure. The mechanism for doing this is by funding research at 
U.S. universities and colleges with nuclear engineering degree 
programs. The Department announced in March 2004 that it was awarding 
$3.6 million from fiscal year 2004 funding to universities through the 
NEER. I have been told that the Department has still not released this 
$3.6 million--from fiscal year 2004. Have you disbursed funding fiscal 
year 2004?
    Answer. I believe your question relates to our Nuclear Energy 
Research Initiative (NERI). In fiscal year 2004, the Department issued 
a NERI solicitation and 160 proposals were received from U.S. 
universities. In December 2004, 35 projects were selected from the 160 
proposals after a rigorous peer review. The selected projects will be 
conducted at 25 U.S. universities in 22 different States and many of 
the participants represent institutions that have not participated in 
DOE nuclear technology programs in recent years. Funding for the 35 
projects included $3.6 million from fiscal year 2004 and $3.3 million 
from fiscal year 2005. As of April 15, 2005, all fiscal year 2004 funds 
have been disbursed, and all projects funded with fiscal year 2005 
appropriations, except one, have been awarded and appropriate funds 
disbursed.
    Question. What is the status of the fiscal year 2005 award process 
for this program?
    Answer. All projects funded with fiscal year 2005 appropriations, 
except one, have been awarded and the funds have been distributed. The 
Department plans to conduct a workshop in June 2005 to inform 
universities of our future research plans. A new solicitation will be 
issued in the summer of 2005 for awards scheduled for issuance in 
fiscal year 2006 with fiscal year 2006 appropriated funds.
    Question. Can you provide this subcommittee with a listing of which 
universities received an award and the status of those funds being 
disbursed?
    Answer. Yes, the list of universities that received Nuclear Energy 
Research Initiative awards is attached. All projects funded with fiscal 
year 2004 appropriations have been awarded. As of April 15, 2005, all 
fiscal year 2004 funds have been disbursed, and all projects funded 
with fiscal year 2005 appropriations, except one, have been awarded and 
appropriate funds disbursed.

    NUCLEAR ENERGY RESEARCH INITIATIVE--FISCAL YEAR 2005 APPLICATIONS
                     SELECTED FOR AWARD NEGOTIATIONS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                      Fiscal
           University                  Title        Year 2005    Total
                                                      Award
------------------------------------------------------------------------
University of California--       Development of a         148        457
 Berkeley.                        Risk-Based and
                                  Technology-
                                  Independent
                                  Safety Criteria
                                  for Generation
                                  IV Systems.
University of California--       Development and          191        576
 Berkeley.                        Analysis of
                                  Advanced High-
                                  Temperature
                                  Technology for
                                  Nuclear Heat
                                  Transport and
                                  Power Conversion.
Washington State University....  Selective                281        859
                                  Separation of
                                  Trivalent
                                  Actinides from
                                  Lanthanides by
                                  Aqueous
                                  Processing with
                                  Introduction of
                                  Soft Donor Atoms.
Washington State University....  Selective                245        847
                                  Separation of
                                  Americium from
                                  Lanthanides and
                                  curium By
                                  Aqueous
                                  Processing with
                                  Redox Adjustment.
Oregon State University........  Plutonium                272        764
                                  Chemistry in the
                                  UREX+ Separation
                                  Processes.
Rensselaer Polytechnic           Development of           119        374
 Institute.                       Modeling
                                  Capabilities for
                                  the Analysis of
                                  Supercritical
                                  Water-Cooled
                                  Reactor Thermal-
                                  Hydraulics and
                                  Dynamics.
State University of New York--   Novel Processing         272        817
 Stonybrooke.                     of Unique
                                  Ceramic-Based
                                  Nuclear
                                  Materials and
                                  Fuels.
University of California--Santa  Development of           180        549
 Barbara.                         High Temperature
                                  Ferritic Alloys
                                  and Performance
                                  Prediction
                                  Methods for
                                  Advanced Fission
                                  Energy Systems.
University of Cincinnati.......  BWR Assembly             129        400
                                  Optimization for
                                  Minor Actinide
                                  Recycling.
Utah State University..........  Validation and           217        600
                                  Enhancement of
                                  Computational
                                  Fluid Dynamics
                                  and Heat
                                  Transfer
                                  Predictive
                                  Capabilities for
                                  Generation IV
                                  Reactors Systems.
Arizona State University.......  Determination of         150        451
                                  Basic Structure-
                                  Property
                                  Relations for
                                  Processing and
                                  Modeling in
                                  Advanced Nuclear
                                  Fuels:
                                  Microstructure
                                  Evolution and
                                  Mechanical
                                  Properties.
Clemson University.............  The Sulfur-Iodine        289        856
                                  Cycle: Process
                                  Analysis and
                                  Design Using
                                  Comprehensive
                                  Phase
                                  Equilibrium
                                  Measurements and
                                  Modeling.
Colorado School of Mines.......  The Application          150        462
                                  of Self-
                                  Propagating-High-
                                  Temperature
                                  Synthesis (SHS)
                                  to the
                                  Fabrication of
                                  Actinide Bearing
                                  Nitride and
                                  Other Ceramic
                                  Nuclear Fuels.
Illinois Institute of            In-Situ X-ray            250        914
 Technology.                      Spectroscopic
                                  Studies of the
                                  Fundamental
                                  Chemistry of Pb
                                  and Pb-Bi
                                  Corrosion
                                  Processes at
                                  High
                                  Temperatures:
                                  Development and
                                  Assessment of
                                  Composite
                                  Corrosion
                                  Resistant
                                  Materials.
Iowa State University..........  Detailed Reactor         182        449
                                  Kinetics for CFD
                                  Modeling of
                                  Nuclear Fuel
                                  Pellet Coating
                                  for High-
                                  Temperature Gas-
                                  Cooled Reactors.
Johns Hopkins University.......  Silicon Carbide          300        902
                                  Ceramics for
                                  Compact Heat
                                  Exchangers.
                                                   ---------------------
      Total, Awards............  .................      6,870     21,077
------------------------------------------------------------------------

                      national academy of sciences
    Question. Mr. Magwood, in the President's Budget Request, there is 
$1 million for the National Academy of Sciences to undertake an 
evaluation of the Office of Nuclear Energy's research programs. I asked 
Secretary Bodman 2 weeks ago about this request on the President's 
budget, and he didn't know. Do you know today why this request was 
made?
    Answer. The fiscal year 2006 Budget requests funding for the 
National Academy of Sciences, to undertake a comprehensive, independent 
evaluation of the nuclear energy program's goals and plans, and to 
validate the process for establishing program priorities and oversight 
(including the method for determining the relative distribution of 
budgetary resources). The evaluation will result in a comprehensive and 
detailed set of policy and research recommendations and associated 
priorities (including performance targets and metrics) for an 
integrated agenda of research activities that can best advance NE's 
fundamental mission of securing nuclear energy as a viable, long-term 
commercial energy option to provide diversity in energy supply. An 
interim evaluation will be completed in time to inform NE's 2008 budget 
planning, with a final report completed before May 2006.
                              uranium fuel
    Question. Mr. Magwood, what are the Office of Nuclear Energy plans 
for ensuring that sufficient uranium supplies are available to power 
the future commercial nuclear facilities?
    Answer. The Department continually monitors the domestic and global 
nuclear fuel markets to ensure that U.S. utilities can obtain available 
supplies of uranium, conversion and enrichment to meet their needs now 
and in the future.
    Question. Has DoE looked at using blended-down material from 
nuclear weapons' program in a timeframe that would be of benefit to: 
new plants, non-proliferation and global nuclear security?
    Answer. The Department of Energy continues to review the 
disposition of its surplus highly enriched uranium in a manner that 
maximizes the return on the Government's uranium assets and contributes 
to the Department's mission of eliminating the proliferation threat 
from stockpiles of surplus fissionable materials. The National Nuclear 
Security Administration and the Office of Nuclear Energy, Science and 
Technology are beginning to explore whether a majority of the low-
enriched uranium derived from 17 metric tons of surplus highly enriched 
uranium planned to be down blended during 2006-2008 could be used in 
support of the Nuclear Power 2010 program. Legislation may be required 
to authorize the use of the material.
    Question. What issues are associated with such an idea? Does the 
DoE 2006 budget include proposals that would safely implement such a 
program while ensuring that current market is protected during such 
activities?
    Answer. The Department recognizes that the blending down of surplus 
highly enriched uranium to low-enriched uranium must be done in a 
manner that does not adversely impact the domestic uranium, conversion 
and enrichment industries. The Department's fiscal year 2006 budget 
does currently contain funding for down blending of surplus highly 
enriched uranium within the initially declared 174 metric tons. 
Specifically, the National Nuclear Security Administration has 
requested $103 million under the U.S. Uranium Disposition program for 
the down blending of highly enriched uranium to low-enriched uranium. 
This program already manages the amount of low-enriched uranium down 
blended in a safe manner that does not adversely impact the domestic 
uranium, conversion and enrichment industries. Any future efforts to 
down blend additional highly enriched uranium will take into 
consideration the same industries.
                       nuclear pebble bed reactor
    Question. Have you considered developing a high temperature gas 
cooled nuclear pebble bed reactor in the 5 to 50 MW range to power 
ships and ocean going tugs or as a portable generator in the field?
    Answer. The Office of Nuclear Energy has not investigated a high 
temperature gas-cooled reactor in the 5 to 50 Megawatt power range for 
portable land or sea application.
             energy efficiency and renewal energy programs
                    eliminating redundancy among doe
    Question. Mr. Garman, now that we have consolidated the 
jurisdiction for the Department of Energy within the Energy and Water 
subcommittee, we can work to eliminate redundancy and improve 
communication among program managers that may exist as a result of 
diving the jurisdiction between two subcommittees. Since you have 
managed the Energy Efficiency program for the past several years, and 
you have also served as the Under Secretary, you have a unique 
perspective on the management and scientific research ongoing among the 
offices of Science, Energy Efficiency, Fossil Energy, Energy 
Conservation and Electric Transmission. What offices or activities 
would you recommend the subcommittee focus on consolidating in order to 
reduce unnecessary overhead and focus additional resources on 
scientific research?
    Answer. The consolidation of the Office of Electric Transmission 
and Distribution and the Office of Energy Assurance, undertaken at the 
request of the Appropriations Committees, is a good example of an 
office consolidation that should reduce duplication and enhance 
coordination. I am not yet convinced that there are additional examples 
where complete office consolidations/eliminations will yield similar 
benefits, but I hope to explore the possibilities with you.
    We have also worked to reduce redundancies in our research 
activities. For instance, prior to EERE's reorganization, Biomass R&D 
activities were undertaken in each of the old offices of Power 
Technologies, Industrial Technologies, and Vehicle Technologies. While 
the program funding for biomass R&D had been artificially split between 
two appropriations accounts until last year, we have been managing it 
as a consolidated program since the reorganization. Similarly, we have 
been managing hydrogen R&D as an integrated activity among Energy 
Efficiency and Renewable Energy, the Office of Science, the Office of 
Nuclear Energy, and the Office of Fossil Energy.
    Should I be confirmed as Under Secretary, I expect to create an 
overarching Energy, Science and Environment (ESE) management and field 
management apparatus to meld these different organizations into a more 
coordinated ESE entity, with a goal to undertake better planning, 
budgeting and coordination. For example, all of the ESE offices engage 
in materials research of one kind or another that are probably not as 
coordinated and synergistic as they should be. By engaging in better 
portfolio management across the ESE office boundaries, we should be 
able to address duplication and unnecessary overhead.
                        hydrogen fuel initiative
    Question. Mr. Garman, the President's budget makes the Hydrogen 
Fuel Initiative a top priority. The budget request provides $259 
million, up $33 million from fiscal year 2005 levels and up $104 
million from fiscal year 2004. Since DOE has failed to adopt a 5-year 
budget outlook as the NNSA has, it is unclear how much funding is 
necessary to develop hydrogen fuel as a competitive domestic energy 
resource in the future. What can you tell me about the budget for the 
Hydrogen Fuel Initiatives over the next 5 years?
    Answer. The President announced the Hydrogen Fuel Initiative (HFI) 
with a budget of $1.2 billion over the 5-year period from fiscal year 
2004 through fiscal year 2008. The Office of Management and Budget 
maintains a funding profile for the HFI through fiscal year 2008 that 
meets this commitment. To date, $381 million has been appropriated by 
Congress for fiscal year 2004 ($156 million) and fiscal year 2005 ($225 
million). The fiscal year 2006 budget request is $260 million, and 
similar increases are planned for fiscal year 2007 and 2008 budgets. 
Funding beyond fiscal year 2008 will be required to meet the HFI goal 
of developing the technologies to enable an industry commercialization 
decision by 2015.
                           hydrogen research
    Question. Mr. Garman, the budget supports funding for Hydrogen 
research from renewable resources, nuclear energy and fossil energy. 
Which fuel do you believe shows the most promise in producing hydrogen 
in a cost-effective fashion?
    Answer. Currently, the most cost-effective and mature technology 
for producing hydrogen is the reforming of natural gas. Distributed 
production of hydrogen from natural gas will likely be the predominant 
approach during the initial transition to a hydrogen infrastructure. 
Research is underway to make other promising approaches cost-effective 
to ensure that the large quantities of hydrogen needed in the longer 
term are produced from diverse, domestic resources with near-zero 
greenhouse gas emissions. These approaches include the use of coal with 
carbon sequestration; renewables such as biomass, wind, and solar; and 
nuclear. The ultimate mix of resources and technologies that will be 
utilized for hydrogen production will depend on the degree of technical 
advancements and relative costs of the various options over the next 
decade.
                          hydrogen production
    Question. Mr. Garman, what other factors other than economics 
should be considered in producing hydrogen?
    Answer. The key drivers for the President's Hydrogen Fuel 
Initiative are energy security and environmental quality. It is 
important to ensure that when large quantities of hydrogen are 
produced, it is produced from domestic resources with technologies that 
result in near-zero net greenhouse gas emissions. ``Well-to-wheels'' 
energy efficiency, the measure of the energy efficiency of the complete 
energy chain from the production of hydrogen from basic feedstocks to 
its consumption in the vehicle, is also a consideration.
                    hydrogen technology development
    Question. Mr. Garman, which technologies show the most promise, and 
which office within DOE will be responsible for supporting hydrogen 
technology development?
    Answer. Currently, the lowest cost option for hydrogen production 
is natural gas reformation. Using ``well-to-wheels'' analysis, this 
option results in a 60 percent reduction in greenhouse gas emissions 
when utilized in a fuel cell vehicle compared with a conventional 
gasoline internal combustion engine vehicle.
    Promising approaches for the production of the large quantities of 
hydrogen needed to power a hydrogen economy with near-zero greenhouse 
gas emissions include coal-based production with carbon sequestration, 
supported by the Office of Fossil Energy (FE); nuclear-based 
production, supported by the Office of Nuclear Energy, Science and 
Technology (NE); and renewable-based production such as biomass, wind, 
and solar, supported by the Office of Energy Efficiency and Renewable 
Energy (EERE). In addition, the Office of Science (SC) supports basic 
research addressing the more long-term methods of photoelectrochemical 
and biological hydrogen production. All of these approaches show at 
least some promise. It's too early to tell which is the ``most 
promising.'' Indeed, depending on R&D advances and region-specific 
economics, more than one approach may ultimately be used for 
commercial-scale hydrogen production.
    The DOE Hydrogen Program Manager, located in EERE, is responsible 
for coordinating all the Department's hydrogen activities, including 
the FE, NE, and SC work.
                          solid state lighting
    Question. Mr. Garman, it is my understanding that you have an 
active technology program for solid state lighting with the Energy 
Conservation, building technologies account. Can you please explain why 
this program is important for the U.S. lighting industry and what 
impact this may have on our Nation's energy security?
    Answer. The Department emphasizes the importance of efficiency, 
cost and lifetime of solid state lighting (SSL) technologies in its 
work, enhancing the value to consumers and the lighting industry. SSL 
sources have already replaced conventional technologies in niche 
applications such as traffic lights, exit signs, and airplane taxiway 
edge-lights. Further technology advances will drive the development of 
``white-light'' sources that could ultimately replace incandescent and 
fluorescent lamps used for general illumination. Cost-effective 
``white-light'' has the potential to significantly affect the baseload 
requirement for electricity generation. SSL technology can improve the 
Nation's energy security by reducing demand for natural gas, imports of 
which the Energy Information Administration (EIA) projects will 
increase over time.
                        industrial technologies
    Question. The President's funding request for Industrial 
Technologies is $56.5 million, a reduction of $18.3 million from fiscal 
year 2005. The Industrial Technologies Program seeks to reduce the 
energy intensity of the U.S. industrial sector through research, 
development, validation, and deployment of energy efficient 
technologies and operating practices. The current budget proposes to 
focus less on specific energy intensive industries--such as forest and 
paper products, metals, glass, and chemicals--than it has in recent 
years. Why does the Department propose to decrease energy efficiency 
efforts in specific, key industries that provide basic materials?
    Answer. Industries, particularly our core domestic energy-intensive 
industries, are succeeding in their attempts to be more energy 
efficient, in part because of the past successes of the Industrial 
Technologies Program and because of the obvious economic incentives 
they face to cut energy costs. Continuing activities in the Industries 
of the Future (Specific) program that you reference will focus on 
bringing existing projects to successful commercialization and 
evaluating opportunities for greater performance in fiscal year 2006.
                          conservation efforts
    Question. Aren't these the industries that should be emphasized in 
energy conservation efforts, to maximize the return on our Federal 
investment?
    Answer. Because industry is less likely to invest in R&D toward 
long-term energy-savings technologies, our Industrial Technologies 
Program is focusing on a fewer number of higher-risk, higher-reward 
technologies, and our budget reflects that. Fortunately, the industrial 
sector of the economy is already quite energy efficient, since it has 
an economic incentive and the financial means to reduce energy use as a 
component of its overall cost of production.
                         freedomcar initiative
    Question. Mr. Garman, it is my understanding that vehicles account 
for 54 percent of total oil usage. The FreedomCAR initiative and the 
Vehicle Technologies accounts support R&D efforts to improve gas 
mileage, create cleaner burning fuels, and improve materials to safety 
without impacting mileage. The budget provides $166 million to support 
research and development to improve engine technology, increase 
efficiency and lower emissions. Can you please update the subcommittee 
on the FreedomCAR initiative and the results your office achieved to 
increase efficiency and reduce our dependence on foreign oil?
    Answer. The Department's FreedomCAR activities, representing 61 
percent of the Vehicle Technologies Program budget, are on track to 
meet their 2010 and 2015 technology goals. The goals of FreedomCAR are 
to develop the component and infrastructure technologies necessary to 
enable significant improvements to the energy efficiency of the full 
range of affordable cars and light trucks.
    FreedomCAR has already been instrumental in developing and 
transferring to the automotive industry a range of technologies that 
can help achieve higher energy efficiencies. Examples of these 
successes include the development of: nickel metal hydride battery 
technologies used in all commercially-available hybrid electric 
vehicles; the super plastic forming of metals, a process used by 
General Motors to manufacture body parts at lower cost and with lighter 
materials; and the technical foundation for low sulfur fuels, enabling 
a new generation of high efficiency diesel engines to enter the market 
with potential large oil savings within the United States.
    Cost-competitive advances in batteries, power electronics, electric 
motors, lightweight materials, renewable fuels and advanced combustion 
that are supported by FreedomCAR could contribute to future vehicles 
being significantly more efficient than those sold today. However, it 
is important to note that technological advances we develop with 
industry will not necessarily translate into a more fuel efficient 
fleet. For this reason, the administration supports incentives to help 
accelerate the large-scale introduction of more efficient hybrid and 
advanced combustion technologies.
                        biomass funding program
    Question. Mr. Garman, I have noticed that the Biomass funding 
within the Energy Supply account has dropped and you have recalibrated 
your program to support the improvement of existing technology, as 
opposed to using funds to support new ideas or the thermo-chemical 
platform. What is the rationale behind these reductions, and how much 
funding is required to support thermo-chemical platform research 
efforts in order for the Department to begin considering next 
generation biomass technology?
    Answer. Since fiscal year 2002, the Biomass Program has experienced 
a significant increase in Congressionally-directed activities that has 
limited the program's ability to focus on a full biomass R&D portfolio, 
including thermochemical platform research. Due to this reduction, the 
Office of Energy Efficiency and Renewable Energy (EERE) has focused its 
biomass efforts to meet its top priority, reducing our dependence on 
foreign oil, and funded those efforts most likely to increase 
alternative fuels production. We are leveraging Federal dollars to 
lower the technical and financial risks of developing new biorefineries 
along with the chemicals and products needed for cost-effective and 
efficient biorefineries.
                 energy conservation program direction
    Question. Contained in the fiscal year 2006 budget request is $2.9 
million to improve budget transparency and accuracy within the Energy 
Efficiency budget. Please explain how you intend to use this funding 
and if you intend to use a portion of this funding to determine how you 
can merge the various activities, functions and offices that have been 
separate as a result of the dual committee jurisdiction.
    Answer. The $2.9 million funds the Office of Energy Efficiency and 
Renewable Energy's (EERE) cross-cutting planning, analysis and 
evaluation activities in support of renewable energy programs. EERE's 
Office of Planning, Budget and Analysis has traditionally conducted 
these activities in the past and will continue to do so. No merging of 
functions or offices is planned. Funding for these activities, however, 
will now be requested at the corporate level, rather than funded 
through the budgets of individual renewable energy programs as was done 
in the past. Explicitly budgeting for these cross-cutting activities 
will provide increased transparency and more accurate organizational 
alignment. In addition, the merging of activities funded by the Energy 
and Water Development and the Interior and Related Agencies 
Appropriations should result in more consistent funding allocations for 
these cross-cutting activities.
                         fossil energy programs
    Question. In the administration's budget request, we see an 
important new effort within the Solid State Energy Conversion Alliance 
(SECA) fuel cells program to develop megawatt-scale SECA Hybrid 
Systems. As I understand this, the program envisions combining a fuel 
cell with a turbine in a hybrid system that will achieve new levels of 
electric power generation efficiency with low emissions. What 
activities in this area do you envision in fiscal year 2006, and what 
is the Department's plan for this program beyond fiscal year 2006?
    Answer. The SECA program is aimed at developing advanced enabling 
fuel cell technology at relatively small modules (3 to 10 kilowatts), 
which can be used as the building blocks for larger fuel cell systems. 
In fiscal year 2006, the program will continue developing SECA core 
technology R&D to resolve crosscutting technical issues and to enhance 
individual subsystem components and overall system performance, with 
small and large-scale applications to independent modules and 
integrated ``hybrid'' systems.
    In fiscal year 2006, the SECA program will also continue MW-scale 
SECA fuel cell and fuel cell hybrids work in support of coal-derived 
gas-based systems. The hybrid program is focused on translating the 
SECA results into large scale systems for use in central coal plants, 
like FutureGen. The hybrid activities in fiscal year 2006 will include 
continuation of work under the recent solicitation for Fuel Cell Coal-
Based Systems, addresses large (>100 MWe) fuel cell power systems that 
can contribute to systems that produce affordable, efficient and 
environmentally-friendly electrical power at greater than 50 percent 
overall efficiency (HHV) from coal to ac-power, including 
CO<INF>2</INF> separation preparatory to sequestration.
    Beyond fiscal year 2006, the Department plans to continue research 
on a cost-shared basis with its industry partners on core technologies 
for distributed generation applications and on fuel cell hybrids. 
Potential areas of research on fuel cell hybrids could include stack 
scale-up, pressurization, aggregation, selection of reforming 
technology, development of control/operating strategy, coupling air 
flow to fuel cell with turbine, elimination of components like air 
blower, simplifying operation and cost reduction, assessing tradeoffs 
among all subsystems, simplifying operation and cost reduction, and 
addressing the turbine development needs for hybrid use. The hybrid 
part of the SECA program is targeted to providing proof-of-concept fuel 
cell hybrid systems beginning in 2012 in concert with FutureGen.
    Question. The administration's budget request for Distributed 
Generation--Fuel Cells provides that funding in the Solid State Energy 
Conversion Alliance (SECA) program will be used to ``continue MW-scale 
SECA fuel cell and fuel cell hybrids work.'' What activities in this 
area do you envision in fiscal year 2006, and what is the Department's 
plan for this program beyond fiscal year 2006?
    Answer. The SECA program is aimed at developing advanced enabling 
fuel cell technology at relatively small modules (3 to 10 kilowatts), 
which can be used as the building blocks for larger fuel cell systems. 
In fiscal year 2006, the program will continue developing SECA core 
technology R&D to resolve crosscutting technical issues and to enhance 
individual subsystem components and overall system performance, with 
small and large-scale applications to independent modules and 
integrated ``hybrid'' systems.
    In fiscal year 2006, the SECA program will also continue MW-scale 
SECA fuel cell and fuel cell hybrids work in support of coal-derived 
gas-based systems. The hybrid program is focused on translating the 
SECA results into large scale systems for use in central coal plants, 
like FutureGen. The hybrid activities in fiscal year 2006 will include 
continuation of work under the recent solicitation for Fuel Cell Coal-
Based Systems, addresses large (>100 MWe) fuel cell power systems that 
can contribute to systems that produce affordable, efficient and 
environmentally-friendly electrical power at greater than 50 percent 
overall efficiency (HHV) from coal to ac-power, including 
CO<INF>2</INF> separation preparatory to sequestration.
    Beyond fiscal year 2006, the Department plans to continue research 
on a cost-shared basis with its industry partners on core technologies 
for distributed generation applications and on fuel cell hybrids. 
Potential areas of research on fuel cell hybrids could include stack 
scale-up, pressurization, aggregation, selection of reforming 
technology, development of control/operating strategy, coupling air 
flow to fuel cell with turbine, elimination of components like air 
blower, simplifying operation and cost reduction, assessing tradeoffs 
among all subsystems, simplifying operation and cost reduction, and 
addressing the turbine development needs for hybrid use. The hybrid 
part of the SECA program is targeted to providing proof-of-concept fuel 
cell hybrid systems beginning in 2012 in concert with FutureGen.
    Question. Integrated Gasification Combined Cycle (IGCC) technology 
is a key to enabling the nationwide use of our abundant coal resources 
for electric power generation. One challenge to the deployment of IGCC 
technology on a large commercial scale is the need for engineering for 
first of a kind plant designs and technology integration. Unique 
engineering challenges must be resolved if this technology is to be 
capable of using all ranks of coal. What do you see as the Department 
of Energy's role in addressing these engineering challenges?
    Answer. The Department's role in addressing these engineering 
challenges is to conduct research, development and demonstration in a 
cost-shared partnership with industry to improve the performance and 
cost of IGCC. That research will be aimed at subsystem and component 
improvements that enhance the overall system's environmental 
performance, improve the reliability and the cost-competitiveness, and 
to provide concepts that will allow for the adaptation of these systems 
to carbon dioxide capture as the foundation for essentially zero 
emission coal based gasification plants for the future. This research 
includes the development of low-cost, longer life refractory materials 
for the gasifier that can improve reliability and also be used for 
different ranks of coal; advanced oxygen membrane technology to lower 
cost and improve efficiency; low-cost, ultra-clean gas stream cleanup 
systems; development of more efficient, low-cost gasifiers that can run 
on low rank coals; advanced catalysts for shift reactions to produce 
hydrogen and synthesis gas for use in advanced turbines; advanced 
combustion turbines that can run on high hydrogen content while 
producing ultra-low levels of nitrogen oxides (less than 3 parts per 
million). Also, innovative design configurations that include advanced 
sensors and controls will provide the basis for follow-on generations 
of lower-cost, more efficient, and higher reliability IGCCs. Finally, 
component integration and system scaling issues can be addressed, along 
with over system viability, by integrating system demonstration under 
the Clean Coal Power Initiative, including the FutureGen project.
    Question. There is renewed and growing interest in all regions of 
the country in the use of coal for baseload electricity generation. DOE 
programs in the mid-1990's demonstrated the technical feasibility of 
Integrated Gasification Combined Cycle (IGCC) technology, but not the 
commercial viability of the technology using all ranks of coal. The 
Department has a number of coal programs that focus on long term, high 
risk technologies for coal utilization. At the same time that the 
Department is addressing the development of new technologies for coal-
based power generation through FutureGen and the Clean Coal Power 
Initiative, shouldn't we also be taking steps to assure that the 
nearest term technology--IGCC--is deployed as rapidly as possible?
    Answer. We agree that we should and we are taking steps to conduct 
research, development, and demonstration that will foster deployment of 
IGCC technology. The primary impediment to early deployment of IGCC is 
its higher cost compared to conventional power plants, somewhat lower 
reliability (which is true of all new technologies until they mature) 
and the historic absence of a utility system supplier prepared to 
provide a ``wrap-around'' warranty for IGCC performance. In this 
context, the Department is pursuing the development of technology that 
would drive down the costs of IGCC and improve the reliability of 
initial systems. In addition, the Department greatly accelerates IGCC 
deployment by providing up to 50 percent of the cost for new IGCC 
plants proposed under the Clean Coal Power Initiative (CCPI). Two such 
IGCC plants demonstrated under the Clean Coal Demonstration Program 
have entered commercial service (and are the only two commercially 
operating IGCCs in the Nation). Two more IGCCs were selected to be 
demonstrated under the CCPI Program and will enter commercial service 
upon completion of their demonstration phase. With regard to ``wrap-
around'' warranties, one U.S. equipment supplier has informally 
indicated plans to do so shortly. Considerable progress is being made 
across the board.
    In the R&D Program, the Department, working with its industrial 
partners, is developing new materials (e.g., refractory liners, high 
temperature measurement and control instrumentation) that will lower 
operating and maintenance costs and improve equipment reliability, and 
plant availability, which are key steps for improving today's IGCC 
technology. Additionally, the Department is actively engaged with the 
gasification industry to develop new technologies to significantly 
reduce the cost and improve the operational effectiveness and thermal 
efficiency of future plants.
    Question. What role can DOE play in getting IGCC technology that is 
commercially ready now into operation at a number of sites across the 
country?
    Answer. In addition to the DOE actions already taken and discussed 
in the answer above, there are several possibilities, which include:
  --Share information.--We can make available relevant non-proprietary 
        information on IGCC in a useful structure and summarize the 
        information in formats useful to various decision-makers that 
        play a role power plant approval, or other important decisions 
        regarding IGCC. These decision-makers would include Public 
        Utility Commissions, State Legislators, media organizations, 
        and permitting authorities.
  --Work with regulators.--We have been meeting for several months with 
        EPA on ways we can facilitate permitting of new IGCCs.
    Question. The Office of Fossil Energy will have spent $324 million 
on fuel cell research and development (R&D) over the past 5 years 
(including the fiscal year 2006 request of $65 million--fiscal year 
2006 Congressional Budget page 103). The fuel cell ``SECA'' R&D effort 
has six participants, many of whom are not meeting programmatically 
imposed technical and financial metrics. When will there be a 
significant down-select of partners?
    Answer. The SECA program is structured with three phases. Each 
phase has progressive goals to ensure that appropriate progress is made 
before approval to continue to the next phase. At this time SECA is 
entering a critical evaluation period for the first phase. All teams 
that qualify will be permitted to continue, subject to the availability 
of funds.
    The SECA teams are pursuing various designs for stationary and 
auxiliary power market applications. Having multiple teams 
significantly reduces the overall risk of the government's investment, 
creates competitions among the teams for early market entry, increases 
the potential range of products and public benefits associated with 
those products, and should create competitive pricing that will make 
fuel cells affordable to consumers.
    The development efforts of each team are described below:
    General Electric (GE) is developing a compact natural gas 5-kW, 
planar, 700 C to 800 C, anode-supported solid oxide fuel cell (SOFC) 
unit for residential power markets. GE is evaluating several stack 
designs, and is especially interested in extending planar SOFCs to 
large hybrid systems. GE has achieved 307 mW/cm\2\ in a radial planar, 
21-cell 800C stack. GE has already achieved over 400 mW/cm\2\ in a 
single cell exceeding its Phase I SECA targets for stack power density 
and utilization. Prototype testing will occur in 2005.
    Delphi, in partnership with Battelle/PNNL, is developing a compact 
5-kW, planar, 700 C to 800 C, anode-supported SOFC unit for the 
distributed generation and auxiliary power unit (APU) markets. Delphi 
is working on a third generation design that has achieved 420 mW/cm\2\ 
in two 30-cell stacks. Delphi is expert at system integration and high-
volume manufacturing and cost reduction. They are focused on making a 
very compact and light-weight system suitable for auxiliary power in 
transportation applications. Prototype testing will occur in 2005.
    Cummins is the world's largest manufacturer of generators to the 
recreational vehicle market. Cummins and SOFCo EFS are developing a 10-
kW product for recreational vehicles that would run on natural gas, 
diesel and propane using a catalytic partial oxidation reformer. The 
team has produced a conceptual design for a multilayer electrolyte-
supported SOFC stack assembled from low-cost building block components. 
The basic cell is a thin electrolyte layer (70 to 120 microns), 
fabricated by tape casting. Anode ink is screen-printed onto one side 
of the electrolyte tape, and cathode ink onto the other. The printed 
cell is sandwiched between layers of dense ceramic that will 
accommodate reactant gas flow and electrical conduction. The assembly 
is then co-fired to form a single repeat unit.
    Siemens Westinghouse Power Corporation (SWPC) is developing 5- to 
10-kW products to satisfy multiple markets. SWPC has developed a new 
tube design for their 5-kW units that use flattened oval, high power 
density, cathode-supported tubes. This allows for a shorter tube length 
with twice the power output, compared to their current cylindrical 
tube. The SWPC flattened high power density tubes have achieved a 300 
mW/cm\2\ at 85 percent fuel utilization at 1,000 C.
    Acumentrics uses a micro-tubular anode-supported design, and is 
already offering early units for field testing. They are interested in 
the information technology applications and uninterruptible power 
supply markets, and have conducted over a dozen early unit field tests. 
The advantages of smaller diameter tubes are higher volumetric power 
density and rapid start-up because they are less susceptible to thermal 
shock. Acumentrics units have already achieved 63 thermal cycles.
    FuelCell Energy Inc., (FCE) has brought its history of successful 
fuel cell development to a team that includes Gas Technology Institute 
(GTI) and Versa Power Systems. The acquisition of Canada's Global 
Thermoelectric, provided a 5 MW per year manufacturing facility and 
over 25,000 hours of testing experience on their RP-2, 2 kW units. At 
the beginning of fiscal year 2005, FCE combined its Canadian SOFC 
operations, into its lead product development sub-contractor, Versa 
Power Systems. This consolidation provides a greater opportunity to 
commercialize SOFC products under SECA.
    Question. The Office of Fossil Energy has requested an $11 million 
increase over fiscal year 2005 for its Innovative System Concepts 
Subactivity (``Hybrid Program'') (fiscal year 2006 request is $64.3 
million--fiscal year 2006 Congressional Budget page 104 and 105). This 
program's goal for fiscal year 2006 is the issuance of a competitive 
solicitation to advance megawatt-scale fuel cell hybrids. However, 
according to the Fuel Cell Power Association and meetings with a number 
of Fortune 500 stakeholders, we've learned that the upcoming 
solicitation is once again focusing on and requiring work on basic 
``cell and stack''. Why after investing 5 years and $324 million 
through the fuel cell program does the Innovative System Concepts 
activity (Hybrid Program) need to spend more time and another $64.3 
million on basic ``cell and stack'' R&D?
    Answer. The focus on cell and stack research is the key to 
providing fuel cell systems, whether as SECA fuel cells or in a hybrid 
system, that can achieve the power and durability performance at a cost 
target of $400 per kilowatt. This continues to be the most challenging 
part of the fuel cells program, and the industry is making substantial 
progress towards that goal. In fiscal year 2006, the program will 
continue developing SECA core technology R&D to resolve crosscutting 
technical issues and to enhance individual subsystem components and 
overall system performance, with small and large-scale applications to 
independent modules and integrated ``hybrid'' systems. The recent 
solicitation for Fuel Cell Coal-Based Systems, is focused on the 
development of large (>100 MWe) fuel cell power systems that will 
produce affordable, efficient and environmentally-friendly electrical 
power at greater than 50 percent overall efficiency (HHV) from coal to 
AC power, including CO<INF>2</INF> separation preparatory to 
sequestration.
    The large scale, low cost fuel cell systems subprogram element is 
developing technologies for fuel cells that utilize coal gases to 
produce electricity for applications that are currently serviced by 
natural gas fueled gas turbines and diesel generators, but with 
significantly lower emissions.
    This subprogram element will address stack scale-up, 
pressurization, aggregation, selection of reforming technology, 
development of control/operating strategy, coupling air flow to fuel 
cell with turbine, elimination of components like air blower, assessing 
tradeoffs among all subsystems, and addressing the turbine development 
needs for hybrid use.
    The overall goals of this subprogram element are to simplify 
operation and lower cost by pursuing a systems approach that 
iteratively explores tradeoffs between system and subsystem. Subsystem 
development is done with the objective of determining operating 
parameters and development goals for each subsystem that optimize the 
entire system in cost/performance.
                       office of science programs
                  hydrogen research--office of science
    Question. Dr. Orbach, the President's budget provides $259 million 
in total funding for the Hydrogen Fuel Initiative. Much of the basic 
research to support the hydrogen program is done through the Basic 
Energy Sciences (BES) program within the Office of Science. The budget 
proposes $32.5 million for BES research to support the Hydrogen Fuel 
initiative. Enormous gaps remain between our capabilities in hydrogen 
production and storage, and the capabilities required for a competitive 
hydrogen economy. Given the need for basic research to generate 
breakthroughs, does the President's budget provide sufficient funding 
for basic research?
    Answer. Yes, the fiscal year 2006 request provides sufficient 
funding for basic research in hydrogen. The Department believes, as 
does the National Research Council, that a continuum of basic science, 
applied research, development, and ``learning'' demonstrations is 
necessary for the successful transition to a hydrogen economy. Applied 
research and technology demonstrations are critical to meeting the 
technology milestones leading to the 2015 industry commercialization 
decision and to begin the transition to a hydrogen economy. Basic 
research is critical to understanding the underlying science that will 
lead to more economical production, greatly improved storage, and 
improvements in fuel cell technology in the near-term and potentially 
``breakthroughs'' in the long-term. The President's Budget Request for 
fiscal year 2006 puts forward a balanced portfolio of basic science, 
applied research, development, and demonstrations that seeks to address 
both the short-term showstoppers and the long-term grand challenges.
                      low dose radiation research
    Question. Dr. Orbach, last week I received an update on the 
progress of the low dose radiation research your office has been 
conducting over the past 3 years. I proposed this study because I 
believe policy makers were setting radiation standards based on poor 
quality data, especially when it came to low dose radiation. The Linear 
No-Threshold model became the basis for policy decisions since 
scientists knew very little about the effects of low-dose radiation on 
the human body. That model assumes that every unit of radiation 
exposure will result in an incremental increase in damage. Many experts 
believed this model to be flawed, but didn't have enough data to 
support their conclusions. In order to fill in the gaps, I initiated 
the low-dose research program in 1998. What are the significant 
findings of the DOE Low Dose Radiation Program and how do these finds 
affect the Linear No-Threshold Model?
    Answer. Low dose radiation studies have traditionally been 
conducted on isolated cells, the majority of which have been conducted 
by the DOE Low Dose Radiation Research Program. The responses of those 
cells were then used to estimate low dose radiation effects in tissues 
and whole organisms. DOE-funded research has shown that cells in 
tissues respond very differently to radiation than isolated cells. 
These differences are greatest for very low dose radiation exposures or 
for very low dose rate exposures where most cells in a tissue are not 
irradiated at all and the few irradiated and potentially-damaged cells 
are generally surrounded and outnumbered by unirradiated/undamaged 
cells. We now know that tissues can ``protect'' themselves from 
abnormal cells, such as radiation damaged cells, by stimulating 
defective cells to undergo ``altruistic suicide.'' If cell ``suicide'' 
occurs after tissue irradiation, the effect of that radiation would be 
less than predicted from simply knowing the number of irradiated cells 
and the biological effect of radiation on isolated cells.
    The DOE Low Dose Radiation research program is beginning to use 
these whole system or tissue concepts to understand and interpret 
radiation induced biological effects such as bystander effects, 
adaptive response, and genomic instability. The program has shown that 
bystander effects result from communication between irradiated and 
unirradiated cells. Bystander effects are an early biological response 
that seems to be programmed into tissues as tissues attempt to re-
establish homeostasis and eliminate abnormal cells. The program has 
also shown that adaptive response and radiation-induced genomic 
instability appear to result from persistent perturbations of normal 
regulatory networks that control cell and tissue behavior following 
radiation exposures. Using genome-based technologies we are now 
learning how cells communicate with each other in tissues in response 
to radiation, what causes cells and tissue to undergo different 
biological responses to radiation at different times, and how some 
people may be more sensitive to radiation while others are relatively 
resistant.
    Emerging data from the DOE Low Dose Radiation research program 
suggest that for low dose radiation exposures it is the networked, 
multicellular responses, rather than the damage to the individual cells 
per se, that dictate whether homeostasis is restored or if pathology 
ensues. High dose exposures may corrupt normal signaling and moderate 
doses of chronic irradiation may persistently alter cell phenotypes, 
compromising the surveillance of abnormal cells and enabling aberrant 
cells to accumulate and proliferate. Taken together, these new data are 
no longer consistent with the Linear No-Threshold (LNT) Model for 
cancer risk for low doses and dose rates of radiation.
    Question. If the Linear No-Threshold model is inaccurate, when will 
we have enough information from the new biological studies to 
confidently set radiation protection standards?
    Answer. This new paradigm for understanding radiation response, 
based on systems biology principles of interconnectivity and the cell 
microenvironment, is founded on the research currently supported by the 
DOE Low Dose Radiation Research Program. These critical new studies are 
rapidly evolving, stimulating new research as well as the new concepts 
for developing computational models of the effects of low doses of 
radiation on biological systems. We anticipate that scientific advances 
during the next 5 years will enable regulators to critically re-
evaluate and, if appropriate, begin to modify current radiation 
protection standards.
                        genomes to life program
    Question. Dr. Orbach, It is my understanding that one of the 
results of the Human Genome Program was the creation of the Genomes to 
Life project. One goal of the program is to develop biotechnology-based 
solutions to aid in the cleanup of the Department of Energy 
environmental legacy. What are your scientists working on, and will 
these microbe solutions be safer than current environmental cleanup 
methods so that risks to workers and the public are reduced?
    Answer. Common approaches to environmental remediation involve the 
excavation, transport and disposal of contaminated media in an 
engineered structure. This approach is safe, effective, relatively 
inexpensive and has regulatory acceptance for small areas of high level 
contamination. However, there are many areas for which such an approach 
is not practical for financial or engineering reasons, including large 
areas of low-level contamination and inaccessible areas such as 
underground aquifers and deep subsurface sediments. Currently, such 
areas are managed through access controls or via expensive active 
technologies such as pump and treat. Microbial-based solutions are 
particularly attractive for such areas because they offer the 
possibility of remediating contaminants in place in otherwise 
intractable settings. Microbes naturally found in the subsurface 
possess a diverse set of metabolic capabilities which include the 
capability to degrade organic contaminants and to transform many 
inorganic contaminants to insoluble forms. Understanding the 
biomolecular processes that control such microbial activities promises 
the ability to take advantage of such capabilities in a given 
environment or to introduce such capabilities where they do not 
otherwise exist. As such, microbial-based solutions may offer 
remediation solutions where none currently exists, thereby reducing 
otherwise unmanageable risks to workers and the public. Anticipated 
microbe-based solutions would involve the conversion of contaminants 
from toxic forms or mobile forms that can move into groundwater 
supplies to nontoxic forms or immobile forms that stay in place and do 
not move into ground water supplies. These remediation approaches would 
reduce risks of human and environmental exposure that result from 
digging up, and thus disturbing, contaminants. However, the overall 
safety and desirability of these microbe-based remediation strategies 
will need to be independently investigated as part of the Ethical, 
Legal, and Societal Issues (ELSI) research component of the Genomics: 
GTL research program.
               international thermonuclear reactor (iter)
    Question. Dr. Orbach, the administration continues to support ITER, 
but at the expense of the U.S. Fusion research program. Funding for the 
international partnership to build a large-scale fusion reactor is $46 
million fiscal year 2006. By prioritizing funding for ITER, it will 
delay the completion of Princeton University's fusion facility, reduce 
facility run-time to just 17 weeks a year and eliminate materials 
research funding--a critical component when dealing with the intense 
heat from fusion energy. For the past 2 years the six ITER partners 
have been unable to break the 3-to-3 tie vote to locate ITER in either 
Japan or France. Based on the current delays and tight budgets, I don't 
believe this is the best time to send our initial U.S. investment to 
the ITER project. Can you give us a status of the ITER project and the 
rationale for cutting the underlying domestic fusion research and 
education program to funding a project with no site location?
    Answer. Regarding the status of the ITER project, all six Parties 
are proceeding with technical preparations for the project in the areas 
of design, R&D and qualification of industrial vendors. The 
negotiations on the site selection have been delayed; however, recently 
the two principal Parties involved, the European Union and Japan, have 
agreed that their views are converging towards a common position and 
that they will aim at reaching an international agreement involving all 
six Parties on the ITER site issue before the G-8 summit in early July 
2005. As of May 5, the European Union and Japan have agreed on a common 
statement of the roles of the Host and Non-Host, defining the terms of 
a win-win solution for both of them. Now, each side will consider these 
terms and prepare for a political decision on who is Host and Non-Host 
by the end of June, as agreed earlier by Prime Minister Koizumi and 
President Chirac.
    In the fiscal year 2006 President's Budget we are beginning the 
transition of the domestic fusion program around a central focus on 
burning plasma physics (i.e., full U.S. participation in ITER as the 
major fusion research facility world-wide), which is a change 
repeatedly endorsed by the National Academy of Science. In making this 
transition, we have chosen to preserve the critical program areas so 
that we will be prepared to participate in ITER when it operates.
                       office of science funding
    Question. Dr. Orbach, I am disappointed to see the President's 
budget would decrease funding to the Office of Science by nearly 4 
percent. The Office of Science is the largest source of government 
support for research in the physical sciences. Although we are clearly 
in a period of budget constraints, I question whether cuts in physical 
science research are in the long-term interests of the United States. 
The Office of Science budget request also reflects a higher priority 
placed on operating funds for scientific user facilities than on grants 
to researchers. In fact, the Office of Science budget proposes a 10 
percent cut for research grant funding overall. What are the reasons 
for the larger cuts in research grant programs relative to user 
facility operating funds?
    Answer. In this overall budget climate, we are continuing to 
position the Office of Science for the future, with investments in new 
facilities needed to stay at the forefront of science. However, these 
investments in facilities and their operations have short-term 
consequences affecting our ability to fund research. Facility 
operations are not reduced as much as research in fiscal year 2006 
primarily because we have several new facilities coming on line. The 
Spallation Neutron Source at Oak Ridge National Laboratory will begin 
operations in fiscal year 2006, as will 4 of the 5 Nanoscale Science 
Research Centers: the Center for Nanophase Materials Sciences at Oak 
Ridge National Laboratory, the Center for Integrated Nanotechnologies 
at Sandia and Los Alamos National Laboratories, the Molecular Foundry 
at Lawrence Berkeley National Laboratory, and the Center for Nanoscale 
Materials at Argonne National Laboratory. The Spallation Neutron Source 
will provide the most intense, by an order of magnitude, neutron beam 
in the world for cutting-edge research, while the Nanoscale Science 
Research Centers will provide tools found nowhere else in the world for 
exploration at the atomic level, offering huge potential for the 
discovery of entirely new ways to build materials.
    Question. Do you expect this trend to continue in future years?
    Answer. Over the next several years, we will work to ensure that an 
appropriate balance between research and facility operations is 
maintained.
                       joint dark energy mission
    Question. Dr. Orbach, I am very interested to learn more about the 
Department's commitment to the Joint Dark Energy Mission (JDEM). This 
committee has articulated its support for this program in our past 
three appropriations bills recognizing that JDEM will help scientists 
answer the most fundamental question of the day--what is the universe 
made of. Although multi-agency collaborations are wonderful when they 
work properly, they can be disastrous when the agencies don't 
cooperate, when funding levels are not appropriately matched and when 
the commitment of one agency doesn't match the commitment of the other. 
Is DOE serious about seeing this program succeed?
    Answer. Yes. The Department is very much dedicated to the science 
of the JDEM experiment. Determining the nature of dark energy is one of 
the most exciting areas of particle physics today. The Department plans 
to spend $3 million in fiscal year 2006 on R&D for the SuperNova/
Acceleration Probe, or SNAP as it is called, which will be one of the 
proposals for the dark energy science investigation for JDEM. These 
funds will be used to finalize the SNAP R&D for technology needed to 
provide a mission concept. The DOE needs NASA as a partner for critical 
financial, intellectual, and technical reasons; in particular, DOE 
needs NASA's expertise in the development of space-flight qualified 
hardware. It is our understanding that NASA plans to continue to 
support ongoing planning efforts for the project, including appropriate 
research and development, technology development, and mission concept 
studies.
    Question. What is your strategy to ensure that both DOE and NASA 
move forward to make this project happen in a timely manner?
    Answer. With the help and guidance of the White House Office of 
Science and Technology Policy, NASA and DOE are continuing a dialogue 
on this subject. At a recent meeting with NASA to discuss their 
strategic plan development, we emphasized the importance of JDEM to DOE 
and our commitment to the project. NASA assured us that JDEM is very 
important to them as well. We will continue discussions with NASA aimed 
at bringing this very important science project to fruition.
    Question. As described in the fiscal year 2005 Energy and Water 
bill, this program has organized a tremendous team of talented 
scientists and engineers; failure to move forward quickly may endanger 
this dynamic group. Does DOE intend to move forward aggressively to 
ensure this program does not wither on the vine?
    Answer. Yes. DOE plans to continue to provide R&D funds for SNAP, 
and we continue to pursue discussions with NASA about this exciting 
program.
                          solid state lighting
    Question. Dr. Orbach, you had a very important workshop last March 
on the ``Nanoscience Research for Energy Needs'', and you know that one 
of Nanoscience Research Centers is located in New Mexico. Can you 
please explain the importance of solid state lighting as a nanoscience 
thrust area from this workshop and these Nanoscience Research Centers?
    Answer. ``Solid state lighting at 50 percent of the present power 
consumption'' emerged from this interagency workshop as one of nine 
research targets in energy-related research in which nanoscience is 
expected to play a key role. At present, electricity use accounts for 
about one-third of total energy consumption in the United States. Of 
that, about 20 percent of all electricity consumed goes for lighting. 
However, today's lighting is remarkably inefficient. For incandescent 
lighting, only about 5 percent of the electrical energy is converted to 
visible light; for fluorescent lighting, this increases to 25 percent. 
By comparison, building heating is typically 70 percent efficient, and 
electrical motors typically 85-95 percent efficient. Lighting therefore 
represents a large target for improved energy efficiency. Cutting the 
amount of electricity needed for lighting in half would result in a 
savings roughly equivalent to the annual energy production of 50 
nuclear reactors. The use of semiconductor-based light emitting diodes 
(LEDs) for general illumination is a rapidly developing technology that 
offers the potential of immense energy savings to the Nation and the 
world within a decade or two. For colored lighting, LED's have already 
replaced over one third of the traffic lights in the United States, 
resulting in a savings of about $1,000 per intersection per year. 
However, a number of science and technology obstacles must be overcome 
in order for solid-state lighting to reach its potential. The research 
target now is to bring this new technology to the general white-
lighting applications where the potential impacts are tremendous. 
However, before new devices can be made commercially available, 
improvements are required, particularly involving materials designed at 
the nanoscale and integrated into real-world devices. We expect one or 
more of our Nanoscale Science Research Centers to become actively 
involved in this energy challenge.
                            nuclear physics
    Question. Dr. Orbach, the Office of Science 20-year facilities 
plan, released in November 2003, ranks the Rare Isotope Accelerator B 
called RIA B as one of its highest priorities. Yet the Department 
recently removed the draft RFP for RIA from its website. What is your 
timeline for proceeding with RIA?
    Answer. The Department published a draft Request for Proposal (RFP) 
for RIA and comments from potential offerors have been incorporated 
into a final version. However, a Request for Proposals will not be 
issued at this time.
    As you know funding for domestic programs will be constrained in 
the future and the decision to proceed with RIA must be made in the 
context of competing priorities and the needs of the Nation. Before 
proceeding with a project like RIA that requires a significant 
investment by the U.S. Government, the funding to construct and operate 
the proposed facility needs to be identified and the decision to 
proceed must be made in the context of other Departmental and national 
needs and priorities. Under the fiscal year 2006 request, necessary 
research and development work will continue on the RIA project. The 
Nuclear Science Advisory Committee has been asked to examine the future 
of RIA in the context of constrained budgets and competing priorities. 
Their report is due in the summer of 2005.
                     strategy on advanced computing
    Question. Dr. Orbach, the Department has made a significant 
investment in both NNSA's and the Office of Science's efforts to 
improve speed, efficiency and capacity in advanced computing. Can you 
give us your strategy for the Civilian Computing Program, and what is 
your plan for reaching a 100 teraflop machine for non-weapons related 
research?
    Answer. The Office of Science strategy for advanced computing is 
focused on delivering the best science for the United States. This 
strategy is built on four principal elements:
  --(1) The Office of Science's world leading research program in 
        applied mathematics and the computer science of high 
        performance computers. These efforts have resulted in most of 
        the mathematical algorithms and software that underpin high 
        performance computing for science. The improvements in 
        scientific computing that have resulted from these efforts have 
        yielded an increase in capability over the past 2 decades that 
        equals all of the increases due to Moore's law for 
        microprocessors.
  --(2) Our investments across the Office of Science in the Scientific 
        Discovery through Advanced Computing (SciDAC) effort. This 
        effort, which we initiated in fiscal year 2001, ensures that we 
        transfer the results of our research in applied mathematics and 
        computer science to the other scientific disciplines as quickly 
        and effectively as possible. This effort has resulted in 
        significant improvements to many scientific applications, in 
        fields that range from astrophysics to magnetic fusion to 
        global change. For example, in one astrophysics code the time 
        to solution was reduced by 75 percent. We are expanding SciDAC 
        in fiscal year 2006 with a competition for SciDAC institutes 
        that can be high performance computing software centers.
  --(3) Significant enhancements to our high performance capacity 
        computing at NERSC and our connectivity to the research 
        community through ESnet. We expect to nearly double the 
        capacity available for scientific discovery at NERSC by the end 
        of fiscal year 2006.
  --(4) Finally, we have established the Leadership Computing Facility 
        (LCF) at Oak Ridge National Laboratory, which will field a 20 
        Tflop Cray X1e and a 20 Tflop Cray Red Storm (now called XT3) 
        computer as resources for science. These computers will each 
        support a small number of competitively selected teams that are 
        poised to use these resources for breakthrough science.
    Our programs balance all of these elements to deliver the most and 
best science for the country; therefore, we are not focused on 
achieving a specific level of peak performance. We hope to be able to 
increase the capability of the LCF in future years as improved 
computers that can deliver their performance on scientific applications 
become available; however, we believe that these increases must be part 
of a balanced program to deliver the mathematical, software and 
computer hardware tools that computational scientists will need.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                    biomass research and development
    Question. Mr. Garman, it is important to implement a regional 
approach to biomass research because of the diversity in the United 
States. Biomass sources and techniques in Mississippi are much 
different than the biomass opportunities available in the Midwest. How 
do you perceive the Department's role in facilitating a regional 
approach to research and development?
    Answer. The Department strongly supports State and regional 
partnerships to advance our biomass research. In looking at developing 
our domestic energy resources from a national perspective, the 
Department can help to identify and support State and regional efforts 
that contribute to meeting our national energy needs. State-regional 
partnerships are currently conducting work in many areas of biomass 
research, including bio-renewable fuels, bio-based lubricants, and bio-
chemicals. Such partnerships will continue to be critically important 
to our efforts to develop technologies that will enable a robust 
biomass-based industry.
                   building new nuclear power plants
    Question. Mr. Magwood, Mississippi is home to the Grand Gulf 
Nuclear Station. What do you see as the main issues facing U.S. 
generating companies who might wish to build new nuclear plants? Do you 
believe Congress can help the Department of Energy to build new nuclear 
plants?
    Answer. We believe that the main issues facing U.S. generating 
companies are:
  --Permanent Nuclear Waste Disposition.--Orders of new nuclear plants 
        are dependent upon steady progress toward a clear disposition 
        path for spent nuclear fuel;
  --Price-Anderson Indemnification.--Although plants currently 
        operating continue to be indemnified through the terms of their 
        licenses, coverage is not currently available for any new 
        nuclear power plant licensed after December 31, 2003;
  --Regulatory Uncertainty.--Power companies lack confidence that the 
        new licensing processes specified in 10 CFR Part 52 will 
        prevent unnecessary and excessive delays in the construction 
        and commissioning of new plants; and,
  --Economic Uncertainty.--Although power companies' confidence in the 
        estimated cost of new nuclear power plants is growing, no new 
        nuclear plant has been ordered and built in the United States 
        for over 30 years.
    With your continued support, the Department's Nuclear Power 2010 
program is making progress in addressing some of the regulatory and 
economic uncertainties.
                                 ______
                                 
             Questions Submitted by Senator Larry E. Craig
   next generation nuclear plant (ngnp) at idaho national laboratory
    Question. Mr. Magwood, in recent testimony, Secretary Bodman has 
expressed concern about the cost of building the Next Generation 
Nuclear Plant at the Idaho National Laboratory. As you know, Senator 
Domenici and I view the NGNP as the cornerstone of the U.S. effort to 
remain a leader in innovative nuclear technologies for the future. I 
know the NGNP plan you have developed includes significant cost sharing 
with private industry. Can you help explain for the subcommittee how 
you would like the private sector to help share in the cost of building 
NGNP and why you think they would do it?
    Answer. Before any private sector investment can be contemplated, 
we must complete the viability research and development anticipated by 
our Generation IV program. Our primary focus at this time is to assure 
that the Generation IV research program is able to answer the basic 
viability questions regarding this advanced technology. We will 
continue research and development on various Generation IV reactor 
designs to determine their compatibility with the desired goals of 
sustainability, economics, and proliferation resistance. This includes 
work on materials performance as well as evaluating the waste products 
associated with various reactor designs. As these questions are 
answered, we can consider additional steps in the future. If the 
Department ultimately decides to proceed with a demonstration of a 
nuclear reactor technology, we would look to consult with the private 
sector.
                       idaho national laboratory
    Question. Mr. Garman, I know this is a little out of your area but 
as the former acting Under Secretary at DOE you have been engaged in 
this issue. Yesterday, I was informed that the Department of Energy 
would miss the self-imposed March 15 deadline to award the Idaho 
Cleanup Project contract. DOE will apparently miss the deadline even 
though the Idaho delegation urged DOE to expedite the contract award 
and Secretary Bodman assured us DOE would meet or beat the deadline. 
Can you tell me why the deadline has been missed and when DOE will make 
the contract award?
    Answer. The Idaho Cleanup Project contract award was officially 
announced on March 23, 2005. Although the Department had every 
intention of meeting the earlier March deadline, the additional delay 
was necessary to allow for the completion of administrative 
requirements that will ensure the integrity of the procurement process 
and ensure the execution of a sound contract, given its magnitude and 
scope.
                       idaho national laboratory
    Question. Mr. Magwood, congratulations on a successful transition 
at the Idaho National Lab. I think the Battelle Energy Alliance is off 
to a good start and I want to work with you, Secretary Bodman, Clay 
Sell, Dave Garman and others to make sure we continue to make progress 
at the lab. Can you identify areas where you think we need to focus our 
attention to make sure the INL becomes the world class nuclear energy 
lab we want?
    Answer. The laboratory will consolidate operations and the site's 
footprint this fiscal year, a key step in enabling a successful 
transformation. In concert with the consolidation, the Battelle Energy 
Alliance (BEA) seeks to make changes in areas that will support the 
laboratory within a fiscally responsible budget envelope. Areas in 
which the BEA could direct its attention include: attracting the best 
scientists and engineers to participate in the laboratory's research 
initiatives; building extensive international and national partnerships 
and robust synergistic programs in areas such as homeland security and 
national security; and continuing research on breakthrough nuclear 
technologies. In addition, the laboratory seeks to modernize and align 
its infrastructure with the laboratory's research portfolio and 
potentially invest in nuclear science and technology education. 
Investments in the infrastructure will be prioritized and developed in 
concert with the Department's budget formulation process.
    Question. Mr. Magwood, I know your office has put together a 10-
year site plan that assesses the infrastructure needs at the INL. Do 
you think future budgets will be adequate to recapitalize the 
infrastructure at the INL or will we need options like third party 
financing to get where we need to go?
    Answer. Future budgets will be determined by using the Department's 
annual budget formulation process. This process will be used to 
prioritize recapitalization projects at INL and to reduce the 
maintenance backlog. As we develop future budgets, we will continue to 
update the plan to carefully prioritize the allocation of funding to 
the most important infrastructure projects. In addition, if 
appropriate, the Department may consider using third party financing.
                  cellulosic ethanol commercialization
    Question. Mr. Garman, I believe that you are aware that a company 
called Iogen has developed a technology that enables them to produce 
ethanol from agricultural wastes such as wheat, straw, and corn stalks. 
They have demonstrated their technology in a 50,000 gallon facility 
that is producing ethanol for sale every day. Now Iogen wants to start 
building commercial-scale ethanol plants that will produce 50 million 
gallons of ethanol per year. Those plants will provide $15 or $20 of 
additional revenue per acre for farmers who are selling them wheat 
straw, and create hundreds of quality jobs in rural America. The 
ethanol from those plants will reduce our dependence on foreign oil and 
reduce our emissions of greenhouse gas. The USDA has estimated that 
existing residues from farming activities would support hundreds of 
such plants, and could offset 10 percent or more of our foreign oil 
consumption. You also know Iogen has gotten substantial financial 
backing from a multinational oil company--Shell Oil--to develop this 
technology. Despite this, it can not get a commercial loan for the 
project because lenders will not go near new technology. Like some 
others, this technology is trapped in the ``valley of death''--the time 
when it is past the research and development phase--but not yet 
commercially proven. In the ``valley of death'', government grants are 
useless, and commercial loans are out of reach. How can the U.S. 
Government step up its commitment and accelerate the advent of this 
incredibly important new technology?
    Answer. The Biomass Program within our Office of Energy Efficiency 
and Renewable Energy is working with commercial lending institutions to 
determine the additional requirements needed to turn demonstrated 
technology into financially viable projects. As appropriate, the 
Department funds cost-shared competitive solicitations aimed at 
demonstrating technologies to the satisfaction of commercial lenders.
    Question. How can we bring this well-demonstrated technology out of 
the ``valley of death'' and into the marketplace now--and not wait 2 or 
3 or 4 years?
    Answer. The Department is not convinced that this technology is 
commercially viable at this time and therefore is unwilling to commit 
to accelerated deployment activities.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    replacement facilities at pacific northwest national laboratory
    Question. Dr. Orbach, for the past 2 years, Pacific Northwest 
National Laboratory (PNNL) has been working with the Department of 
Energy (DOE) Office of Science, NNSA, and DHS to prevent the loss of 
important R&D capabilities at risk because of accelerated cleanup of 
the 300 Area of the Hanford Reservation. There has been progress: in 
September 2004, DOE, with input from NNSA and DHS, confirmed the 
critical need for the capabilities housed in 300 Area through approval 
of Critical Decision 0 (CD-0). The Department has also requested funds 
in the fiscal year 2006 administration request. I want to thank you, 
Dr. Orbach, for your support and leadership on this critical effort. 
That said, the amount of funding requested is not sufficient to allow 
PNNL to meet the aggressive exit schedule required by the River 
Corridor Cleanup contract, which is still expected to be released this 
spring, and will require shutdown of work in the 300 Area by 2009. Can 
you detail the Department's plan and schedule for constructing the 
replacement facilities needed at PNNL?
    Answer. The Office of Science fiscal year 2006 requested funding of 
$3 million is to complete its share of the funding of the Project 
Engineering and Design (PED) for the potential PNNL replacement 
facilities. The amount would be consistent with the overall plan for 
constructing the facilities by the September 2009 deadline. NNSA is 
also requesting $5 million of PED in fiscal year 2006 to support the 
project. A summary table of funding to date is shown below.

                                        PNNL REPLACEMENT FACILITY FUNDING
                                   [Budget authority in thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year     Fiscal Year
                                                                   2004 Approp.    2005 Approp.    2006 Request
----------------------------------------------------------------------------------------------------------------
Office of Science...............................................             986           4,960           3,000
NNSA............................................................             600           5,000           5,000
                                                                 -----------------------------------------------
      Total, DOE................................................           1,586           9,960           8,000
----------------------------------------------------------------------------------------------------------------

    It is too early in the formal DOE project management process (i.e., 
the Critical Decision 1 review is scheduled for this summer) to fully 
address your question about the future schedule for this facility, 
though we are quite confident about our ability to deliver a potential 
replacement facility by end of fiscal year 2009 if necessary.
           environmental molecular science laboratory funding
    Question. Dr. Orbach, the Environmental Molecular Science 
Laboratory (EMSL), a national scientific user facility operated for the 
DOE and located at Pacific Northwest National Laboratory, has been 
operating for 7 years. Over that time, EMSL has a sustained growth rate 
of about 25 percent per year, and is currently fully subscribed. In 
2004, more than 2,100 scientists from all 50 States and around the 
world utilized EMSL's extraordinary capabilities. Unfortunately, since 
its inception, the EMSL operations budget has remained flat except for 
one increase to replace its super computer. With inflation and 
increased space and labor costs, the ``buying power'' of the EMSL 
operations budget is now less than 84 percent of what it was in fiscal 
year 1998. There is thus no remaining flexibility in the operations 
budget, and without at least modest increases, user time and 
experiments will almost certainly be curtailed. How do you plan to 
address shortfalls in user facility funding such as those faced by 
EMSL?
    Answer. The Biological and Environmental Research (BER) program 
recognizes the value that EMSL brings to scientific users engaged in 
molecular level research, and that the ever increasing number of users 
reflects that value. As a result of this recognition, the BER program 
has scheduled an expert peer review of EMSL's operations and funding by 
a subcommittee of the BER Advisory Committee in mid-May 2005. One of 
the purposes of this upcoming review is to examine EMSL's current 
capabilities and areas of scientific expertise and to make 
recommendations to refine the focus of molecular-level research, 
identify the most important capabilities to maintain and to examine 
opportunities to increase the efficiency of operations.
    Question. Can you commit that you will support efforts in Congress 
to provide additional funds for Office of Science user facilities, 
including EMSL?
    Answer. We fully support the fiscal year 2006 President's Budget 
request for the Office of Science.
                 doe support for training radiochemists
    Question. Mr. Magwood, all of the DOE's national laboratories are 
projecting the need for hiring chemists with expertise in nuclear 
science and nuclear applications, e.g. radiochemists. These 
radiochemists are needed by the national laboratories to address 
problems such as advance nuclear fuel cycles, nuclear forensics for 
proliferation detection and prevention, resolving legacy environmental 
issues from the Cold War, etc. At the same time, most universities have 
allowed their programs in radiochemistry to end due to perceived 
limited long-term funding opportunities in the area, especially in 
comparison to other Federal agencies. Because of this decline in 
academic radiochemistry programs, universities in the United States 
will likely not be able to produce enough radiochemists to meet DOE's 
work force needs without assistance from DOE. Mr. Magwood, what plans 
are being made by DOE to support our Nation's universities that are 
currently training radiochemists and to enable those universities to 
significantly increase the number of students they are training?
    Answer. The Department's Office of Nuclear Energy, Science and 
Technology initiated a grant program designed to arrest the decline in 
the radiochemistry discipline at U.S. universities in fiscal year 1999. 
We are continuing this program and expect to make awards to three or 
four schools in 2005. We have allocated $300,000 per year for this 
program. These funds will be used for recruiting and retaining graduate 
and post-graduate students and for the support of faculty and 
radiochemistry research. Our radiochemistry program continues to 
strengthen the discipline in the United States.
    Question. Mr. Magwood, what is DOE's plan to invest in research 
programs at these universities and to assist these institutions in 
upgrading their laboratories for hands-on work with radioactive 
materials?
    Answer. Our plans for fiscal years 2005/2006 are to continue the 
support of the Nuclear Engineering Research and Education (NEER) 
program at about $5.0 million with the number of awards varying between 
15-26 each year to the Nation's universities. We will continue to 
upgrade facilities, including laboratories and research reactors to 
enable students and faculty to conduct research at universities through 
the Innovations in Nuclear Infrastructure and Education (INIE), 
involving 33 institutions in six distinct research consortia. INIE has 
provided and will continue to provide the means for universities to 
cooperate with each other in achieving research that benefits not one 
university but many. In addition, the University Reactor 
Instrumentation program will provide funding for equipment upgrades at 
university reactors and associated facilities as well as for the 
purchase of security equipment to ensure increased facility security. 
All of these programs are designed to provide students the 
opportunities to have hands-on research throughout their academic 
careers.
    Question. Mr. Magwood, our university research reactors in the 
United States are playing a vital role in supporting essential nuclear 
infrastructure for our country. For example, some are used by 
scientists in the national laboratories for nuclear security purposes, 
by other industries for various commercial applications, and by medical 
communities to develop new technologies for the diagnosis and treatment 
of diseases. Most of the Nation's university research reactors benefit 
significantly from the regional university reactor consortia described 
above, but some do not, especially when they are not associated with a 
nuclear engineering program. The facility at Washington State 
University serves our Nation very effectively, especially in detecting 
nuclear proliferation, but benefits only marginally from the Western 
States University reactor consortium because WSU does not have a 
nuclear engineering program. Mr. Magwood, what plans are being made by 
DOE to assist such university programs in the maintenance of this 
critical infrastructure for the Nation while also providing nuclear 
science education in areas such as radiochemistry?
    Answer. The DOE Office of Nuclear Energy, Science and Technology 
(NE) University Programs effort is designed to support a wide variety 
of universities including those with radiochemistry, health physics and 
nuclear engineering programs. In addition, there are approximately 12 
schools receiving support from NE that do not possess a nuclear 
engineering program. These schools, either through the Innovations in 
Nuclear Infrastructure and Education (INIE) program or other 
educational programs, are receiving funding to support students, 
faculty and research. We consider these institutions to be vital to the 
scientific infrastructure of our universities and the Nation.

                          SUBCOMMITTEE RECESS

    Senator Domenici. With that, thanks for your efforts, and 
for your testimony, and we stand in recess.
    [Whereupon, at 3:08 p.m., Tuesday, March 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
